No. _____
IN THE

Supreme Court of the United States

————
INDIAN RIVER COUNTY, FLORIDA; INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,
Petitioners,
v.
UNITED STATES DEPARTMENT OF TRANSPORTATION;
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS
SECRETARY OF TRANSPORTATION; UNDER SECRETARY
OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM,
IN HIS OFFICIAL CAPACITY AS ASSOCIATE
ADMINISTRATOR OF THE FEDERAL RAILROAD
ADMINISTRATION; AAF HOLDINGS LLC,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
DYLAN REINGOLD
County Attorney
INDIAN RIVER COUNTY
1801 27th St.
Vero Beach, FL 32960
J. MICHAEL LUTTIG*
728 West Lionshead Cir.
Vail, CO 81657
*

Admitted only in Virginia and
the District of Columbia

JEFFREY A. LAMKEN
Counsel of Record
JAMES A. BARTA
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com

(Additional Counsel Listed on Inside Cover)
:,/621(3(635,17,1*&2,1&±  ±:$6+,1*721'&

LAUREN F. DAYTON
MOLOLAMKEN LLP
430 Park Ave., 6th Floor
New York, NY 10022
(212) 607-8160
ELIZABETH K. CLARKE
MOLOLAMKEN LLP
300 N. LaSalle St., Suite 5350
Chicago, IL 60654
(312) 450-6700
Counsel for Petitioners


QUESTION PRESENTED
The Internal Revenue Code authorizes the issuance of
tax-exempt bonds to finance “qualified highway or surface freight transfer facilities.” 26 U.S.C. § 142(a)(15).
That term is defined, in relevant part, to mean “any surface transportation project which receives Federal assistance under title 23.” Id. § 142(m)(1)(A). The Department of Transportation has taken the position that a
facility is a project “which receives Federal assistance
under title 23” so long as it “benefits from” federal Title
23 expenditures, even if the facility does not receive, has
never received, and is not even eligible to receive such
assistance. In this case, the court of appeals deferred to
the Department of Transportation’s view under Skidmore v. Swift & Co., 323 U.S. 134 (1944). The court did
not, however, find that the statute was ambiguous or
discuss the meaning of the statutory term “receives”
before doing so. The question presented is:
Whether the court of appeals properly deferred to the
agency’s informal views under Skidmore, without finding
the statute ambiguous or applying (much less exhausting) traditional interpretive tools.

(i)

ii
PARTIES TO THE PROCEEDINGS BELOW
Indian River County, Florida, and Indian River
County Emergency Services District were plaintiffs in
the district court and appellants in the court of appeals.
The United States Department of Transportation;
Elaine L. Chao, in her official capacity as Secretary of
Transportation; Derek Kan, in his official capacity as
Under Secretary of Transportation for Policy; the
Federal Railroad Administration; and Paul Nissenbaum,
in his official capacity as Associate Administrator of the
Federal Railroad Administration, were defendants in the
district court and appellees in the court of appeals.
Derek Kan resigned as Under Secretary of Transportation for Policy in June 2019, and a successor has not
been appointed. Joel Szabat, the Assistant Secretary for
Aviation & International Affairs, currently performs the
functions and duties of the Under Secretary.
AAF Holdings LLC intervened on behalf of the
defendants in the district court and was an appellee in
the court of appeals.
Martin County, Florida, and Citizens Against Rail
Expansion in Florida were plaintiffs in the district court.
They dismissed their claims during the district court
proceedings and did not participate in the court of
appeals proceedings below.

iii
STATEMENT OF RELATED PROCEEDINGS
The proceedings directly related to this petition within
the meaning of Rule 14.1(b)(iii) are:
x Indian River County, et al. v. Dep’t of Transp., et
al., No. 19-5012 (D.C. Cir.), judgment entered on
December 20, 2019; and
x Martin County, et al. v. Dep’t of Transp., et al.,
No. 1:18-cv-00333 (D.D.C.), judgment entered on
December 24, 2018.

TABLE OF CONTENTS
Page
Opinions Below.............................................................
Statement of Jurisdiction ...........................................
Statutory Provisions Involved ...................................
Preliminary Statement ...............................................
Statement ......................................................................
I. Statutory and Regulatory Background .......
A. Private Activity Bonds...........................
B. “Qualified Highway or Surface
Freight Transfer Facilities”
Under 26 U.S.C. § 142 ............................
C. The Department of
Transportation’s Implementation
of § 142(m) ................................................
II. Proceedings Below ..........................................
A. The Planned Passenger Rail Line .......
B. The Bond Allocations .............................
C. District Court Proceedings ...................
D. Court of Appeals Proceedings ..............
Reasons for Granting the Petition ............................
I. The Court of Appeals Deferred Under
Skidmore to an Informal Agency
Interpretation That Contradicts the
Statute’s Plain Meaning .................................
A. The Court of Appeals’ Decision
Defies the Statute’s Text .......................
B. The Court of Appeals Converted
Skidmore Deference into Judicial
Abdication ................................................
(v)

2
2
2
2
4
4
4

5

6
7
7
7
8
11
12

15
16

21

vi
TABLE OF CONTENTS—Continued
Page
II. As This Case Illustrates, the Lower
Federal Courts Are in Disarray Over
Skidmore .......................................................... 25
A. This Court’s Guidance Regarding
Skidmore Has Been Inconsistent ........ 25
B. This Court’s Inconsistent
Decisions Have Contributed to
Disarray in Lower Federal Courts ...... 28
III. The Question Presented Is Important
and Recurring .................................................. 30
Conclusion ..................................................................... 33
Appendix A – Opinion of the Court
of Appeals (December 20, 2019) ............................ 1a
Appendix B – Judgment of the Court
of Appeals (December 20, 2019) ............................ 33a
Appendix C – Opinion of the District Court
(December 24, 2018) ............................................... 35a
Appendix D – Relevant Statutory Provisions.......... 116a
Appendix E – Letter of Edward V.A. Kussy
(October 7, 2015)...................................................... 128a
Appendix F – Declaration of Paul Baumer
(May 15, 2015) .......................................................... 133a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Air Transp. Ass’n of Am., Inc. v. FAA,
921 F.3d 275 (D.C. Cir. 2019) ........................... 31
Alaska Dep’t of Envtl. Conservation
v. EPA, 540 U.S. 461 (2004) ........................... 27, 28
Allentown Mack Sales & Serv., Inc.
v. NLRB, 522 U.S. 359 (1998) ........................... 22
Ammex, Inc. v. United States,
367 F.3d 530 (6th Cir. 2004) ...........................
29
Auer v. Robbins, 519 U.S. 452 (1997) ......... 14, 31, 32
Baylor Cty. Hosp. Dist. v. Price,
850 F.3d 257 (5th Cir. 2017) .............................. 31
Cervantes v. Holder,
597 F.3d 229 (4th Cir. 2010) .............................. 28
Chevron U.S.A. Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837 (1984) .............. passim
Christopher v. SmithKline Beecham
Corp., 567 U.S. 142 (2012) .............................. 31, 33
Davis v. Mich. Dep’t of Treasury,
489 U.S. 803 (1989) ............................................. 19
Delaware v. Surface Transp. Bd.,
859 F.3d 16 (D.C. Cir. 2017) ............................. 31
E.I. Du Pont De Nemours & Co.
v. Smiley, 138 S. Ct. 2563 (2018) ...................... 24
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018)......................................... 32
Estrada-Rodriguez v. Lynch,
825 F.3d 397 (8th Cir. 2016) .............................. 29
FDIC v. Meyer, 510 U.S. 471 (1994) ..................... 27

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Fed. Express Corp. v. Holowecki,
552 U.S. 389 (2008) ....................................... passim
Gen. Dynamics Land Sys., Inc.
v. Cline, 540 U.S. 581 (2004) ................... 21, 22, 27
Gonzales v. Oregon,
546 U.S. 243 (2006) ............................ 22, 23, 26, 33
Gross v. FBL Fin. Servs., Inc.,
557 U.S. 167 (2009) .......................................... 16, 23
Hayes v. Harvey,
903 F.3d 32 (3d Cir. 2018) ................................. 31
Hughes Aircraft Co. v. Jackson,
525 U.S. 432 (1999) .......................................... 15, 22
INS v. Cardoza-Fonseca,
480 U.S. 421 (1987) .......................................... 22, 32
Kasten v. Saint-Gobain Performance
Plastics Corp., 563 U.S. 1 (2011) ...................... 33
Kisor v. Wilkie,
139 S. Ct. 2400 (2019)............................... 26, 31, 32
Kucana v. Holder,
558 U.S. 233 (2010) ............................................. 18
Landmark Legal Found. v. IRS,
267 F.3d 1132 (D.C. Cir. 2001) ......................... 26
Lopez v. Terrell,
654 F.3d 176 (2d Cir. 2011) ............................... 31
Mansour v. Holder,
739 F.3d 412 (8th Cir. 2014) .............................. 31
Marbury v. Madison,
5 U.S. (1 Cranch) 137 (1803) ................ 3, 4, 12, 32

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Massachusetts v. Mellon,
262 U.S. 447 (1923) .......................................... 12, 15
McMaster v. United States,
731 F.3d 881 (9th Cir. 2013) .............................. 31
Miller v. Clinton,
687 F.3d 1332 (D.C. Cir. 2012) ......................... 26
Nat’l Ass’n of Mfrs. v. Dep’t of Def.,
138 S. Ct. 617 (2018) ........................................... 19
Raymond B. Yates, M.D., P.C. Profit
Sharing Plan v. Hendon,
541 U.S. 1 (2004) ................................................. 26
Ross v. Blake, 136 S. Ct. 1850 (2016) .................... 15
Seaview Trading, LLC v. Comm’r,
858 F.3d 1281 (9th Cir. 2017) ............................ 28
Sebelius v. Cloer, 569 U.S. 369 (2013) .................. 23
Sec’y of Labor v. Am. Future Sys., Inc.,
873 F.3d 420 (3d Cir. 2017) ............................... 31
Skidmore v. Swift & Co.,
323 U.S. 134 (1944) ....................................... passim
United States v. Mead Corp.,
533 U.S. 218 (2001) .......................................... 25, 30
United States v. Miller,
833 F.3d 274 (3d Cir. 2016) ............................... 29
Unified Turbines, Inc. v. U.S. Dep’t of
Labor, 581 F. App’x 16 (2d Cir. 2014) ............. 28
Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338 (2013) .......................................... 22, 26
Valent v. Comm’r of Soc. Sec.,
918 F.3d 516 (6th Cir. 2019) .............................. 30

x
TABLE OF AUTHORITIES—Continued
Page(s)
Varsity Brands, Inc. v. Star Athletica,
LLC, 799 F.3d 468 (6th Cir. 2015).................... 31
Warner-Lambert Co. v. United States,
407 F.3d 1207 (Fed. Cir. 2005) ......................... 26
STATUTES
Administrative Procedure Act,
5 U.S.C. § 701 et seq. ..........................................
9
National Environmental Policy Act,
42 U.S.C. § 4321 et seq. ......................................
9
Safe, Accountable, Flexible, Efficient
Transportation Equity Act: A Legacy
for Users, Pub. L. 109-59,
119 Stat. 1144 (2005) ..........................................
5
23 U.S.C. § 101(a)(21) (2006) .......................... 6, 17, 19
23 U.S.C. § 103 (2006) ........................................... 5, 17
23 U.S.C. § 104 (2006) ............................................. 17
23 U.S.C. § 106 .........................................................
6
23 U.S.C. § 106(a)(2) (2006) .................................... 17
23 U.S.C. § 130 (2006) ................................. 5, 6, 17, 18
23 U.S.C. § 130(a) (2006)............................ 6, 18, 19, 20
23 U.S.C. § 130(e)(1) (2006) ....................................
6
23 U.S.C. § 133 (2006) ........................................... 5, 17
23 U.S.C. § 145 ......................................................... 23
23 U.S.C. § 145(a) (2006)......................................... 23
23 U.S.C. § 148(b) (2006) ........................................
6
23 U.S.C. § 149 (2006) ........................................... 5, 17
23 U.S.C. § 601(a)(8)(C) (2006) ........................... 17, 20

xi
TABLE OF AUTHORITIES—Continued
Page(s)
23 U.S.C. § 602 (2006) .......................................... 17, 20
26 U.S.C. § 103(b)(1) ...............................................
4
26 U.S.C. § 141(a) ....................................................
4
26 U.S.C. § 141(b) ....................................................
4
26 U.S.C. § 141(c) ....................................................
4
26 U.S.C. § 141(d) ....................................................
4
26 U.S.C. § 141(e)(1)(A) ..........................................
5
26 U.S.C. § 142 ................................................... passim
26 U.S.C. § 142(a) .............................................. passim
26 U.S.C. § 142(a)(11).............................................. 18
26 U.S.C. § 142(a)(15)............................................ 7, 16
26 U.S.C. § 142(i) .....................................................
5
26 U.S.C. § 142(i)(1)................................................. 18
26 U.S.C. § 142(m) ............................................. passim
26 U.S.C. § 142(m)(1)(A) ................................... passim
26 U.S.C. § 142(m)(1)(C) ......................................... 20
26 U.S.C. § 142(m)(2)(A) .........................................
5
26 U.S.C. § 142(m)(2)(C) .........................................
5
26 U.S.C. § 147 .........................................................
9
28 U.S.C. § 1254(1) ..................................................
2
OTHER AUTHORITIES
Kent Barnett & Christopher J. Walker,
Chevron in the Circuit Courts, 116 Mich.
L. Rev. 1 (2017)................................................... 32

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Lisa Schultz Bressman, How Mead Has
Muddled Judicial Review of Agency
Action, Vand. L. Rev. 1443 (2005) ................... 29
The Compact Oxford English Dictionary
(2d ed. 1996) ..................................................... 18, 19
Michael Herz, Chevron Is Dead; Long Live
Chevron, 115 Colum. L. Rev. 1867 (2015) ....... 30
Kristin E. Hickman & Matthew D. Krueger,
In Search of the Modern Skidmore
Standard, 107 Colum. L. Rev. 1235 (2007) ..... 29
Steven Maguire & Joseph S. Hughes, Cong.
Research Serv., Private Activity Bonds:
An Introduction (2018) .....................................
4
Nina A. Mendelson, Regulatory
Beneficiaries and Informal Agency
Policymaking, 92 Cornell L. Rev.
397 (2007)............................................................. 33
Staff of the Joint Committee on Taxation,
General Explanation of the Tax Reform
Act of 1986, 99th Cong. 1151 (1986) ............... 4, 14
Webster’s New Int’l Dictionary
(2d ed. 1954) ..................................................... 18, 19

IN THE

Supreme Court of the United States
————

INDIAN RIVER COUNTY, FLORIDA; INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,
Petitioners,
v.
UNITED STATES DEPARTMENT OF TRANSPORTATION;
ELAINE L. CHAO, IN HER OFFICIAL CAPACITY AS
SECRETARY OF TRANSPORTATION; UNDER SECRETARY
OF TRANSPORTATION FOR POLICY; FEDERAL
RAILROAD ADMINISTRATION; PAUL NISSENBAUM,
IN HIS OFFICIAL CAPACITY AS ASSOCIATE
ADMINISTRATOR OF THE FEDERAL RAILROAD
ADMINISTRATION; AAF HOLDINGS LLC,
Respondents.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the District of Columbia Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
Indian River County, Florida, and Indian River County Emergency Services District (collectively, “Indian
River County” or the “County”) respectfully petition for
a writ of certiorari to review the judgment of the United
States Court of Appeals for the District of Columbia
Circuit in this case.

2
OPINIONS BELOW
The court of appeals’ opinion (App., infra, 1a-32a) is
reported at 945 F.3d 515. The district court’s opinion
(App., infra, 35a-115a) is reported at 348 F. Supp. 3d 17.
STATEMENT OF JURISDICTION
The court of appeals entered judgment on December
20, 2019. On March 10, 2020, the Chief Justice extended
the time in which to file a petition for a writ of certiorari
to and including May 18, 2020. No. 19A995. This Court
has jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Relevant provisions of Title 23 and Title 26 of the U.S.
Code are set forth in the appendix. App., infra, 116a127a.
PRELIMINARY STATEMENT
This case reflects an extreme example—bordering on
abdication of the judicial role—of deference to an agency’s informal interpretation of statutory text. It arises in
a case with profound implications for the federal fisc,
redirecting scarce federal resources to fund private
commercial ventures that do not qualify for federal assistance. The statute here authorizes the issuance of taxexempt bonds for a “project which receives Federal
assistance under title 23.” 26 U.S.C. § 142(m)(1)(A)
(emphasis added). Notwithstanding that clear statutory
provision, the court of appeals held that a project can be
said to “receive[ ] Federal assistance” even where it has
never received—and is not qualified to receive—a dime
of federal money.
In reaching that atextual result, the court of appeals
uncritically accepted the Department of Transportation’s
informal position that a “ ‘project * * * receives Federal
assistance under title 23’ ” as long as it “benefits from

3
assistance under Title 23” provided to others, App., infra,
26a (emphasis added)—even where, as here, the project
does not receive assistance under Title 23 and is not even
eligible for it. The court of appeals thus held that a
proposed passenger railway was eligible for a $2.1 billion
bond allocation to finance more than 160 miles of new
track because a freight railway with an adjacent track
was awarded $9 million in highway funds to improve
railway-highway crossings.
To reach that result, the court invoked Skidmore v.
Swift & Co., 323 U.S. 134 (1944), to defer to the agency’s
informal interpretation. But the court did not itself undertake an effort to engage in statutory construction, let
alone determine, after doing so, that the statute was
ambiguous. Worse, the court of appeals ended up deferring to an agency “construction” that did nothing to reconcile itself with the statute’s clear text. That surrender
of the judiciary’s constitutional role “to say what the law
is” is an extreme example, Marbury v. Madison, 5 U.S.
(1 Cranch) 137, 177 (1803)—and a perfect vehicle for
addressing the disarray in the federal courts over when,
and what is required before, the judiciary may defer to
an agency’s interpretation of the law under Skidmore.
Skidmore instructs courts to give “respect” to an
agency position if the statute is ambiguous and the agency’s position is well-founded, consistent, and persuasive.
323 U.S. at 140. But federal courts are in wide disagreement as to whether, under Skidmore, they need to
employ the customary tools of statutory construction to
interpret the statute for themselves before deciding
whether to defer to the agency’s interpretation, or
whether they may simply declare an agency’s interpretation reasonable without resort to and irrespective of
the statute’s language. This Court cannot long afford to

4
allow this disagreement to persist. The failure to obey
Skidmore’s prescriptions threatens judicial surrender of
the constitutional responsibility “to say what the law is.”
Marbury, 5 U.S. (1 Cranch) at 177.
STATEMENT
This case arises from the allocation of more than $2
billion dollars in tax-exempt private activity bonds to
finance a passenger railway in Florida.
I. STATUTORY AND REGULATORY BACKGROUND
A. Private Activity Bonds
States and local governments issue private activity
bonds, or “PABs,” to finance non-governmental activities
that putatively benefit the public, such as construction of
private airports, docks, and schools. See 26 U.S.C.
§§ 141(a)-(d), 142(a). Ordinarily, interest on bonds is subject to federal income tax. See id. § 103(b)(1). But
interest on qualified bonds is tax-exempt, which allows
issuers to offer lower interest rates. App., infra, 5a. The
savings can be significant. See Steven Maguire and Joseph S. Hughes, Cong. Research Serv., Private Activity
Bonds: An Introduction 3 (2018).
Because of the financial incentives, Congress has long
been concerned about abuse. See Staff of the Joint Committee on Taxation, General Explanation of the Tax
Reform Act of 1986, 99th Cong. 1151 (1986). During the
1986 overhaul of the Internal Revenue Code, Congress
tightened restrictions on tax-exempt private activity
bonds. See id. at 1152-1156. Congress sought in part to
ensure that “tax-exempt bonds for nongovernmental
persons should be used, to the extent possible, only for an
activity for which financing specifically has been approved.” Id. at 1154.

5
B. “Qualified Highway or Surface Freight Transfer Facilities” Under 26 U.S.C. § 142
The Internal Revenue Code authorizes issuance of
tax-exempt private activity bonds to finance 15 types of
“exempt” facilities. 26 U.S.C. § 142(a). Those facilities
include airports, docks, “high-speed intercity rail facilities” (i.e., passenger railways where trains can travel in
excess of 150 miles per hour), and—most relevant here—
“qualified highway or surface freight transfer facilities.”
26 U.S.C. § 142(a), (i); see id. § 141(e)(1)(A). At least 95%
of the net proceeds of any bond issued under § 142 must
be “used to provide” those facilities. Id. § 142(a).
The statute establishes eligibility requirements for
each type of facility, including “qualified highway or
surface freight transfer facilities.” 26 U.S.C. § 142(m).1
Under § 142(m), “any surface transportation project
which receives Federal assistance under title 23, United
States Code (as in effect on [August 10, 2005])” is a
qualified facility. Id. § 142(m)(1)(A).
In turn, Title 23—titled “Highways”—authorizes the
federal government to provide financial assistance to various projects, such as highways, bridges, and bus terminals. See 23 U.S.C. §§ 103, 130, 133, 149 (2006).2 A
“project,” for purposes of Title 23, encompasses “any
1

Enacted as part of the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (“SAFTEA-LU”), Pub. L.
109-59, 119 Stat. 1144 (2005), § 142(m)(2)(A) authorizes the issuance
of up to $15 billion of tax-exempt private activity bonds for such
facilities. The Secretary of Transportation must allocate that
amount among eligible facilities. 26 U.S.C. § 142(m)(2)(C).
2
Although the petition cites the version of Title 23 in effect on
August 10, 2005, no intervening amendments materially alter the
relevant language.

6
* * * undertaking eligible for assistance under th[at]
title.” Id. § 101(a)(21) (2006).
One source of eligible projects is the Railway-Highway
Crossings Program. See 23 U.S.C. § 130 (2006). That
program authorizes the Secretary of Transportation to
use funds from the Highway Safety Improvement Program—a federal-state program to improve safety “on
public roads,” id. § 148(b) (2006)—to pay up to the “entire
cost of construction of projects for the elimination of hazards of railway-highway crossings,” id. § 130(a), (e)(1)
(2006).
C. The Department of Transportation’s Implementation of § 142(m)
The Department of Transportation (“DOT”) has not
issued formal regulations construing 26 U.S.C. § 142(m),
but its officials have offered informal views.
For example, the Acting Chief Counsel of the Federal
Highway Administration, Edward V.A. Kussy, authored
a letter concerning § 142(m). App., infra, 128a-132a. The
letter acknowledged that § 142(m) defines a “qualified
highway or surface freight transfer facilit[y]” as “any
surface transportation project [which] receives Federal
assistance under title 23, United States Code.” Id. at
129a. The letter also acknowledged that Title 23 defines
the term “project.” Id. at 130a-131a. But the letter took
the position that an “entire transportation facility” is
eligible for financing through § 142(m) “even though only
a portion of that facility receives Federal assistance
under title 23.” Id. at 130a (emphasis added).
The Kussy letter expressed concern about the consequences of limiting PAB financing to only the portions of
a highway “actually subject to a funding agreement
under 23 U.S.C. § 106.” App., infra, 131a. Doing so, the

7
letter stated, “would induce State grantees to ‘sprinkle’
title 23 funds to every separate project or contract of an
entire facility to make full use of PAB proceeds.” Ibid.
The letter therefore stated that “any qualified facility
that includes a project funded with Federal-aid highway
funds made available under title 23” may be funded with
tax-exempt PABs, even if other elements of the facility
are not eligible for Title 23 funds. Id. at 132a. As a DOT
official later told Congress, even “a dollar” of Title 23
spending on any portion of a facility renders the whole
facility eligible for tax-exempt PABs. C.A. App. 299.
II. PROCEEDINGS BELOW
A. The Planned Passenger Rail Line
In 2011, AAF Holdings, Inc. (“AAF”) announced plans
to build a privately owned passenger railroad in Florida,
originally named All Aboard Florida and since renamed
Brightline, to connect Miami and Orlando. C.A. App.
4363. In Phase I, AAF added passenger service between
Miami and West Palm Beach. Ibid. Now, in Phase II,
AAF is building a line between West Palm Beach and
Orlando. Ibid.
Over 128 miles of track AAF is building for Phase II
will use an existing railroad right-of-way owned by the
Florida East Coast Railway (“FECR”). C.A. App. 43624363. That right-of-way already contains track that
FECR uses for freight trains. C.A. App. 4362. AAF is
adding a second track for passenger trains alongside the
existing freight track. C.A. App. 4363.
B. The Bond Allocations
In August 2014, AAF applied to DOT for an allocation
of tax-exempt private activity bonds under 26 U.S.C.
§ 142(a)(15) to finance Brightline. App., infra, 12a. That
provision authorizes bonds for a “surface transportation

8
project which receives Federal assistance under title 23.”
26 U.S.C. §142(m)(1)(A) (emphasis added).
AAF, however, had not received federal funds under
Title 23 to build Brightline. See App., infra, 59a-60a;
C.A. App. 308. AAF thus invoked prior improvements to
highway-railway crossings made by FECR along
FECR’s right-of-way, which were supported by about
$21 million in Title 23 funds. C.A. App. 4496-4510. Those
funds had been “awarded to the FE[C]R, not A[A]F,”
and the improvements were “built to accommodate the
heavy weight requirements of rail freight not passenger.”
C.A. App. 308. But DOT nonetheless provisionally approved AAF’s application for $1.75 billion in tax-exempt
PABs based on FECR’s prior improvements to crossings. C.A. App. 4511-4513. That provisional allocation
was later replaced with a final allocation of $600 million in
tax-exempt bonds for Phase I. C.A. App. 4517-4520.
To finance Phase II, AAF sought another $1.15 billion
in tax-exempt bonds. C.A. App. 4521-4539. AAF represented that its rail line had “received financial assistance
under Title 23 of the U.S. Code” because “approximately
$9 million” of Title 23 funds “ha[d] been invested in the
entire corridor” since the “planning process for All
Aboard Florida started in December 2011.” C.A. App.
4536 (emphasis added). DOT approved that application
as well. App. infra, 12a. It later increased the Phase II
allocation to $2.1 billion, bringing DOT’s total bond allocation to AAF to $2.7 billion. Ibid.
C. District Court Proceedings
1. Petitioner Indian River County is a local government on Florida’s Treasure Coast. The new Brightline
track would traverse the County, bisecting roads and
paths that residents regularly cross. App., infra, 38a;
C.A. App. 1736. Indian River County challenged the

9
Phase II bond allocation under the Administrative Procedure Act, 5 U.S.C. § 701 et seq. C.A. App. 14. The allocation was arbitrary, capricious, and contrary to law, the
County argued, because AAF’s passenger railroad had
not received federal assistance under Title 23. C.A. App.
15. The construction of AAF’s passenger railroad, the
County alleged, is not even “eligible for funding under
Title 23.” C.A. App. 96.3
Defending the bond allocation, DOT argued that it
“has never required a project sponsor to show that it has
received” Title 23 assistance; DOT instead deems projects eligible merely if they are “directly benefitted by
expenditures of Title 23 funds.” D. Ct. Dkt. 36-1 at 23-24
(emphasis added) (citing a declaration from an agency
official). According to DOT, it had allocated $1.34 billion
in bonds to an intermodal logistics park in Illinois “based
on” Illinois’s plans “to spend Title 23 funds to improve a
bridge near the facility and to widen and reconstruct a
nearby interstate freeway.” App., infra, 135a-136a (emphasis added). DOT also urged it had allocated $1.3 billion in PABs to a Maryland light-rail facility “based on”
Maryland’s “plans to spend $1 million in Title 23 funds to
upgrade” a “shared use trail adjacent to the planned rail
line.” Id. at 135a (emphasis added).
2. The district court granted summary judgment to
the defendants. App., infra, 37a. The court rejected
DOT’s challenge to the County’s standing, finding that
the County’s interests fall within the zone protected by
26 U.S.C. § 142(m). Id. at 47a-52a. But the court upheld
3

The County’s challenges under the National Environmental Policy
Act, 42 U.S.C. § 4321 et seq., and to DOT authorizations under 26
U.S.C. § 147, see C.A. App. 14, 16, are no longer at issue.

10
the challenged bond allocation, deferring to DOT’s position under Chevron U.S.A. Inc. v. Natural Resources
Defense Council, Inc., 467 U.S. 837 (1984). App., infra,
45a, 52a. “The court,” it reasoned, “must defer to any
reasonable agency interpretation, which need not be the
one ‘deemed most reasonable by the courts.’ ” Id. at 45a
(internal citations omitted).
The district court accepted DOT’s view that § 142(m)
“allow[s] for PAB allocation to projects based on direct
benefits from” prior “Title 23 spending” on a separate
project by a different entity. App., infra, 59a (emphasis
added). The court thought bond allocations could not
rest on “incidental and unintentional benefit[s].” Id. at
60a. But it held that a facility “receives Federal assistance under title 23” if “funds [a]re disbursed to benefit
the project.” Ibid. Applying that construction, the court
observed that “approximately $9 million” had been disbursed to improve highway crossings on a right of way
that AAF’s rail line would use. Ibid. The court admitted
that the $9 million had been disbursed to “FECR rather
than AAF.” Id. at 59a-60a. And it recognized that the
upgrades were to accommodate “planned increases in
FECR freight traffic.” Id. at 60a. While no evidence
showed that Florida had disbursed Title 23 funds to
FECR to benefit AAF’s passenger line, the court was
“skeptical” that Florida had “disbursed” the “Title 23
funding without the knowledge—if not purpose—of ” doing so. Ibid. The court thus held that AAF’s line had
“received” Title 23 assistance despite it never having received (or been eligible for) a single federal dollar. Ibid.
The court also rejected the argument that “Phase II of
the AAF railway” is not a “project” within the meaning of
§ 142(m). App., infra, 61a. Relying on the Kussy letter,
the court held that the “expenditure of Title 23 funds for

11
discrete highway-rail crossings * * * sufficed to render
the whole [rail] corridor eligible for PAB allocation.”
Ibid. The Kussy letter’s analysis, the court stated, “reflects a reasonable assessment of congressional intent
and the statutory text.” Ibid. The court did not identify
any statutory provisions that, in its view, supported the
letter’s assessment.
D. Court of Appeals Proceedings
The D.C. Circuit affirmed. App., infra, 4a.4 Like the
district court, the D.C. Circuit acknowledged that, to
qualify for PABs, the project must be one that “receives
Federal assistance.” Id. at 24a. Like the district court,
however, it deferred to DOT’s view that a facility need
not “receive[ ]” a single federal dollar—or even qualify
for federal money—to be a “project which receives
Federal assistance.” Instead, it accepted DOT’s position
that a “ ‘project * * * receives Federal assistance under
title 23’ ” if it merely, “in whole or part[,]” “benefits from
assistance under Title 23.” Id. at 26a (emphasis added).
The D.C. Circuit did not decide whether DOT’s informally expressed view of § 142(m) warrants deference
under Chevron. Instead, the court invoked Skidmore v.
Swift & Co., 323 U.S. 134 (1944). App., infra, 25a. “When
an agency’s interpretation of a statute has been binding
on agency staff for a number of years, and it is reasonable and consistent with the statutory framework,” the
court stated, “deference to the agency’s position is due
under Skidmore.” Ibid. (citing Fed. Express Corp. v.
Holowecki, 552 U.S. 389, 399-402 (2008)).

4

The court of appeals agreed that the County had standing. App.,
infra, 17a-23a.

12
The court found that DOT’s position was “consistent”
and “eminently reasonable.” App., infra, 25a-26a. The
court found “persuasive” the Kussy letter’s statement
that a “narrow reading of the word ‘project’ would ‘distort the longstanding way in which facilities are actually
funded’ ” and have other adverse impacts. Id. at 26a.
The court stated that it had “no reason to question”
DOT’s view because the “statute does not require an applicant for PABs to be the direct recipient of Federal
assistance under Title 23; rather, the ‘project’ at issue
must receive assistance under Title 23.” Id. at 26a-27a.
The court, however, did not point to any passage from
the Kussy letter addressing the meaning of “receive.”
Nor did it cite any other legal authority to support the
view that a “project which receives” Title 23 funding
means a “project which benefits from” Title 23 assistance
“received” by a different project.
Having deferred to DOT’s view, the court of appeals
upheld the (now) $2.1 billion bond allocation for Phase II
of AAF’s passenger railroad based on the “benefits” it
enjoyed from $9 million previously disbursed to another
company, FECR, to improve crossings along the right-ofway used by FECR’s freight trains. App., infra, 24a,
27a-28a. Observing that about $2.2 million of the funds
were used to upgrade crossings that AAF’s Phase II rail
line will traverse, the court stated that “the benefits
afforded to” AAF’s rail line “are obvious.” Id. at 24a, 28a.
REASONS FOR GRANTING THE PETITION
The Framers understood that “[i]t is emphatically the
province and duty of the judicial department to say what
the law is.” Marbury v. Madison, 5 U.S. (1 Cranch) 137,
177 (1803). The Constitution commits “to the judiciary
the duty of interpreting and applying” the written laws.
Massachusetts v. Mellon, 262 U.S. 447, 488 (1923). This

13
case represents an unconscionable abdication of that duty
under Skidmore v. Swift & Co., 323 U.S. 134 (1944).
The statute at issue here sets aside tax-exempt bonds
to finance surface-transportation facilities that are “project[s] which receive[ ] Federal assistance under title 23.”
26 U.S.C. § 142(m)(1)(A) (emphasis added). The statute
is unambiguous: To be eligible, the facility must receive
federal funds under Title 23. The court of appeals
reached the opposite result by deferring to the agency’s
counter-textual view that a facility need not “receive[ ]” a
dollar of federal assistance—or even qualify for federal
money—to be a “project which receives Federal assistance.” It accepted DOT’s position that a “ ‘project * * *
receives Federal assistance under title 23’ ” if it merely
“benefits from assistance under Title 23,” including from
Title 23 assistance afforded other applicants and projects. App., infra, 26a (emphasis added).
The court of appeals thus gave judicial imprimatur to a
$2.1 billion bond allocation to finance the construction of
more than 160 miles of a new passenger railroad based
on putative benefits “received” when $9 million was
awarded to a different railroad to eliminate hazards from
highway-railway crossings on a shared right-of-way.
App., infra, 28a. Under the court’s view, and the agency’s, a facility can be said to “receive” federal assistance
by “benefit[ing] from” federal spending nearby. In this
very case, DOT touted its allocation of $1.3 billion in taxexempt PABs to another rail facility “based on * * * plans
to spend $1 million in Title 23 funds to upgrade” a “trail
adjacent to the planned rail line.” Id. at 135a (emphasis
added).
Worse, the court of appeals did not even suggest the
statute was ambiguous before it embraced the agency’s
effort to rewrite it. The court did not ask what the

14
statute means using the traditional tools of statutory
construction. It did not inquire what it means to “receive[ ] Federal assistance,” as a matter of ordinary parlance or within Title 23 specifically. The court did not
discuss the legislative context or purpose of the statute—
a statute designed to restrict PABs to a defined set of
eligible facilities for “which financing specifically has
been approved.” Staff of the Joint Committee on Taxation, supra, at 1154. Rather, the court summarized a
letter from an agency official that offered a few policy
rationales for another point altogether, without addressing the relevant statutory terms and structural
considerations. See App., infra, 25a-26a. The court then
declared that the agency’s informal views were sufficiently “long-standing” and “reasonable” to warrant
“deference” under Skidmore. Ibid.
This Court has, in recent years, increasingly emphasized that deference under Chevron U.S.A. Inc. v. Natural
Resources Defense Council, Inc., 467 U.S. 837 (1984), and
Auer v. Robbins, 519 U.S. 452 (1997), do not displace the
judiciary’s responsibility to interpret and apply the text
that Congress has enacted into law. Skidmore deference
is not a license to abdicate those judicial responsibilities,
let alone an exemption from the requirement that courts
apply the traditional tools of statutory interpretation
before deferring to agency views.
Skidmore simply allows courts to give “respect” to an
agency’s construction of an ambiguous statute if the
agency’s position is well-founded, consistent, and persuasive. Skidmore, 323 U.S. at 140. Before deferring to an
agency’s interpretation, a court at least must examine the
statute and conclude that it is ambiguous. Yet the courts
of appeals are in disarray on whether, under Skidmore,
they must interpret the statute themselves before defer-

15
ring to agencies’ interpretations. The disarray in the federal courts promises to grow. The decision below is an
extreme example of the view that no judicial interpretation is called for or required.
As such, this case highlights the enormity of the constitutional problem that has developed in the lower
courts. Contrary to Congress’s intent, clearly expressed
in statutory text, billions of dollars of federally subsidized
bonds are being allocated to a manifestly ineligible
private commercial enterprise based on the notion that
Skidmore authorizes uncritical deference to an agency’s
informal interpretation without any judicial inquiry into
whether the statute is clear on its face or unambiguous.
Review of this important case from the D.C. Circuit is
warranted.
I. THE COURT OF APPEALS DEFERRED UNDER SKIDMORE TO AN INFORMAL AGENCY INTERPRETATION
THAT CONTRADICTS THE STATUTE’S PLAIN MEANING
In our system of government, “the duty of making
laws” lies with Congress and “the duty of interpreting
and applying them” lies with the courts. Mellon, 262 U.S.
at 488. Statutory interpretation “always” must “begin[ ]
with the text,” Ross v. Blake, 136 S. Ct. 1850, 1856 (2016),
and “end[ ] there as well” if “the statutory language provides a clear answer,” Hughes Aircraft Co. v. Jackson,
525 U.S. 432, 438 (1999). “The judiciary is the final
authority on issues of statutory construction and must
reject administrative constructions which are contrary to
clear congressional intent.” Chevron, 467 U.S. at 843 n.9.
The court below abdicated the judicial duty to apply
unambiguous statutory text. Section 142 authorizes DOT
to allocate tax-exempt private activity bonds only to
facilities that are “projects which receive Federal assistance under title 23.” 26 U.S.C. § 142(m)(1)(A) (emphasis

16
added). Invoking Skidmore, however, the decision below
deferred to a DOT construction of “projects which receive Federal assistance” so expansive that it encompasses facilities that do not receive, have never received,
and are not eligible for, Title 23 assistance. Rather than
require a project to “receive Federal assistance,” the
court accepted the agency’s view that § 142(m) extends to
any facility that happens to “benefit[ ] from” a project
funded under Title 23. App., infra, 26a. The court thus
upheld a $2.1 billion allocation of tax-exempt bonds to
finance the construction of AAF’s new passenger rail
line—which receives no Title 23 funds—based on the
claim that the line derives “benefits from” $9 million in
Title 23 funds received by another entity to spend on
railway-highway crossing improvements. Id. at 26a-28a.
A. The Court of Appeals’ Decision Defies the
Statute’s Text
1 . It is axiomatic that “ ‘[s]tatutory construction must
begin with the language employed by Congress and the
assumption that the ordinary meaning of that language
accurately expresses the legislative purpose.’ ” Gross v.
FBL Fin. Servs., Inc., 557 U.S. 167, 175 (2009). Here, the
statutory language could not be clearer. Under § 142,
tax-exempt private activity bonds may be issued “to
provide” a “qualified highway or surface freight transfer
facilit[y].” 26 U.S.C. § 142(a)(15). Such facilities include a
“surface transportation project which receives Federal
assistance under title 23.” Id. § 142(m)(1)(A) (emphasis
added). Thus, unless the “surface transportation project
* * * receives Federal assistance” under Title 23, it is not
eligible for a bond allocation. Ibid. Indeed, 95% of the
bond allocation must be dedicated “to provide” the “project which receives Federal assistance under title 23.”
Id. § 142(a), (m)(1)(A).

17
Section 142’s clear text should have made resolution of
this case straightforward. It was undisputed that no
Title 23 monies were provided to AAF to build the 168.5mile, $2.1 billion stretch of passenger rail line, or otherwise. The only identified projects that received Title 23
funds were improvements, costing about $9 million, that
another company, FECR, made to railway-highway
crossings along its right-of-way. See C.A. App. 309, 4536;
AAF C.A. Br. 34 n.7 (“FECR * * * was the direct
recipient of the Title 23 funds.”). The facility AAF seeks
to provide here, a new passenger railroad, thus was not a
“project which receives Federal assistance under title
23.” 26 U.S.C. § 142(m)(1)(A). Nor were the bonds allocated to AAF dedicated “to provid[ing]” the highwayrailway crossings that had received assistance. Id.
§ 142(a), (m)(1)(A). AAF obtained tax-exempt bonds to finance a facility that does not receive and has never
received a single federal dollar.5
In fact, AAF’s miles of new rail line were not even
eligible to receive Federal assistance under Title 23.
Title 23 defines “project” as an “undertaking eligible for
assistance under this title.” 23 U.S.C. § 101(a)(21) (2006).
It then defines eligible undertakings in detail. See, e.g.,
id. §§ 103, 104, 130, 133, 149 (2006). Section 130, for
example, authorizes the government to cover the cost of
“projects for the elimination of hazards of railway5

Title 23 contains mechanisms to avoid confusion about what is receiving assistance. For every project, “the State transportation department” must execute a “project agreement.” 23 U.S.C. § 106(a)(2)
(2006). Crossing upgrades cannot be confused with a new rail line.
Title 23 recognizes that those are different: While § 130 provides
assistance to crossings only, other provisions provide assistance to
“intercity * * * rail facilities” that meet different requirements. 23
U.S.C. § 601(a)(8)(C) (2006); see id. § 602 (2006).

18
highway crossings.” Id. § 130(a) (2006). It provides illustrative examples of what is encompassed within those
projects (e.g., “the reconstruction of existing railroad
grade crossing structures”). Ibid. But the bonds here
were not issued to finance projects eligible under § 130;
all of those projects were completed by 2014—three
years before the bonds here were allocated, see App.,
infra, 27a, 40a. The bonds here were issued to finance
the construction of 168.5 miles of new rail line in Phase
II, a project not eligible for funding under Title 23. See
C.A. App. 4524-4525, 4564-4565.
Other statutory provisions confirm that AAF’s passenger railroad is not eligible for federal funding. Section 142 makes “high-speed intercity rail facilities” eligible. 26 U.S.C. § 142(a)(11) (emphasis added). But that
category is limited to passenger rail lines supporting
speeds that exceed 150 miles per hour. Id. § 142(i)(1).
AAF’s lower-speed passenger line does not qualify. Had
Congress wished to finance such lower-speed lines
through tax-exempt bonds, “Congress could easily have
said so.” Kucana v. Holder, 558 U.S. 233, 248 (2010).
But it did not. To the contrary, Congress deliberately
excluded facilities like AAF’s lower-speed line.
2. The court of appeals reached the opposite result
only by “defer[ring]” to DOT’s view that a facility
“receives” Title 23 funding if it merely “benefits from
assistance under Title 23.” App., infra, 26a. As a matter
of ordinary English, the term “receives” does not mean
“benefits.” To “receive” something means to “take in
one’s hand, or into one’s possession,” or “to take delivery
of (a thing) from another.” The Compact Oxford English
Dictionary 1524 (2d ed. 1996); see Webster’s New Int’l
Dictionary 2076 (2d ed. 1954) (“To take, as something
that is offered, * * * paid, or the like”; “To come into

19
possession of, get, acquire, or the like”). By contrast, to
“benefit” is capacious. It means “[t]o receive benefit,” “to
get advantage,” or “to profit” from something. Oxford
English, supra, at 126; see Webster’s, supra, at 253 (“To
gain advantage; to receive benefit; to profit”). The concepts are different. If a city spends money on a beautification project, local merchants and their shops might
“benefit” from that. But no ordinary English speaker
would say they or their shops “received” city funds. Nor
would Congress. The court of appeals did not even
attempt to explain why the word “receives” can be
rewritten as “benefits from.”
Nor did the court explain how AAF’s construction of a
new railroad line is a “project” that “receives” funding
“under title 23.” The term “project” has a specific
meaning within Title 23, referring to “undertaking[s]
eligible for assistance under th[at] title.” 23 U.S.C.
§ 101(a)(21) (2006) (emphasis added). Those undertakings include the construction of railway-highway crossings; they do not include building rail lines like AAF’s.
See pp. 17-18, supra. Section 142(m), moreover, requires
that the facility receive funding “under”—i.e., “ ‘by
reason of the authority of ’ ”—Title 23. Nat’l Ass’n of
Mfrs. v. Dep’t of Def., 138 S. Ct. 617, 630 (2018). An
undertaking that is not eligible for Title 23 money cannot
possibly be said to receive assistance “under” Title 23.
The court also did not pause to grapple with § 142’s
“place in the overall statutory scheme.” Davis v. Mich.
Dep’t of Treasury, 489 U.S. 803, 809 (1989). DOT’s interpretation of § 142 is irreconcilable with the entire statutory framework. Section 142 delineates specific facilities
eligible for tax-exempt bonds. See 26 U.S.C. § 142(a).
Similarly, Title 23 distinguishes among “projects for the
elimination of hazards of railway-highway crossings,” 23

20
U.S.C. § 130(a) (2006), “project[s] for intercity * * * rail
facilities” meeting particular requirements, id.
§§ 601(a)(8)(C), 602 (2006), and other undertakings. But
DOT’s view, adopted below, renders those careful
restrictions illusory: It authorizes PAB allocations for
activities that are not projects eligible for Title 23
assistance so long as they “benefit[ ] from” assistance
provided to eligible projects.
DOT’s position in the courts below underscores the
extraordinary breadth of its view embraced by the court
of appeals. Defending the bond allocation here, DOT
touted that it had allocated $1.3 billion in PABs to a rail
line in Maryland “based on * * * plans to spend $1 million
in Title 23 funds to upgrade” a “trail adjacent to the
planned rail line.” App., infra, 135a (emphasis added).
DOT stated that it had allocated $1.34 billion in bonds to
an intermodal logistics park “based on” state plans “to
spend Title 23 funds to improve a bridge near the
facility” and “a nearby interstate freeway.” Id. at 135a136a (emphasis added).6 But § 142(m) does not authorize
the issuance of tax-exempt bonds for facilities that
happen to be “nearby” or “adjacent” to projects receiving
Title 23 assistance. It requires, in language that could
not be clearer, that the facilities actually “receive[ ]” Title
23 assistance.
By rewriting the statutory language, DOT and the
court of appeals denuded it of all intended meaning. The
resulting construction of § 142(m) is so broad that billions
of dollars in tax-exempt bonds can be allocated to
6

The bond allocation there was under 26 U.S.C. § 142(m)(1)(C),
which likewise requires the facility to “receive[ ] Federal assistance
under either title 23 or title 49.”

21
facilities that do not receive and are not even eligible to
receive Title 23 funding. In this case, for example, it
permitted DOT to allocate $1.15 billion—later increased
to $2.1 billion—in bonds to build a 168.5-mile stretch of
passenger rail line based on $9 million disbursed to a
different company, a freight-train operator, to improve a
few dozen railway-highway crossings along the same
right-of-way.
B. The Court of Appeals Converted Skidmore
Deference into Judicial Abdication
The court of appeals justified its atextual holding by
invoking Skidmore. App., infra, 25a-26a. The court,
however, did not construe the relevant text, let alone find
it ambiguous, before resorting to deference. Nor did the
court make any effort to resolve any putative ambiguity
through the traditional “devices of judicial construction.”
Gen. Dynamics Land Sys., Inc. v. Cline, 540 U.S. 581,
600 (2004). Instead, the court pronounced DOT’s view of
§ 142(m) to be “long-standing,” “consistent,” and “eminently reasonable.” App., infra, 25a-26a.
But Skidmore does not permit courts to so completely
jettison customary principles of interpretation or
abdicate their duty to say what the law is. In reading
Skidmore to sanction abandonment of statutory text—or
even an effort to construe that text—the court of appeals
fundamentally erred. This Court’s decision in Skidmore
recognizes that “respect” may be accorded an agency’s
views of a statute if those views have the “power to
persuade.” 323 U.S. at 140. But that power is not a
power to persuade in the abstract, but rather under the
language of the statute. Nowhere does Skidmore abrogate the constitutional imperative that courts construe
statutory text, a process that begins and ends with
statutory text if that “statutory language provides a clear

22
answer.” Hughes, 525 U.S. at 438. “Even for an agency
able to claim all the authority possible under Chevron,
deference to its statutory interpretation is called for only
when the devices of judicial construction have been tried
and found to yield no clear sense of congressional intent.”
Gen. Dynamics, 540 U.S. at 600 (citing INS v. CardozaFonseca, 480 U.S. 421, 446-447 (1987)). Nothing less is
tolerable under Skidmore’s less deferential standard.
See ibid.
Skidmore, moreover, permits a court to “follow an
agency’s rule only to the extent it is persuasive.” Gonzales v. Oregon, 546 U.S. 243, 269 (2006). Courts thus ask
whether the agency has considered “specific provisions”
of the statute, “the thoroughness evident in its consideration, the validity of its reasoning, [and] its consistency with earlier and later pronouncements.” Skidmore,
323 U.S. at 140. But certain considerations matter more
than others. An agency’s failure to consider “specific
provisions of [a] statutory scheme” should be disqualifying even if that failure to consider the text is
“longstanding.” Univ. of Tex. Sw. Med. Ctr. v. Nassar,
570 U.S. 338, 360-361 (2013). A consistent and longstanding error is still an error. See Allentown Mack Sales &
Serv., Inc. v. NLRB, 522 U.S. 359, 374 (1998).
In this case, the court did not even ask or consider
whether DOT had anchored its position in the statute’s
text and structure. Instead, the court recited the Kussy
letter’s statement that the agency’s construction would
avoid undesirable outcomes, crediting (without explanation) the letter’s assertion “that a narrow reading of the
word ‘project’ would ‘distort the longstanding way in
which facilities are actually funded’ ” and “ ‘create needless red tape.’ ” App., infra, 25a-26a. Such “policy arguments,” however, cannot overcome a statute’s clear text.

23
Sebelius v. Cloer, 569 U.S. 369, 381 (2013). And while the
court echoed the letter’s statement that the agency’s
reading accorded with Congress’s intent, App., infra,
26a, the court nowhere explained why it so believed,
much less why the statute’s text did not “ ‘accurately express[ ] the legislative purpose,’ ” Gross, 557 U.S. at 175.7
Moreover, the Kussy letter does not even address
what it means to “receive[ ] Federal assistance under title
23,” 26 U.S.C. § 142(m)(1)(A) (emphasis added), as the
court’s description makes clear, see App., infra, 26a. The
letter nowhere suggests that a project that “benefits”
from “nearby” federally funded improvements can be
said to “receive” Federal assistance. The letter merely
explains why DOT believes tax-exempt bonds can be
issued to support an entire facility if part of that facility
constitutes a “project funded with Federal-aid highway
funds.” Id. at 128a-132a. The Kussy letter cannot support the contention that, because FECR was awarded
funds to improve crossings along FECR’s right-of-way,
Brightline—which never received a federal dollar under
Title 23—can be deemed to have “received Federal assistance.” The Kussy letter’s failure to address key parts of
§ 142’s “text and design” deprives it of any “power to
persuade” on the actual issue—the meaning of “receives
Federal assistance.” Gonzales, 546 U.S. at 269-270.
The court’s textual analysis consisted of its conclusory
observation that it had “no reason to question” the
agency’s position “because the statute does not require
7

The Kussy letter cites 23 U.S.C. § 145, App., infra, 130a, but that
provision has no bearing on the phrase a “project which receives
Federal assistance under title 23.” It says the States can “determine
which projects shall be federally financed” under Title 23. 23 U.S.C.
§ 145(a) (2006).

24
an applicant for PABs” (like AAF) “to be the direct
recipient of Federal assistance.” App., infra, 26a-27a.
That misses the point. The issue is not whether Title 23
funds were “directly” or “indirectly” spent on AAF’s rail
line. The issue is whether AAF’s enterprise to build a
new rail line “receives” funds under Title 23. It does
not—and never has.
The court of appeals did emphasize that DOT’s position was “long-standing” and “consistent.” App., infra,
25a-26a. That alone does not make a position “persuasive.” See p. 22, supra. Moreover, DOT’s view that
“receives” means “benefits from” does not trace to the
Kussy letter, which says no such thing. It traces to a
declaration DOT filed in 2015 in related litigation over
the bond allocation for Phase I of AAF’s rail line. See
D. Ct. Dkt. 36-1 at 24 (citing D. Ct. Dkt. 19-2 in Martin
County v. Dep’t of Transp., No. 1:15-cv-00632-CRC
(D.D.C.) (filed May 15, 2015)). That DOT’s view traces
not to the statutory text, or even the Kussy letter, but
instead to a recent DOT litigation position, should have
rendered it utterly unpersuasive. See E.I. Du Pont De
Nemours & Co. v. Smiley, 138 S. Ct. 2563 (2018) (Gorsuch, J., statement respecting the denial of certiorari).
*

*

*

Regrettably, the decision below is just one example—
albeit an extreme one—of a now-familiar pattern: Courts
regularly invoke Skidmore to avoid judicial interpretation of a statute entirely. The result is deference to
agency interpretations that are not even arguably
persuasive. Although the court of appeals acknowledged
that an agency’s views under Skidmore are only “entitled
to a level of deference commensurate with their power to
persuade,” App., infra, 25a, its opinion relied on an impoverished concept of persuasion. The court did not

25
interrogate at all the “validity” of DOT’s reasoning or ask
whether DOT employed the sort of considerations a court
would in exercising independent judgment. Skidmore,
323 U.S. at 140. The court did not question the “thoroughness” of a letter that was silent on the critical statutory phrase. Ibid. Nor did the court even begin to exhaust the full suite of traditional interpretive tools to
determine the statute’s meaning. The court did little
more than recite the operative language from Skidmore
and declare that the agency’s informal policy rationale
for its atextual interpretation was “eminently reasonable.” App., infra, 25a-26a. That cannot be what Skidmore contemplates. If it is, the judiciary will have little
role to play in the interpretation and application of
congressional statutes.
II. AS THIS CASE ILLUSTRATES, THE LOWER FEDERAL
COURTS ARE IN DISARRAY OVER SKIDMORE
The uncritical deference the court of appeals extended
to DOT’s informal position below is tantamount to abdication of the court’s role. Unfortunately, the decision is
not an outlier. It is one (particularly egregious) example
of disarray in the lower federal courts regarding
Skidmore deference—disarray fueled in part by this
Court’s inconsistent guidance. As this Court has recognized, Skidmore “has produced a spectrum of judicial
responses, from great respect at one end, to near
indifference at the other.” United States v. Mead Corp.,
533 U.S. 218, 228 (2001) (citations omitted). This Court’s
clarification and correction is necessary.
A. This Court’s Guidance Regarding Skidmore
Has Been Inconsistent
Some of this Court’s decisions emphasize that judges
must “decide cases based on their independent judgment
and ‘follow [an] agency’s [view] only to the extent it is

26
persuasive.’ ” Kisor v. Wilkie, 139 S. Ct. 2400, 2447
(2019) (Gorsuch, J., concurring) (quoting Gonzales, 546
U.S. at 269) (second brackets in original); see, e.g.,
Nassar, 570 U.S. at 361-362; Raymond B. Yates, M.D.,
P.C. Profit Sharing Plan v. Hendon, 541 U.S. 1, 16
(2004). Put another way, Skidmore requires a court to
“proceed to determine the meaning of the [statute] the
old-fashioned way: * * * ‘decid[ing] for [itself ] the best
reading.’ ” Miller v. Clinton, 687 F.3d 1332, 1342 (D.C.
Cir. 2012); see Warner-Lambert Co. v. United States, 407
F.3d 1207, 1209 (Fed. Cir. 2005); Landmark Legal
Found. v. IRS, 267 F.3d 1132, 1136 (D.C. Cir. 2001).
Nassar illustrates that approach. There, the Court
considered the “plain language,” “structure,” and “design” of Title VII to decide whether the statute required
but-for causation. 570 U.S. at 352-353. Only then did it
consider agency views. See id. at 361-362. Although the
agency had a “longstanding” view that found support in
lower-court decisions, the Court rejected it as unpersuasive. Id. at 360-361. One of the agency’s rationales,
the Court explained, “fail[ed] to address the specific
provisions of this statutory scheme,” and another had
“circular” reasoning. Id. at 361-362. The longevity of the
agency’s view was secondary to what the statute said.
At other times, this Court has provided very different
guidance. In Federal Express Corp. v. Holowecki, 552
U.S. 389 (2008), this Court “defer[red]” under Skidmore
to the agency’s reading of the statutory term “charge.”
Id. at 395, 402. The statute “d[id] not define charge,” and
the agency’s regulations lacked sufficient content. Id. at
395. As the dissent noted, however, the Court did not
resolve the uncertainty by employing the usual presumption that undefined terms carry their ordinary
meaning. See id. at 408-409 (Thomas, J., dissenting)

27
(citing FDIC v. Meyer, 510 U.S. 471, 476 (1994)). Nor did
it ask whether the agency had conducted a similar
analysis or found the statute’s best reading. Instead, the
Court “defer[red]” to an informal agency position (despite admitted inconsistencies in application) because it
had “been binding on [agency] staff for at least five
years” and was “consistent with the design and purpose”
of the statute. Id. at 399, 402 (majority opinion).
Holowecki’s emphasis on longevity and consistency
with general goals can be read—as it was in this case—to
suggest that agency views deserve deference without
resort to “regular interpretive method[s]” to resolve statutory ambiguities. Gen. Dynamics, 540 U.S. at 600. In
“defer[ring],” moreover, this Court suggested that, under
Skidmore, courts are absolved from seeking the best
reading of a statute. When a statute contains a gap, the
Court stated, an “agency may choose among reasonable
alternatives.” Holowecki, 552 U.S. at 403. While there
might be “reasonable” alternatives to the agency’s position, the statute’s implementation was, in the Court’s
view, “a matter for the agency to decide.” Id. at 403, 407.
That decision could be read to depart from the view that
Skidmore requires courts to employ their independent
judgment, permitting deference to an agency’s considered view only after traditional interpretive tools fail to
supply answers.
Holowecki does not stand alone. In Alaska Department of Environmental Conservation v. EPA, 540 U.S.
461 (2004), the Court accepted the Environmental Protection Agency’s view that it had authority to review
state permitting decisions, again without examining the
ordinary meaning of the statutory terms—“requirement”
and “determine.” Id. at 488-495; compare id. at 503-517
(Kennedy, J., dissenting). The Court, moreover, describ-

28
ed Skidmore in terms that contemplate a diminished
judicial role. Skidmore, the Court stated, permits deference to agency constructions that are “permissible” and
“rational.” Id. at 493 (majority opinion). As in Holowecki, the decision nowhere suggested that courts should
search for the best reading of a statute. Rather, as the
dissent observed, the majority opinion “hid behind Chevron’s vocabulary” of reasonableness while invoking
Skidmore’s “less deferential” standard. Id. at 517-518
(Kennedy, J., dissenting).
B. This Court’s Inconsistent Decisions Have Contributed to Disarray in Lower Federal Courts
Lacking clear guidance from this Court, lower courts
have taken the example of Holowecki—and Skidmore
deference—to their unintended extremes. Here, for
example, the court of appeals seized on Holowecki’s
reasoning that “deference to [an] agency’s position is
due” when it is “binding on agency staff for a number of
years, and it is reasonable and consistent with the statutory framework.” App., infra, 25a (citing Holowecki, 552
U.S. at 399-402). The court below then applied that
formulation to avoid independent, judicial consideration
of statutory text and structure. The court of appeals
instead focused almost exclusively on DOT’s policy
rationales, without attempting to determine for itself
whether DOT’s informal views captured the statute’s
unambiguous meaning. See pp. 22-23, supra.
Other federal courts have likewise understood Skidmore to allow courts to emphasize consistency, longevity,
or policy to the virtual exclusion of statutory text. See,
e.g., Seaview Trading, LLC v. Comm’r, 858 F.3d 1281,
1287 (9th Cir. 2017) (deferring to agency’s “consistent
position”); Unified Turbines, Inc. v. U.S. Dep’t of Labor,
581 F. App’x 16, 18-19 (2d Cir. 2014); Cervantes v. Hol-

29
der, 597 F.3d 229, 234-235 & n.7 (4th Cir. 2010) (deferring
to agency that “consistently adhered to that reading”);
Ammex, Inc. v. United States, 367 F.3d 530, 535 (6th Cir.
2004). Some decisions even declare that “obviously some
level of deference” is due an agency’s longstanding view.
Ammex, 367 F.3d at 535.
Consistent with that understanding, some courts
proceed directly from the fact that the statute leaves a
term or phrase undefined to deferring to an agency construction, without themselves examining the language to
determine the statute’s meaning. See, e.g., EstradaRodriguez v. Lynch, 825 F.3d 397, 404-406 (8th Cir.
2016); Ammex, 367 F.3d at 535. For example, in United
States v. Miller, 833 F.3d 274 (3d Cir. 2016), the Third
Circuit noted that the relevant statutory phrase, “in the
business [of advising others],” was not defined and that
the court had not “previously interpreted the phrase.”
Id. at 281. But rather than construe that phrase, the
court treated a definition from an SEC interpretive release—a release that “represent[ed] only the views of the
SEC staff ”—as controlling. Ibid. Without analyzing the
statutory language, the court declared that “ ‘[n]o clearer
alternatives’ ” were within its “ ‘authority or expertise to
adopt.’ ” Ibid. (quoting Holowecki, 552 U.S. at 402).8
8

Scholars have remarked on lower courts’ inconsistent approaches to
Skidmore. “It is apparent,” a leading article states, that courts “lack
a coherent conception of how Skidmore’s sliding scale should
function.” Kristin E. Hickman & Matthew D. Krueger, In Search of
the Modern Skidmore Standard, 107 Colum. L. Rev. 1235, 1291
(2007); see id. at 1271 (courts split over whether Skidmore requires
exercise of “independent judgment”); Lisa Schultz Bressman, How
Mead Has Muddled Judicial Review of Agency Action, 58 Vand. L.
Rev. 1443, 1464-1465 (2005). A common misconception, another observes, is that Skidmore simply requires “ ‘weak deference’ ” and

30
These decisions illustrate how far courts have departed from the judicial role that Skidmore contemplates.
The courts have “become habituated to defer to the interpretive views of executive agencies, not as a matter of
last resort but first.” Valent v. Comm’r of Soc. Sec., 918
F.3d 516, 525 (6th Cir.) (Kethledge, J., dissenting)
(discussing Chevron), cert. dismissed sub nom. Valent v.
Saul, 140 S. Ct. 450 (2019). The judicial role begins with
the court’s interpretation of the statute, and urges
deference to the agency’s interpretation only to the
extent that interpretation has power to persuade. This
Court’s intervention is needed to clarify Skidmore’s injunction that courts must employ the tools of statutory
construction first to determine the statute’s meaning,
thereafter deferring only insofar as an agency’s interpretation is persuasive.
III. THE QUESTION PRESENTED IS IMPORTANT AND
RECURRING
Whether Skidmore requires courts to independently
interpret the statute—employing the usual tools of statutory interpretation—before invoking deference is an important and recurring question. Skidmore holds a prominent place in the law. Courts of appeals have invoked
Skidmore more than 1,300 times in the 19 years since this
Court’s Mead decision revitalized Skidmore. District
courts have cited Skidmore more than 1,700 additional

Chevron “ ‘strong deference.’ ” Michael Herz, Chevron Is Dead;
Long Live Chevron, 115 Colum. L. Rev. 1867, 1879 & n.59 (2015).
That “misconceives the distinction as one of degree when it is in fact
a difference in kind.” Ibid.

31
times. The subject matter of the decisions applying Skidmore is as varied as federal agencies themselves.9
The frequency with which courts confront questions
about Skidmore’s meaning and scope is destined to accelerate. Last term, this Court “reinforc[ed]” significant
“limits” on Auer deference. Kisor, 139 S. Ct. at 2415; see
id. at 2415-2418. The Court made clear, for example, that
courts “must make a conscientious effort to determine,
based on indicia like text, structure, history, and purpose,
whether the regulation really has more than one
reasonable meaning.” 139 S. Ct. at 2423-2424. But the
Court did not foreclose courts from applying Skidmore in
lieu of Auer deference, see Christopher v. SmithKline
Beecham Corp., 567 U.S. 142, 159 (2012) (taking that
approach)—now an increasingly likely scenario.
How courts apply Skidmore has predictably casedispositive effects. When courts exercise independent
judgments to determine the meaning of statutes, agen9

See, e.g., Air Transp. Ass’n of Am., Inc. v. FAA, 921 F.3d 275, 279
(D.C. Cir. 2019) (FAA construction of airport-development grant assurance statute); Hayes v. Harvey, 903 F.3d 32, 46 (3d Cir. 2018)
(HUD construction of § 8 housing statute); Sec’y of Labor v. Am.
Future Sys., Inc., 873 F.3d 420, 426 (3d Cir. 2017) (DOL construction
of FLSA); Baylor Cty. Hosp. Dist. v. Price, 850 F.3d 257, 264 (5th
Cir. 2017) (HHS construction of Medicare Rural Hospital Flexibility
Program Act); Delaware v. Surface Transp. Bd., 859 F.3d 16, 20
(D.C. Cir. 2017) (Board construction of Interstate Commerce
Commission Termination Act of 1995); Varsity Brands, Inc. v. Star
Athletica, LLC, 799 F.3d 468, 478 (6th Cir. 2015), aff ’d on other
grounds, 137 S. Ct. 1002 (2017) (Copyright Office construction of
Copyright Act); Mansour v. Holder, 739 F.3d 412, 417 (8th Cir. 2014)
(BIA construction of Immigration and Nationality Act); McMaster v.
United States, 731 F.3d 881, 892 (9th Cir. 2013) (DOI construction of
federal California Wilderness Act); Lopez v. Terrell, 654 F.3d 176,
185 (2d Cir. 2011) (BOP construction of good-time-credit statute).

32
cies prevail about 38.5% of the time. See Kent Barnett &
Christopher J. Walker, Chevron in the Circuit Courts,
116 Mich. L. Rev. 1, 6 (2017). The more deference courts
extend to agencies, the more agencies win, with the win
rate increasing to 77.4% under Chevron. Ibid. Whether
Skidmore requires courts to search for the best reading
of a statute or apply a more deferential standard under
which “reasonable” (or even atextual) views can prevail
thus makes an enormous difference—as this case bears
out.
The issue is also critical to the separation of powers.
The Constitution gives courts the authority—and responsibility—to interpret the law. See Marbury, 5 U.S. (1
Cranch) at 177. Doctrines that allow for consideration of
agencies’ views must be kept in check to preserve the
constitutional structure. This Court has “reinforc[ed]”
traditional constraints on deference, even for laws entrusted to agencies for administration. Kisor, 139 S. Ct.
at 2415. Chevron is explicit that courts must exhaust the
“traditional tools of statutory construction.” 467 U.S. at
843 n.9. “[D]eference is not due” to an agency’s construction, this Court has held, unless the application of
those tools leaves “an unresolved ambiguity.” Epic Sys.
Corp. v. Lewis, 138 S. Ct. 1612, 1630 (2018); see CardozaFonseca, 480 U.S. at 446-447. Similarly, in the context of
Auer deference, courts must conclude a regulation is
“genuinely ambiguous” and “exhaust all the ‘traditional
tools’ of construction” before deferring to agencies’
positions. Kisor, 139 S. Ct. at 2415.
Those limits, however, serve to constrain little if
courts do not similarly scrutinize informal agency interpretations. Agencies will be discouraged from undertaking laborious notice-and-comment processes to
promulgate formal rules if courts defer to informal

33
agency positions without scrutinizing them. Cf. Nina A.
Mendelson, Regulatory Beneficiaries and Informal
Agency Policymaking, 92 Cornell L. Rev. 397, 408, 420433 (2007). And they will prefer to “promulgate vague
and open-ended regulations that they can later interpret
as they see fit,” using informal positions to do so.
Christopher, 567 U.S. at 158.
This case illustrates the stark consequences that
result when Skidmore is invoked to disregard statutory
text. Statutes reflect deliberate and deliberated legislative judgments about how to allocate scarce resources
and balance competing public interests. Here, Congress
enacted a law that provides $15 billion in tax-exempt—
essentially taxpayer-subsidized—bonds for a carefully
defined list of projects. See 26 U.S.C. § 142(m). AAF’s
passenger rail line is not among them. Whatever DOT’s
reasons for wanting to finance that rail line, it evaded the
statute to allocate $2.7 billion in bonds to an undertaking
that Congress made ineligible—depriving eligible and
worthy facilities of more than $2 billion dollars in taxexempt bonds that Congress intended to make available
to them.10
CONCLUSION
Because AAF’s railroad did not receive and has never
received federal assistance under Title 23, it is ineligible
for tax-exempt private activity bonds under 26 U.S.C.
§ 142(m)(1)(A). The court of appeals’ contrary decision
rests on a conception of Skidmore deference that all but
10

The disarray is particularly intolerable given that many civil
statutes for which agencies may seek Skidmore deference also carry
criminal consequences. See Kasten v. Saint-Gobain Performance
Plastics Corp., 563 U.S. 1, 16 (2011); Gonzales, 546 U.S. at 261-262.

34
eliminates the judicial role in construing the law. It
represents an egregious example of the disarray in the
lower federal courts over Skidmore. Neither it, nor the
disarray it reflects, can be allowed to stand. The petition
should be granted, so that the Court can clarify what
courts must do before deferring to an agency’s informal
interpretation under Skidmore—and prevent displacement of the judiciary’s constitutional duty to construe
statutes and to say what the law is.
Respectfully submitted.
DYLAN REINGOLD
County Attorney
INDIAN RIVER COUNTY
1801 27th St.
Vero Beach, FL 32960
J. MICHAEL LUTTIG*
728 West Lionshead Cir.
Vail, CO 81657
*

Admitted only in Virginia and
the District of Columbia

JEFFREY A. LAMKEN
Counsel of Record
JAMES A. BARTA
MOLOLAMKEN LLP
The Watergate, Suite 500
600 New Hampshire Ave., N.W.
Washington, D.C. 20037
(202) 556-2000
jlamken@mololamken.com
LAUREN F. DAYTON
MOLOLAMKEN LLP
430 Park Ave., 6th Floor
New York, NY 10022
(212) 607-8160
ELIZABETH K. CLARKE
MOLOLAMKEN LLP
300 N. LaSalle St., Suite 5350
Chicago, IL 60654
(312) 450-6700

Counsel for Petitioners

MAY 2020








APPENDIX

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 19-5012
————
INDIAN RIVER COUNTY, FLORIDA AND INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,
Appellants,
v.
UNITED STATES DEPARTMENT OF
TRANSPORTATION, ET AL.,
Appellees.
————
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-00333)
————
OPINION
————
Argued September 24, 2019
Decided December 20, 2019
————
Philip E. Karmel argued the cause and filed the briefs
for appellants.

(1a)

2a
Steven L. Brannock and Tracy S. Carlin were on the
brief for amicus curiae Indian River Neighborhood
Association in support of appellants.
Joan M. Pepin, Attorney, U.S. Department of Justice,
argued the cause for federal appellees. With her on the
brief were Jeffrey Bossert Clark, Assistant Attorney
General, Eric Grant, Deputy Assistant Attorney General,
Kevin W. McArdle, Attorney, Steven G. Bradbury,
General Counsel, U.S. Department of Transportation,
Paul M. Geier, Assistant General Counsel for Litigation
and Enforcement, and Charles E. Enloe, Trial Attorney.
Eugene E. Stearns argued the cause for intervenorappellee. With him on the brief were David H. Coburn,
Cynthia L. Taub, and Matthew Buttrick.
————
Before: GARLAND, Chief Judge, SRINIVASAN, Circuit
Judge, and EDWARDS, Senior Circuit Judge.
Opinion for the Court filed by Senior Circuit Judge
EDWARDS.
————
EDWARDS, Senior Circuit Judge: In 2011, Intervenor
AAF Holdings LLC (“AAF”) announced plans to construct and operate express passenger railway service
connecting Orlando and Miami, Florida. Phase I of the
All Aboard Florida Intercity Passenger Rail Project (also
“AAF Project” or “Project”), connecting Miami to West
Palm Beach, has been completed. Phase II, which will
extend service to Orlando, is presently under construction. In 2014, AAF applied for an allocation of taxexempt qualified Private Activity Bond (“PAB”) authority to partially finance Phase II of the Project. In
December 2017, the Department of Transportation
(“DOT”) allocated $1.15 billion in tax-exempt PABs to be

3a
issued by the Florida Development Finance Corporation
to finance Phase II of the Project. AAF, the sponsor of
the Project, received the proceeds of the bond sales to
fund the Project and is responsible for repaying them.
In February 2018, Indian River County, the Indian
River County Emergency Services District (together
“County” or “Appellant”), and other parties filed a complaint in the District Court claiming that DOT exceeded
its authority under 26 U.S.C. § 142(m)(1)(A) when it
allocated $1.15 billion in PABs to fund Phase II of the
AAF Project. The complaint further alleged that the
allocation violated 26 U.S.C. § 147(f ), which requires
certain state or local governmental approvals before taxexempt PABs may be issued. Finally, the complaint
challenged the adequacy of the Environmental Impact
Statement (“EIS”) prepared by the Federal Railway
Administration (“FRA”) pursuant to the requirements of
the National Environmental Policy Act (“NEPA”). See
42 U.S.C. § 4332. With respect to all of its claims, Indian
River County raised causes of action under the
Administrative Procedure Act (“APA”). See 5 U.S.C.
§ 706(2)(A) (an agency action may be set aside if found “to
be . . . arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law”); id. § 706(2)(C) (an
agency action may be set aside if it is “in excess of
statutory jurisdiction, authority, or limitations, or short
of statutory right”). On December 24, 2018, the District
Court rejected Appellant’s claims and granted summary
judgment to the federal defendants. Indian River Cty. v.
Dep’t of Transp., 348 F. Supp. 3d 17 (D.D.C. 2018).
The District Court ruled that because the complaint
arguably fell within the zone-of-interests protected or
regulated by § 142, Indian River County was among the
class of parties authorized by Congress to pursue a cause

4a
of action under the APA. However, the District Court
found no merit in Indian River County’s claims. The
court ruled that the disputed Project constituted a
“surface transportation project” under § 142(m)(1)(A), as
required for DOT’s allocation of PABs qualifying for taxexempt status. The District Court also ruled that the use
of the disputed PABs did not violate 26 U.S.C. § 147(f ).
And, finally, the District Court ruled that the FRA’s
preparation of the EIS as required by NEPA was neither
arbitrary, nor capricious, nor an abuse of discretion, nor
otherwise in violation of the law. On appeal, Indian River
County challenges only the District Court’s rulings with
respect to § 142 and NEPA. DOT and Intervenor AAF,
in turn, contend that Appellant’s claims should be
dismissed because its interests are not within the zoneof-interests protected by 26 U.S.C. § 142(m). In the
alternative, they seek affirmance of the District Court’s
judgments on the merits.
For the reasons explained below, we affirm the
judgments of the District Court. We agree that Indian
River County’s interests are within the zone-of-interests
protected by 26 U.S.C. § 142 and, therefore, the
complaint raises claims that are cognizable under the
APA. However, we hold that DOT permissibly and
reasonably determined that the Project qualifies for taxexempt PAB financing under 26 U.S.C. § 142(m). We also
hold that the EIS for the Project adheres to the
commands of NEPA.
I. BACKGROUND
A. Statutory Background
1. Private Activity Bonds
Under 26 U.S.C. § 103(a) of the Internal Revenue
Code (“Code”), interest on state or local bonds is
generally not subject to federal taxation. 26 U.S.C.

5a
§ 103(a). However, a PAB issued by state or local governments to finance private activities is not tax-exempt
unless it is a “qualified bond.” Id. § 103(b)(1). As the
District Court explained:
Congress has authorized interest earned on certain
types of PABs to be exempted from federal
taxation. See 26 U.S.C. §§ 103, 141. Because this
exemption allows the bondholder to keep all the
interest, bond issuers can sell the bond at a lower
interest rate. . . .
Section 141 outlines certain types of PABs that can
constitute “qualified bond[s],” including “exempt
facility bond[s].” Id. § 141(e)(1)(A). Under § 142(a),
a bond is an “exempt facility bond” if at least 95% of
proceeds from its issue are used to finance one of
fifteen enumerated categories of projects. Id.
§ 142(a). One such category is “qualified highway or
surface freight transfer facilities.” Id. § 142(a)(15).
Section 142(m) defines “qualified highway or
surface freight transfer facilities,” id. § 142(m)(1),
and authorizes the Secretary of Transportation, “in
such manner as [she] determines appropriate,” id.
§ 142(m)(2)(C), to allocate up to $15 billion of PAB
authority to eligible projects, id. § 142(m)(2)(A).
Put simply, Congress has enacted a mechanism
through which the Secretary can allocate tax
exemptions to bonds used to finance construction
of, or improvements to, certain types of facilities.
These exemptions lower the cost of selling the
bonds, better enabling state and local governments
to finance the projects.
The Secretary’s allocation is necessary . . . for a
bond to be tax-exempt because it finances a “quali-

6a
fied highway or surface freight transfer facilit[y].”
Id. § 142(m)(2)(A).
Indian River Cty., 348 F. Supp. 3d at 28 (alterations in
original)
As noted, an “exempt facility bond” includes a bond
whose proceeds from its issue are used to finance “qualified highway or surface freight transfer facilities.” 26
U.S.C. § 142(a)(15). Section 142(m)(1)(A) defines “qualified highway or surface freight transfer facilities” as “any
surface transportation project which receives Federal
assistance under title 23, United States Code.” Title 23,
in turn, authorizes federal funding for, inter alia, “the
elimination of hazards of railway-highway crossings.” 23
U.S.C. § 130(a).
2. National Environmental Policy Act
As we recently explained in Mayo v. Reynolds, 875
F.3d 11 (D.C. Cir. 2017), Congress enacted NEPA in part
“to promote efforts which will prevent or eliminate
damage to the environment and biosphere and . . . enrich
the understanding of the ecological systems and natural
resources important to the Nation.” Id. at 15 (internal
quotation marks omitted) (quoting 42 U.S.C. § 4321). To
achieve these ends,
NEPA requires all federal agencies to include a
detailed environmental impact statement (“EIS”)
“in every recommendation or report on . . . major
Federal actions significantly affecting the quality of
the human environment.” Id. § 4332(2)(C). This
process ensures that an agency will consider every
significant aspect of the environmental impact of a
proposed action and inform the public of its
analysis. In other words, agencies must take a hard
look at [the] environmental consequences of their

7a
actions, and provide for broad dissemination of
relevant environmental information.
....
Where NEPA analysis is required, its role is
primarily information-forcing. As the Supreme
Court has explained, “[t]here is a fundamental
distinction . . . between a requirement that mitigation be discussed in sufficient detail to ensure that
environmental consequences have been fairly
evaluated, on the one hand, and a substantive
requirement that a complete mitigation plan be
actually formulated and adopted, on the other.”
Robertson v. Methow Valley Citizens Council, 490
U.S. 332, 352 (1989). NEPA is not a suitable vehicle
for airing grievances about the substantive policies
adopted by an agency, as NEPA was not intended
to resolve fundamental policy disputes.
It is now well-established that NEPA imposes
only procedural requirements on federal agencies
with a particular focus on requiring agencies to
undertake analyses of the environmental impact of
their proposals and actions. It is equally clear that
NEPA does not impose a duty on agencies to
include in every EIS a detailed explanation of
specific measures which will be employed to
mitigate the adverse impacts of a proposed action.
875 F.3d at 15-16 (alterations in original) (citations and
quotation marks omitted).
In sum, because NEPA’s requirements are “essentially procedural,” the statute does “not mandate particular
substantive environmental results.” Theodore Roosevelt
Conservation P’ship v. Salazar, 661 F.3d 66, 68 (D.C.
Cir. 2011) (internal quotation marks and citations

8a
omitted). Instead, NEPA “focus[es] Government and
public attention on the environmental effects of proposed
agency action.” Id. (alteration in original) (internal
quotation marks omitted). Those requirements “simply
. . . ensure that the agency has adequately considered and
disclosed the environmental impact of its actions.”
WildEarth Guardians v. Jewell, 738 F.3d 298, 308 (D.C.
Cir. 2013) (internal quotation marks and citation
omitted).
B. Factual Background
The dispute in this case emanates from financial and
environmental concerns relating to the construction and
operation of an express passenger railway service
connecting Miami, Fort Lauderdale, West Palm Beach,
and Orlando, Florida. The rail service, known as the All
Aboard Florida Intercity Passenger Rail Project, has
been spearheaded by AAF. The new rail service will run
along an existing rail corridor designed in the late 1800s
by the Florida East Coat Railway (“FECR”). The
FECR corridor accommodated both passenger and
freight rail service until 1968, when passenger rail
service was terminated. The AAF Project is designed to
restore portions of the existing rail corridor between
Miami and Cocoa and construct a new segment between
Cocoa and Orlando. The ultimate goal is to establish
speedy rail passenger service along a significant segment
of the east coast of Florida.
AAF announced its plans for the Project in 2011.
According to AAF, the high-speed passenger service will
include 32 daily departures that will cover the 235-mile
trip in about three hours. Phase I of the Project,
connecting Miami to West Palm Beach, with a stop in
Fort Lauderdale, was completed in January 2018. Phase
II, connecting West Palm Beach to Orlando, is still under

9a
construction. When Phase II is completed, passenger
trains will run north from West Palm Beach to Cocoa,
turn west, and run inland along State Road 528 to
Orlando International Airport.
The record indicates that, in both Phases of the
Project, AAF is improving the existing rail corridor by:
(i) replacing portions of the existing mainline tracks
and reinstalling a second set of tracks where the
historic second track was previously removed; (ii)
adding a third track in certain locations within the
corridor to allow for more efficient service; (iii)
replacing or repairing existing bridges across
waterways; (iv) installing Positive Train Control
systems which will provide integrated command
and control of passenger and freight train
operations; and (v) upgrading railway-roadway
crossing safety features per federal regulations and
requirements, as well as specific requests from
counties and municipalities along the Project route.
JA1831-44. . . . In addition, AAF has been helping
counties and municipalities convert existing
crossings into “Quiet Zones,” which eliminates the
requirement for warning horns to be sounded as
trains approach. JA2291.
Intervenor’s Br. at 3.

10a

Id. at 5.
In 2013, an AAF subsidiary applied to FRA for a $1.6
billion loan pursuant to the Railroad Rehabilitation and
Improvement Financing program to help finance the
Project. Because projects benefiting from such loans are
subject to NEPA, FRA conducted an environmental
review of the entire AAF Project. The agency prepared
an Environmental Assessment and Section 4(f ) Evaluation for Phase I, which resulted in a Finding of No Significant Impact. FRA also commenced preparing an EIS
for Phase II, with the assistance of the U.S. Coast Guard
and U.S. Army Corps of Engineers. In 2015, AAF
withdrew its loan application, so FRA did not issue a

11a
Record of Decision on its EIS. In 2017, however, after
AAF resubmitted its loan application, FRA completed
the NEPA review process.
The NEPA review lasted over two years and included
an extensive period for public comment, including
numerous public meetings in counties along the Project
corridor. Over 15,400 written comments were received
from interested parties, including Indian River County.
FRA responded to comments in its Final EIS, which was
published on August 5, 2015. The Final EIS is over 600
pages in length, includes an additional 70 appendices, and
concludes that the existing FECR corridor was the only
feasible alternative for the north-south segment of the
Project. FRA also concluded that “[t]he Project would
have an overall beneficial effect on public health, safety,
and security in the rail corridor,” J.A. 1658, as well as
“beneficial cumulative impacts” on “transportation, air
quality, and economic resources,” id. at 1662. Finally,
the EIS set forth significant mitigation measures relating
to public safety, vehicular traffic, navigation, noise and
vibration, water resources, biological resources, essential
fish habitat, wetlands and other ecological systems,
threatened and endangered species, and historic
properties. Id. at 2503-21. After receiving additional
public comments, FRA issued a Record of Decision on
December 15, 2017. This included the agency’s analyses
regarding alternatives, environmental impacts, and
mitigation, id. at 4357-4412, and a separate addendum in
which it evaluated and responded to the comments on the
Final EIS, id. at 4414-48.
In the end, the loan that had been sought by AAF was
never made.
As explained below, AAF obtained
financing through the sale of tax-exempt PABs and
withdrew its loan application in February 2019.

12a
The allocation of the PABs in support of the Project
occurred as follows:
In 2014, AAF applied [to DOT] for an allocation
of tax-exempt PABs to partially finance the project.
To demonstrate that the Project is indeed a
“surface transportation project which receives
Federal assistance under title 23,” 26 U.S.C.
§ 142(m)(1)(A), AAF submitted documentation
showing that more than $9 million in Title 23funded improvements had been made to 72
separate grade crossings (railway-highway intersections) since 2012 along the N-S corridor and the
Miami to West Palm Beach corridor.
DOT
determined that the Project was eligible for PAB
funding and provisionally allocated $1.75 billion in
tax-exempt PABs to the project. In September
2016, however, AAF submitted a new request for a
$600 million allocation for Phase I only, and it asked
that the previous allocation be withdrawn. DOT
granted both requests in November 2016. The $600
million in PABs for Phase I were subsequently
issued by the Florida Development Finance
Corporation and sold to private investors.
A year later, AAF submitted a new application
for an allocation of PABs to finance Phase II. DOT
allocated $1.15 billion for Phase II in December
2017. The Florida Development Finance Corporation’s authority to issue those bonds was set to
expire at the end of 2018, but it was extended to
June 30, 2019. While this appeal has been pending,
DOT granted AAF’s request to modify the Phase II
allocation to allow for the issuance of an additional
$950 million in PABs. All $2.1 billion in bonds have

13a
been issued. See https://www.transportation.gov/
buildamerica/programs-services/pab.
DOT Br. at 6-7 (citations omitted).
C. Procedural History
In 2015, Indian River County filed a lawsuit
challenging DOT’s December 2014 allocation of $1.75
billion in PABs. Martin County filed a similar action, in
which it additionally claimed that the Project was not
eligible to receive an allocation of PABs under 26 U.S.C.
§ 142(m). The District Court denied a motion to dismiss
both Counties’ environmental claims, but granted
dismissal of Martin County’s claim that DOT exceeded its
authority under § 142. See Indian River Cty. v. Rogoff,
201 F. Supp. 3d 1, 20-21 (D.D.C. 2016). After AAF
requested that the initial PAB allocation be withdrawn,
the two cases pending in the District Court were
dismissed as moot. See Indian River Cty. v. Rogoff, 254
F. Supp. 3d 15, 17-18, 22 (D.D.C. 2017).
The litigation in the present case was initiated in
February 2018. Three claims were raised: First, the
complaint alleged that DOT exceeded its authority under
26 U.S.C. § 142(m) when it allocated $1.15 billion in PABs
to fund Phase II of the AAF Project. Second, the
complaint asserted that the allocation violated 26 U.S.C.
§ 147(f ), which requires certain state or local governmental approvals before tax-exempt PABs may be
issued. Finally, the complaint challenged the adequacy of
DOT’s NEPA review of the Project prior to allocating the
disputed PABs. AAF intervened to defend against the
complaint. Martin County and Citizens Against Rail
Expansion in Florida were originally named as coplaintiffs, along with Indian River County. However,
before this appeal was filed, they reached a settlement

14a
with AAF and stipulated to the dismissal of their claims
with prejudice.
In December 2018, the District Court granted
summary judgment to the federal defendants and AAF.
See Indian River Cty. v. Dep’t of Transp., 348 F. Supp.
3d 17 (D.D.C. 2018). As noted above, the District Court
ruled that because the complaint arguably fell within the
zone-of-interests protected or regulated by § 142, Indian
River County was among the class of parties authorized
by Congress to pursue a cause of action under the APA.
The court also ruled that the disputed allocation of PABs
did not violate § 142 or § 147(f ). As to Appellant’s claim
under § 142, the District Court upheld DOT’s determination that the Project is a “surface transportation
project” that has received federal assistance under Title
23 of the U.S. Code, as required by 26 U.S.C.
§ 142(m)(1)(A). With respect to the § 147(f ) claim, the
District Court ruled that DOT lawfully allocated the
disputed PABs after obtaining the State of Florida’s
approval, thus concluding that DOT was not obligated to
seek the approval of each local governmental authority in
areas through which Phase II will run.
Finally, the District Court found that FRA’s environmental review of the Project satisfied NEPA’s requirements. The District Court rejected Appellant’s claims
relating to pedestrian safety, noting the EIS’s thorough
study of every grade crossing along the entire corridor;
the extensive safety improvements that AAF is
mandated to make; and the record demonstrating that
the EIS considered the safety of trespassers who cut
across the tracks between formal crossings and addressed the safety problems posed by these situations.
The District Court also rejected Appellant’s claim that a
complete mitigation plan, detailing the location and

15a
design of fencing along the railway, was required in the
EIS. Finally, the District Court held that the EIS
adequately examined noise impacts.
Indian River County now appeals the District Court’s
grant of summary judgment with respect to its claims
under § 142 and NEPA, but it no longer presses its claim
under § 147(f ). DOT and AAF contend that the case
should be dismissed because Indian River County’s
asserted interests fall outside the zone-of-interests protected by § 142. In the alternative, DOT and AAF seek
affirmance of the District Court’s judgments on the
merits.
II. ANALYSIS
A. Standard of Review
“This court reviews the District Court’s ruling on
summary judgment de novo.” Feld v. Fireman’s Fund
Ins. Co., 909 F.3d 1186, 1193 (D.C. Cir. 2018). In
reviewing a summary judgment motion, courts are
required to “ ‘examine the facts in the record and all
reasonable inferences derived therefrom in a light most
favorable to’ the non-moving party.” Id. (quoting Robinson v. Pezzat, 818 F.3d 1, 8 (D.C. Cir. 2016)). We must
then determine whether “there are any genuine factual
issues that properly can be resolved only by a finder of
fact because they may reasonably be resolved in favor of
either party.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 250 (1986). The District Court’s conclusion that
Appellant has a cause of action under the APA for its
§ 142(m) claim is also reviewable de novo, because it is a
question of law. Zuza v. Office of High Representative,
857 F.3d 935, 938 (D.C. Cir. 2017).
When, as in this case, the appeal is from a final
judgment issued by the District Court, we do not defer to
the District Court’s review of the agency action. Novicki

16a
v. Cook, 946 F.2d 938, 941 (D.C. Cir. 1991). Rather, “[w]e
review the administrative action directly, according no
particular deference to the judgment of the District
Court.” Mingo Logan Coal Co. v. EPA, 829 F.3d 710, 718
(D.C. Cir. 2016) (internal quotation marks and citation
omitted). The reason is that, under well-established law,
“when an agency acts pursuant to congressionallydelegated authority and the action has the force of law,
‘the agency itself is typically owed deference with respect
to its fact-finding, see NLRB v. Brown, 380 U.S. 278, 292
(1965), its application of law to facts, see Citizens to Pres.
Overton Park, Inc. v. Volpe, 401 U.S. 402, 416 (1971), and
its interpretation of the governing statute or regulation,
see Chevron U.S.A., Inc. v. Natural Res. Def. Council,
Inc., 467 U.S. 837, 843 (1984).’ ” EDWARDS & ELLIOTT,
FEDERAL STANDARDS OF REVIEW 145 (3d ed. 2018)
(quoting Novicki, 946 F.2d at 941).
Because neither NEPA nor 26 U.S.C. § 142 supplies a
private right of action, judicial review under both
statutes is governed by the APA. The APA requires that
we “hold unlawful and set aside agency action” that is
“arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law.”
5 U.S.C.
§ 706(2)(A). Agency action is arbitrary and capricious “if
the agency has relied on factors which Congress has not
intended it to consider, entirely failed to consider an
important aspect of the problem, [or] offered an
explanation for its decision that runs counter to the
evidence before the agency.” Motor Vehicle Mfrs. Ass’n
v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29, 43 (1983).
In evaluating contested agency action, the court must
“not . . . substitute its [own] judgment for that of the
agency.” Id.

17a
In reviewing NEPA challenges, we must be “mindful
that our role is not to ‘flyspeck’ an agency’s environmental analysis, looking for any deficiency no matter how
minor. Rather, it is simply to ensure that the agency has
adequately considered and disclosed the environmental
impact of its actions and that its decision is not arbitrary
or capricious.” WildEarth Guardians, 738 F.3d at 308
(citation and internal quotation marks omitted); see also
Robertson v. Methow Valley Citizens Council, 490 U.S.
332 (1989) (making it clear that the courts must give
deference to agency judgments as to how best to prepare
an EIS).
B. Appellant’s Interests Fall Within the “Zone of
Interests” Protected by § 142
In Lexmark International, Inc. v. Static Control
Components, Inc., 572 U.S. 118, 129 (2014), the Supreme
Court explained the “lenient approach” that the courts
must follow in determining whether a party has stated a
cause of action under the APA:
First, we presume that a statutory cause of action
extends only to plaintiffs whose interests “fall
within the zone of interests protected by the law
invoked.” The modern “zone of interests” formulation originated in Association of Data Processing
Service Organizations, Inc. v. Camp, 397 U.S. 150
(1970), as a limitation on the cause of action for
judicial review conferred by the Administrative
Procedure Act (APA). We have since made clear,
however, that it applies to all statutorily created
causes of action; that it is a “requirement of general
application”; and that Congress is presumed to
“legislate against the background of” the zone-ofinterests limitation, “which applies unless it is

18a
expressly negated.” Bennett v. Spear, 520 U.S. 154,
163 (1997). . . .
We have said, in the APA context, that the test is
not “ ‘especially demanding,’ ” Match-E-Be-NashShe-Wish Band of Pottawatomi Indians v.
Patchak, 567 U.S. 209, 225 (2012). In that context
we have often “conspicuously included the word
‘arguably’ in the test to indicate that the benefit of
any doubt goes to the plaintiff,” and have said that
the test “forecloses suit only when a plaintiff ’s
‘interests are so marginally related to or inconsistent with the purposes implicit in the statute that
it cannot reasonably be assumed that’ ” Congress
authorized that plaintiff to sue. Id. That lenient
approach is an appropriate means of preserving the
flexibility of the APA’s omnibus judicial-review provision, which permits suit for violations of numerous
statutes of varying character that do not themselves include causes of action for judicial review.
Id. at 129-30 (citations and brackets omitted).
DOT and Intervenor AAF argue that this case should
be dismissed because Appellant’s interests are not within
the zone-of-interests of 26 U.S.C. § 142. In pressing this
position, DOT argues that the District Court erred in
concluding that “the interests at stake in § 142 . . . are
illuminated by § 147(f ), which requires State or local
government approval for certain PABs to qualify for tax
exemption.” Indian River Cty., 348 F. Supp. 3d at 29. In
DOT’s view, “the arguable existence of a cause of action
under Section 147( f ) does not give Plaintiffs a cause of
action to sue for an alleged violation of Section 142.”
DOT Br. at 16. DOT’s position is shortsighted, and it
reflects a distorted view of the District Court’s decision.

19a
What the District Court said was this:
In applying the zone-of-interests test, courts do not
look at the specific provision said to have been
violated in complete isolation. At the same time,
courts must police the extent to which they look
beyond the provision invoked to ensure that casting
a wider net does not deprive the zone-of-interests
test of virtually all meaning. Accordingly, a court
must limit its analysis to the provision invoked for
suit, as clarified by any provisions to which it bears
an integral relationship. In this case, then, the
Court must first determine whether § 147(f ) bears
an integral relationship with § 142, the provision
upon which Indian River County sues.
The Court concludes that the two provisions do
bear an integral relationship. They form adjacent
requirements for PABs used to finance certain
categories of facilities to qualify for tax-exempt
status: § 142 enumerates the types of facilities, and
§ 147(f ) ensures public approval and democratic
accountability for their construction.
Absent
§ 147(f ) approval, PABs used to finance a § 142
facility cannot be tax-exempt; and PABs approved
pursuant to § 147(f ) are not tax-exempt unless they
are used to finance a § 142 facility.
Most importantly, each requirement evinces a
common purpose: ensuring that when the public fisc
forgoes revenue through tax-exempt bonds, those
bonds are used to benefit the public.
Indian River Cty., 348 F. Supp. 3d at 29-30 (footnote,
citations, quotation marks, and brackets omitted). This is
a perfectly reasonable construction of the zone-ofinterests test. The simple point made by the District
Court is that “[b]y demonstrating that § 142 and § 147(f )

20a
bear an integral relationship, the County has illuminated
§ 142 in a way that suggests Congress’s intent was indeed
to allow State and local governments to ensure public
benefit would accrue from projects financed by taxexempt bonds.” Id. at 31. The District Court did not say,
as DOT suggests, that the arguable existence of a cause
of action under § 147(f ) gives Appellant a cause of action
to sue for an alleged violation of § 142.
In any event, we need not tarry further over the
District Court’s decision because we hold that Appellant
is within the zone-of-interests of 26 U.S.C. § 142(m) for
reasons analogous to those discussed in Match-E-BeNash-She-Wish Band of Pottawatomi Indians, 567 U.S.
at 224-28. Just as the Court noted in that case, we note
here that there is no dispute over the fact that
Appellant’s environmental and safety concerns are
matters of the sort that DOT surely will have “in mind”
when exercising its authority to allocate PABs pursuant
to § 142. Id. at 227. This alone is enough to show that
Appellant’s asserted interests at least arguably fall
within the zone-of-interests protected by § 142.
DOT has discretion under the statute to allocate PABs
to qualified facilities. 26 U.S.C. § 142(m)(2)(C). And
nothing in the statute precludes DOT from considering
local government concerns and environmental issues
when evaluating PAB allocations under § 142(m). Indeed,
DOT instructs PAB applicants to “[i]ndicate the current
status of milestones on [the estimated timeline provided],
including all necessary permits and environmental approvals.” Notice of Solicitation and Request for Comments, Applications for Authority for Tax-Exempt
Financing of Highway Projects and Rail-Truck Transfer
Facilities, 71 Fed. Reg. 642, 643 (Jan. 5, 2006) (emphasis
added). DOT also instructs applicants to “[p]rovide a

21a
copy of a resolution adopted in accordance with state or
local law authorizing the issuance of a specific issue of
obligations [as required by section 147(f )].” Id. AAF’s
application provided all of this required information. J.A.
4522, 4532-34, 4545.
DOT’s position regarding the zone-of-interests inquiry
is obviously wanting because it fails to take account of the
fact that Appellant’s cause of action arises under the
APA, not under the Code. As noted above, the zone-ofinterests test is not “especially demanding” with respect
to matters arising under the APA, and “the benefit of any
doubt goes to the plaintiff.” Match-E-Be-Nash-She-Wish
Band of Pottawatomi Indians, 567 U.S. at 225 (citation
omitted). Furthermore, the Supreme Court has “consistently held that for a plaintiff ’s interests to be arguably
within the zone of interests to be protected by a statute,
there does not have to be an indication of congressional
purpose to benefit the would-be plaintiff.” Nat’l Credit
Union Admin. v. First Nat. Bank & Tr. Co., 522 U.S.
479, 492 (1998) (internal quotation marks and citation
omitted). And a plaintiff certainly need not be expressly
listed as a beneficiary of a statutory provision in order to
be within its protected zone-of-interests. Finally, the
Supreme Court has emphasized that the zone-ofinterests test “forecloses suit only when a plaintiff ’s
‘interests are so marginally related to or inconsistent
with the purposes implicit in the statute that it cannot
reasonably be assumed that Congress intended to permit
the suit.’ ” Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians, 567 U.S. at 225 (citation omitted).
That certainly is not this case.
In assessing whether a plaintiff ’s interests fall within
the zone-of-interests protected by a statute, we must
consider the “context and purpose” of the relevant

22a
statutory provisions and regulations at issue. Match-EBe-Nash-She-Wish Band of Pottawatomi Indians, 567
U.S. at 226. “ ‘[W]e do not look at the specific provision
said to have been violated in complete isolation[,]’ but
rather in combination with other provisions to which it
bears an ‘integral relationship.’ ” Nat’l Petrochemical &
Refiners Ass’n v. EPA, 287 F.3d 1130, 1147 (D.C. Cir.
2002) (second alteration in original) (citation omitted). In
applying these principles, it is quite clear that Appellant—a local government entity whose citizens will be
directly affected by the AAF Project—has compelling
interests that fall within the zone-of-interests protected
by the statute. The statutory context and purpose make
this clear.
26 U.S.C. § 141(e)(1)(A) outlines certain types of PABs
that can constitute “qualified bond[s],” including “exempt
facility bond[s].” An “exempt facility bond” includes a
bond whose proceeds from its issue are used to finance
“qualified highway or surface freight transfer facilities.”
26 U.S.C. § 142(a)(15). Section 142(m)(1)(A) then defines
“qualified highway or surface freight transfer facilities”
as “any surface transportation project which receives
Federal assistance under title 23, United States Code.”
Title 23, in turn, authorizes federal funding for, inter
alia, “the elimination of hazards of railway-highway
crossings.” 23 U.S.C. § 130(a). It cannot be doubted that
Indian River County is seriously concerned about the
effects of any surface transportation project that cuts
through the County. Nor can it be doubted that Indian
River County has a strong interest in limiting or
removing any hazards posed by railway-highway crossings in the County. Therefore, on the record in this case,
it is not difficult to conclude that DOT’s allocation of
PABs pursuant to § 142(m) implicates important interests

23a
of Indian River County. The County is a “reasonable—
indeed, predictable—challenger[ ] of the Secretary’s
decisions” regarding PAB allocations in a case of this
sort. Match-E-Be-Nash-She-Wish Band of Pottawatomi
Indians, 567 U.S. at 227.
Given this context, we reject the suggestion made by
DOT and Intervenor AAF that Indian River County’s
interests are only “marginally related to” DOT
allocations of tax-exempt qualified Private Activity Bonds
pursuant to 26 U.S.C. § 142(m)(1)(A). We therefore
affirm the judgment of the District Court that Indian
River County’s interests are within the zone-of-interests
of 26 U.S.C. § 142.
C. DOT Lawfully and Reasonably Allocated
Private Activity Bonds to the AAF Project
The principal issue on the merits is whether DOT
permissibly allocated PABs to the AAF Project.
Appellant’s argument on this point is straightforward:
The AAF passenger rail project is eligible to be
financed with private activity bonds only if it
“receives Federal assistance under title 23.” 26
U.S.C. § 142(m)(1)(A). The AAF project has not
received such funding. DOT approved the use of
PABs for the project on the theory that it will
indirectly benefit from highway safety projects on
railway-highway crossings that received federal
funding under 23 U.S.C. § 130. These highway
safety projects were made on the pre-existing
freight corridor to be utilized by the AAF project.
But a supposed benefit to the AAF project, even if
proven, would not satisfy the statutory language
that the AAF project itself receive federal
assistance under title 23. Not only has the project
not received such funding, it would not have been

24a
eligible for such funding because the only type of
project eligible to receive funding under 23 U.S.C.
§ 130 is a project to improve the safety of railwayhighway crossings. The AAF project is not a
project to improve the safety of railway-highway
crossings.
Appellant’s Br. at 10. We find no merit in Appellant’s
argument.
Section 142(m)(1)(A) authorizes allocations of PABs
for “any surface transportation project which receives
Federal assistance under title 23, United States Code.”
DOT has followed a consistent interpretation of the
statute that a project “receives assistance” for purposes
of § 142(m) even if only a constituent portion was directly
financed with Title 23 funds. Applying that interpretation here, railroad grade crossings are part of a
railroad “project” on any ordinary understanding, and
the record adequately supports the District Court’s
conclusion that crossing improvements were made in
contemplation of the All Aboard Florida initiative. See
Indian River Cty., 348 F. Supp. 3d at 34-35.
After the Project was announced, AAF received $9
million in Title 23 funds that were used to upgrade
railway-highway crossings on the Project corridor.
About $2.2 million of those funds were used to upgrade
39 crossings in Phase II of the Project. The Title 23
funds used to improve the safety of the grade crossings
clearly benefit the AAF Project and are important to
“eliminat[ing] hazards of railway-highway crossings” as
required by the statute. 23 U.S.C. § 130. Therefore,
DOT permissibly and reasonably determined that the
Project qualified for tax-exempt PABs under 26 U.S.C.
§ 142(m).

25a
In opposition, AAF argues that DOT’s interpretation
of the statute rests on an “informal document” written in
2005 by the then-Acting Chief Counsel of the Federal
Highway Administration and, therefore, it “does not
warrant deference under Chevron U.S.A., Inc. v. NRDC,
467 U.S. 837 (1984) (“Chevron”), and at most is entitled to
respect only to the extent it has the ‘power to persuade.’
Skidmore v. Swift & Co., 323 U.S. 134, 140 (1944).”
Appellant’s Br. at 17; see also EDWARDS & ELLIOTT,
FEDERAL STANDARDS OF REVIEW 211-16, 248-51 (3d ed.
2018) (discussing Chevron and Skidmore). DOT, in
response, contends that “Chevron deference is appropriate in light of ‘the interstitial nature of the legal
question, the related expertise of the Agency, the
importance of the question to administration of the
statute, the complexity of that administration, and the
careful consideration the Agency has given the question
over a long period of time.’ ” DOT Br. at 25 n.4 (quoting
Barnhart v. Walton, 535 U.S. 212, 222 (2002)). We need
not decide whether Chevron deference is due because it
is clear on the record before us that DOT’s position easily
survives review under Skidmore.
When an agency’s interpretation of a statute has been
binding on agency staff for a number of years, and it is
reasonable and consistent with the statutory framework,
deference to the agency’s position is due under Skidmore. See, e.g., Fed. Express Corp. v. Holowecki, 552
U.S. 389, 399-402 (2008). This is because an agency’s
views that are within its area of expertise are entitled to
a level of deference commensurate with their power to
persuade. United States v. Mead Corp., 533 U.S. 218, 228
(2001).
DOT’s position has not only been consistent; it is also
eminently reasonable. After the enactment of § 142(m),

26a
DOT sent a letter, dated October 7, 2005, to the Internal
Revenue Service, explaining that “the most reasonable
reading of [the statute] permits the proceeds of [PABs]
authorized by this provision to be used on the entire
transportation facility that is being financed and
constructed even though only a portion of that facility
receives Federal assistance under title 23.” J.A. 4494.
The letter further explained that Title 23 grantees
typically build some segments of the facility with Title 23
funds and other segments with state or local funds, even
if the entire facility is eligible for Title 23 funding. Id. at
4493. The letter goes on to say that a narrow reading of
the word “project” would “distort the longstanding way
in which facilities are actually funded, create needless red
tape, and artificially result in the extension of Federal
requirements that have nothing to do with the bonding of
transportation facilities.” Id. at 4495. “This would result
in doing exactly what the Congress indicated it did not
intend to do. In summary, our view is that PAB proceeds
may be used on any qualified facility that includes a
project funded with Federal-aid highway funds made
available under title 23.” Id. DOT’s long-standing
position is based on persuasive considerations that are
consistent with the statute. It is therefore due deference.
Appellant contends that DOT’s position in this case
should be rejected because the disputed PABs were
approved for a surface transportation project that has
not received federal assistance under Title 23. We find
no merit in this claim. DOT has reasonably interpreted
“project which receives Federal assistance under title 23”
to mean a project which—in whole or part—benefits
from assistance under Title 23. We have no reason to
question this position because the statute does not
require an applicant for PABs to be the direct recipient

27a
of Federal assistance under Title 23; rather, the “project”
at issue must receive assistance under Title 23.
Appellant also insists that it is not enough that the
AAF Project received some assistance under Title 23;
rather, according to Appellant, in order to qualify for
PABs under § 142(m)(1)(A), the entire proposed Project
must be funded by Title 23. See Appellant’s Br. at 20.
However, there is nothing in the statute to support this
interpretation. In this case, DOT reasonably construed
§ 142 to authorize an allocation of PABs to a project that
has indisputably gained significant benefits from Title 23funded improvements to grade crossings throughout the
rail line.
Finally, Appellant argues that DOT’s approval of
PABs for the AAF project is arbitrary and capricious
because the federally funded highway safety improvement projects were not intended to benefit the AAF
project. Assuming without deciding that such intent is
required, the District Court correctly concluded that
sufficient evidence of intent was present here.
The District Court found that:
[T]he record indicates that a disproportionate
amount of the Title 23 funding was disbursed only
after the AAF project began. Over the ten-year
period from 2005 through 2014, the railway
received approximately $21 million dollars in Title
23 funding, approximately 43% of which came in the
three years following the commencement of AAF’s
planning. Given that the AAF project received
substantial attention in Florida, the Court is
skeptical that the State’s Department of
Transportation disbursed (and increased) this Title
23 funding without the knowledge—if not
purpose—of benefitting the project. In short, the

28a
record indicates that this is not an instance in which
the AAF project was such an ancillary or
unintended beneficiary of the funds as to prevent
the Secretary from concluding that it had
“receive[d] Federal assistance under title 23[.]” 26
U.S.C. § 142(m)(1)(A).
Indian River Cty., 348 F. Supp. 3d at 35 (second and
third alteration in original) (citation omitted). These
findings and the District Court’s conclusion are
supported by the record.
A large portion of the disputed Title 23 funds were
disbursed after the Project was announced and they
provided federal assistance to the Project by improving
grade crossings all along the corridor. The financial
assistance provided has been substantial, and the
benefits afforded to the Project are obvious. We
therefore affirm the judgment of the District Court.
D. The Environmental Impact Statement for the
AAF Project Complied with the Requirements
of NEPA
Finally, Appellant contends that the EIS prepared for
the Project does not comply with the requirements of
NEPA. Appellant argues that the EIS did not take a
“hard look” at the effects of the Project on public safety;
that it did not adequately disclose and mitigate safety
risks to trespassers cutting across the tracks at locations
other than at legal grade crossings; and that it did not
sufficiently analyze the noise impacts caused by both the
higher speeds of the freight trains on the improved
tracks and the train horns at grade crossings. The
record belies these claims.
The Supreme Court has emphasized that “inherent in
NEPA and its implementing regulations is a ‘rule of

29a
reason.’ ” Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752,
767 (2004) (citation omitted). This standard “ensures
that agencies determine whether and to what extent to
prepare an EIS based on the usefulness of any new
potential information to the decisionmaking process.” Id.
“NEPA does not impose a duty on agencies to include in
every EIS a detailed explanation of specific measures
which will be employed to mitigate the adverse impacts
of a proposed action.” Mayo, 875 F.3d at 16 (internal
quotation marks and citation omitted). And once an
agency has taken a “hard look” at “every significant
aspect of the environmental impact” of a proposed major
federal action, it is not required to repeat its analysis
simply because the agency makes subsequent discretionary choices in implementing the program. Baltimore
Gas & Elec. Co. v. Nat. Res. Def. Council, Inc., 462 U.S.
87, 97 (1983) (quoting Vermont Yankee Nuclear Power
Corp. v. Nat. Res. Def. Council, Inc., 435 U.S. 519, 553
(1978)). In sum, the Supreme Court has made it clear
that we must give deference to agency judgments as to
how best to prepare an EIS. See Robertson, 490 U.S.
332.
As the District Court’s decision shows, the
environmental review process conducted by FRA was
thorough and it complied fully with the commands of
NEPA. The District Court aptly noted that “[a]gency
action is rarely perfect. But NEPA does not demand
perfection. Instead, it requires that an agency take a
‘hard look’ at the reasonably foreseeable impacts of a
proposed major federal action. The extensive Final EIS,
appendices, common responses, and Record of Decision
together demonstrate that FRA met that requirement
here.” Indian River Cty., 348 F. Supp. 3d at 61-62. We
agree.

30a
As noted above, FRA prepared an EIS, covering more
than 600 pages, examining the environmental impacts of
the Project. J.A. 1635-2574. This process also included
multiple public meetings and opportunities for public
comment. Id. at 2559-74. In September 2014, FRA
released a draft EIS and received more than 15,400
comments from a wide range of stakeholders. The public
commentary was then considered by FRA when it
prepared the Final EIS. Id. at 2569. In early August
2015, the Final EIS was released. Id. at 1667.
The EIS examines the Project’s impacts on land use,
transportation, navigation, air quality, noise and
vibration, farmland soils, hazardous material disposal,
coastal zone management, climate change, water
resources, wild and scenic rivers, wetlands, floodplains,
wildlife habitat, threatened and endangered species,
social and economic effects (including impacts on lowincome communities), public health and safety, parks,
and historic properties, as well as the Project’s
cumulative impacts when combined with other past,
present, or reasonably foreseeable future actions. See id.
at 1635-2574. The EIS also sets forth a host of mitigation
measures to ameliorate those negative impacts. Id.
The EIS additionally includes a thorough discussion of
pedestrian safety, at both formal and informal crossings.
And it examines and discusses mitigation of risks to
pedestrians, including those using informal crossings.
With respect to formal crossings, the EIS relies on a
survey of every grade crossing on the rail corridor. This
survey was conducted by FRA’s Office of Safety,
Highway Rail Crossing and Trespasser Program
Division, and it includes an accompanying analysis
summarized in engineering reports which are included in
the EIS as Appendix 3.3.5-B. Id. at 2604-19.

31a
The EIS further acknowledges that informal crossings
do occur and that this form of trespassing was “an
epidemic along this corridor.” Id. at 2607 (Appendix
3.3.5-B); see also id. at 1762. The EIS recognizes that
these informal crossings are illegal and unsafe, id. at
1762, and that the arrival of AAF’s passenger rail service
could increase the frequency of accidents involving trains
and pedestrians, id. at 2397, 2400.
To mitigate these risks, the EIS describes a twopronged approach: (1) AAF must discourage the use of
informal crossings by installing fencing, and (2) AAF
must encourage the use of formal crossings by adding
sidewalks. Id. at 1763-64. This mitigation approach also
includes a public information campaign, which will be
conducted in coordination with the rail-safety organization, Operation Lifesaver. Id.
Moreover, the EIS notes that the rail corridor is
already fenced in at certain locations, id. at 2199, and
that AAF will conduct field surveys along the right-ofway to determine where additional fencing and other
preventative measures are needed to prevent trespassing, id. at 2400. The EIS provides that the “corridor
will be fenced where an FRA hazard analysis review
determines that fencing is required for safety; this will be
in populated areas where restricting access to the rail
corridor is necessary for safety.” Id. at 1900. “Fencing
on the N-S Corridor would be upgraded based on
existing public access locations and the potential for
conflicts with the increased train frequency.” Id. at 2400.
In addition, the EIS takes a “hard look” at noise
impacts from the Project. It finds that, if left unmitigated, these noises (principally from the warning horns
that the trains, both freight and passenger, are required
to sound at public highway-rail grade crossings) could

32a
cause adverse impacts. To mitigate these impacts, AAF
committed to installing pole-mounted horns at 117
intersections in the Phase II corridor, id. at 2291,
including 23 in Indian River County, id. at 2671. To
further reduce horn noise, AAF is cooperating with local
governments that wish to establish “quiet zones” that
allow both passenger and freight trains to pass through
grade crossings without sounding horns. Id. at 2291.
It is unnecessary for us to detail other parts of the
EIS or the environmental review process. The District
Court’s opinion, which offers an impressively thorough
and thoughtful examination of the record, and which we
endorse, is more than sufficient. Indian River Cty., 348
F. Supp. 3d at 42-62. The bottom line is that the Final
EIS for the AAF Project clearly complies with the
requirements of NEPA.
CONCLUSION
For the reasons set forth above, we affirm the judgments of the District Court.
So ordered.

33a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 19-5012
————
INDIAN RIVER COUNTY, FLORIDA AND INDIAN RIVER
COUNTY EMERGENCY SERVICES DISTRICT,
Appellants,
v.
UNITED STATES DEPARTMENT OF
TRANSPORTATION, ET AL.,
Appellees.
————
Appeal from the United States District Court
for the District of Columbia
(No. 1:18-cv-00333)
————
September Term, 2019
Filed On: December 20, 2019
————
Before: GARLAND, Chief Judge, SRINIVASAN, Circuit
Judge, and EDWARDS, Senior Circuit Judge.
JUDGMENT
This cause came on to be heard on the record on
appeal from the United States District Court for the
District of Columbia and was argued by counsel. On
consideration thereof, it is

34a
ORDERED and ADJUDGED that the judgments of
the District Court appealed from in this cause are hereby
affirmed, in accordance with the opinion of the court filed
herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:
Michael C. McGrail
Deputy Clerk
Date: December 20, 2019
Opinion for the court filed by Senior Circuit Judge
Edwards.

35a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
NO. 18-CV-00333 (CRC)
————
INDIAN RIVER COUNTY FLORIDA1 et al,
Plaintiffs,
v.
DEPARTMENT OF TRANSPORTATION et al,
Defendants.
————
MEMORANDUM OPINION
————
December 24, 2018
————
TABLE OF CONTENTS
I.

1

Background ...................................................

[37a]

A. Factual Background ............................

[37a]

1. The proposed project .......................

[37a]

2. The Secretary’s bond allocation ......

[38a]

3. The environmental review
process ...............................................

[40a]

This case was captioned Martin County et al v. Department of
Transportation et al in all previous filings. The Court has adjusted
the case name to reflect Martin County’s voluntary dismissal. See
Joint Stipulation of Dismissal, ECF No. 48.

36a
B. Procedural Background ......................

[42a]

Analysis .........................................................

[44a]

A. The Bond Allocation ............................

[44a]

1. Section 142(m)...................................

[47a]

2. Section 147(f ) ....................................

[62a]

B. NEPA Compliance ..............................

[75a]

1. Public-safety effects of the
project ................................................

[77a]

2. Effects of vessel queuing at railroad bridges over navigable
waters ................................................

[91a]

3. Alternatives to the route and the
use of moveable bridges ...................

[97a]

4. Noise impacts ...................................

[102a]

5. Changes to freight operations........

[109a]

III. Conclusion ....................................................

[115a]

II.

————
AAF Holdings, Inc. (“AAF”) plans to construct and
operate an express passenger railway connecting Orlando and Miami, Florida. The initial segment of the line between Miami and West Palm Beach is currently operational. The extension of the line to Orlando is still in the
planning stages. To help AAF finance the extension, the
U.S. Department of Transportation has allocated $1.15
billion in federally tax-exempt bonds to be issued by a
Florida economic development agency.
The planned extension of the railway will run through
Indian River County on Florida’s Treasure Coast. The
County and its Emergency Services District (together,
“Indian River County” or “Plaintiff ”) have long objected
to the project. In this, its second lawsuit challenging the

37a
project, Indian River County seeks summary judgment
on two grounds. First, it contends that the Department
of Transportation exceeded its authority in allocating the
bonds because the project is not eligible to receive taxexempt funding under two separate provisions of the Internal Revenue Code. Second, the County maintains that
the Federal Railway Administration (“FRA”) violated
the Administrative Procedure Act (“APA”) and the National Environmental Policy Act (“NEPA”) by conducting a flawed and incomplete review of the public health
and safety consequences of the project. Defendants the
Department of Transportation, its component FRA, and
several of its officers (together, “federal Defendants,”
“the Department,” or “FRA”) filed a cross motion for
summary judgment, as did AAF, which has intervened as
a defendant. Because the Department’s allocation met
the tax code’s requirements and the FRA’s review complied with NEPA, the Court will deny Indian River
County’s motion for summary judgment and grant the
federal Defendants’ and AAF’s.
I. Background
A. Factual Background
1. The proposed project
AAF is in the process of constructing a private passenger train service that will ultimately provide service
between Miami and Orlando. Phase I of the project currently operates from Miami to West Palm Beach. AR
65115-16. Phase II will run from West Palm Beach north
along Florida’s east coast to Cocoa and then west and inland to Orlando. Id. AAF plans to lay a second track
along a 128.5 mile stretch of single-track train corridor
owned by the Florida East Coast Railway (“FECR”)
from West Palm Beach north to Cocoa. AR 65115. This
track is currently used only by freight trains, some of

38a
which carry hazardous materials, but historically was
used by both freight and passenger trains. AR 73914.
This corridor is referred to in the record and by the parties as either the FECR Corridor or the N-S Corridor.
AR 65115. The N-S Corridor bisects Indian River County. AR 73572. AAF also proposes constructing a new 40mile track that would connect Cocoa and Orlando. This
stretch of track is referred to as the E-W Corridor. AR
65115.
AAF plans to operate thirty-two passenger trains per
day in addition to the FECR freight trains that now run
along the N-S Corridor. AR 65116. These trains would
run through Indian River County for twenty-one miles.
AR 73753. There are thirty “grade crossings” in the
County. Id. A grade crossing is an intersection where
the railway crosses a road or path at the same level or
grade, rather than an intersection where trains cross
over or under the road using an overpass or tunnel. In
addition to these grade crossings, the trains will traverse
bridges that are either fixed or moveable (i.e., draw
bridges). Two of these moveable bridges are at issue in
this case: the St. Lucie River Bridge and the Loxahatchee River Bridge. AR 73915. When these bridges
are in the “down” position, trains can cross over but boats
on the river cannot cross under.
2. The Secretary’s bond allocation
AAF is partially financing the railway project through
private activity bonds (“PABs”) issued by the Florida
Development Finance Corporation (“FDFC”), an agency
of the State of Florida. Congress has authorized the
United States Department of Transportation to allocate
tax-exempt authority to PABs used to finance specific
types of transportation projects.
See 26 U.S.C.
§ 142(m)(2)(C). AAF initially applied for a PAB allocation

39a
in August 2014. In December 2014, the Department of
Transportation approved that application and provisionally allocated $1.75 billion in tax-exempt PABs for the
project. See Indian River Cty. v. Rogoff (“Indian River
Cty. I ”), 110 F. Supp. 3d 59, 65 (D.D.C. 2015). AAF
planned to use these PABs to finance both phases of the
railway.
In November 2016, the Department, at AAF’s request,
withdrew the provisional allocation and replaced it with a
$600 million allocation of PAB authority to finance only
Phase I of the project. See Indian River Cty. v. Rogoff
(“Indian River Cty. III ”), 254 F. Supp. 3d 15, 17-18
(D.D.C. 2017). Then, in December 2017, AAF applied for
a new allocation of $1.15 billion in PAB authority to finance Phase II of the project. See AR 74220-62. As part
of its application, AAF represented that the project had
received $9 million in Title 23 federal funds, disbursed by
Florida’s Department of Transportation for highway-rail
crossings along the rail corridor. AR 74235. AAF included in its application a resolution by FDFC approving
the issue of bonds to finance the project. AR 74240-53.
That resolution concluded that the bond issue had received requisite public approval for tax-exempt status
because a designee of the State’s Governor had approved
their issue after a properly noticed public hearing. AR
74242-44. AAF’s application highlighted that the bonds
had already received this public approval. AR 74221.
Further, AAF included in its application a bond counsel
validity opinion, by the law firm Greenberg Traurig,
which concluded that “interest on the Bonds . . . is excludable from gross income for purposes of federal income taxation under existing laws as enacted and construed[.]” AR 74256.

40a
The Department approved the application and provisionally allocated $1.15 billion in PAB authority on December 20, 2017. AR 74324-26. Its provisional allocation
letter conditioned final allocation on several requirements, including compliance with all applicable federal
laws, as well as “a final bond counsel tax and validity
opinion . . . issued at the time of the closing of the bond
issue in substantially the form provided with the application.” AR 74324. While FDFC will issue the bonds, AAF
is responsible for marketing and selling them to investors. The parties have represented that the bonds will be
marketed in the next several weeks.
3. The environmental review process
AAF originally sought federal loan funding for the
project through the Railroad Rehabilitation and Improvement Financing (“RRIF”) program. RRIF loans
are subject to NEPA review. 49 C.F.R. § 260.35. FRA
reviewed the potential environmental impacts of the project under NEPA. AR 73636. With respect to Phase I,
FRA issued a Finding of No Significant Impact in 2013.
AR 73570. FRA then began preparing an Environmental
Impact Statement (“EIS”) for Phase II. AR 73571. It
held five public scoping meetings in May 2013 and received 248 comments in response to those meetings and
more than 160 comments in the subsequent seventeen
months. AR 74155-56. As required, FRA coordinated
with federal, state, local, and tribal governments, including Indian River County. AR 74157-59.
FRA completed a draft EIS in September 2014. AR
74164. The draft attracted some 15,400 public comments.
Id. During the comment period, FRA also held eight
public meetings, id., which were attended by over 2,500
people, AR 74165. FRA issued a Final Environmental
Impact Statement (“FEIS”) in August 2015. See AR

41a
73568. FRA subsequently received additional comments
on the FEIS, including from Plaintiff. AR 65154. When
AAF withdrew its RRIF loan application in 2015, FRA
decided to not issue a Record of Decision (“ROD”). AR
65118. After AAF re-filed an RRIF application in 2017,
FRA resumed the NEPA process and published the
ROD in December 2017. AR 65109-65. Appendix C to
the ROD provides responses to the comments on the
FEIS. See AR 65154; AR 65266-300.
The FEIS selects AAF’s preferred route as the best
alternative for the project and determines that no further
environmental review is necessary. AR 73578. The
FEIS itself is 646 pages long and separately includes
numerous appendices including maps and analyses of
noise impacts, navigation patterns, and more. The FEIS
and ROD outline the purpose of and need for the project,
the alternatives considered, the affected environment,
the potential environmental consequences of the project
and reasonable alternatives, and the historic properties
affected by the project. The FEIS also includes a chapter on measures that would avoid, minimize, or mitigate
impacts that would result from the project. AAF has
committed to implementing a series of mitigation
measures during both the construction and operation
phases of the project.
As part of the NEPA process, AAF retained the environmental consulting firm Vanasse Hangen Brustlin
(“VHB”) as a third-party advisor to FRA. This arrangement was memorialized in an agreement between FRA,
VHB, and AAF. See AR 1045-62. Under that agreement, VHB’s “scope of work, approach, and activities
shall be under the sole supervision, direction, and control
of the FRA.” AR 1046. AAF also hired its own consultant, Amec Foster Wheeler (“Amec”). In general, Amec

42a
conducted initial technical work, which it then submitted
to VHB and FRA for review and comment. AR 897-98;
see also AR 1062. The record includes a series of technical memoranda produced by Amec on issues like noise
and vibration. See, e.g., AR 61081-238 (Amec’s “Technical Memorandum No. 5 Noise and Vibration for AAF
Passenger Rail Project”). The record also reflects significant back-and-forth regarding those memoranda between VHB and FRA on the one hand and Amec and
AAF on the other. See, e.g., AR 1083-87, 1305-43, 156162, 7302-06, 7349-51 (charts setting forth VHB/FRA
comments on Amec technical memoranda and Amec/AAF
responses).
B. Procedural Background
As noted above, this is the second time Indian River
County has sued in this Court to prevent or delay the
Secretary of Transportation’s allocation of tax-exempt
bond issuance authority to finance the AAF project. In
2015, both Indian River County and nearby Martin
County, through which the proposed railway would also
run, sought (among other relief) a preliminary injunction
vacating the Secretary’s authorization of the tax exemption, which allocated PAB authority for both phases of
the project. See Indian River Cty. I, 110 F. Supp. 3d at
66. Both counties alleged violations of NEPA, the National Historic Preservation Act (“NHPA”), and the Department of Transportation Act (“DTA”), each of which
sets forth certain procedural requirements for major federal actions. Martin County also alleged a violation of
§ 142 of the Internal Revenue Code. There, as here, AAF
intervened as a defendant. Initially, the Court concluded
that the counties had failed to show that their asserted
injuries—public-safety hazards and harms to environmental and historic sites from the construction and oper-

43a
ation of the railway—were traceable to the Secretary’s
action or redressable by the Court. Specifically, while
the counties had shown that the cost of financing the project would increase without the Secretary’s allocation of
tax-exemptions, they were unable to show “that these
costs would significantly increase the likelihood that
AAF would abandon the project[.]” Id. at 71. In short,
the plaintiffs had failed to show that if the Court were to
grant them precisely what they asked for, the project
would cease and their harms would be remedied. The
Court also held that the counties’ alleged procedural injury—stemming from the purported failure to conduct an
appropriate environmental review—was insufficient to
confer standing absent some tethering to a substantive
injury sufficient for standing. Id. at 73. The Court thus
denied the counties’ motions because they had not established standing to sue. See id.
Following Indian River County I, the Court granted
the counties permission to conduct jurisdictional discovery to demonstrate that, but for the PAB allocation, AAF
would not complete the railway. Subsequently, the Department of Transportation moved to dismiss the counties’ suits. The Court concluded that through jurisdictional discovery, the counties had shown “that invalidating [the Department’s] decision to authorize . . . PABs
would significantly increase the likelihood that AAF
would not complete . . . the project.” Indian River Cty. v.
Rogoff (“Indian River Cty. II”), 201 F. Supp. 3d 1, 4
(D.D.C. 2016). Further, the Court found that the plaintiffs had alleged sufficient facts to demonstrate that the
AAF project qualified as “major federal action” triggering certain requirements under NEPA, NHPA, and
DTA. Id. at 20. Consequently, it denied the motion to
dismiss those claims. It did, however, dismiss Martin

44a
County’s claim that the PAB allocation violated § 142 of
the Internal Revenue Code, concluding that the County’s
asserted injuries fell outside the zone of interests that
Congress sought to protect in § 142. Id. at 21.
Following the Court’s decision in Indian River County II that the counties had stated valid claims, AAF withdrew its application for a PAB allocation. It replaced
that application, which had sought to use the bonds to finance both phases of the project, with an application for a
smaller allocation to be used only for Phase I. Because
Phase I dealt only with a portion of the proposed railway
that did not run through the plaintiff counties, the Court
dismissed the cases at moot. Indian River Cty. III, 254
F. Supp. 3d at 22.
Since then, AAF applied for an allocation to help finance Phase II, which the Department of Transportation
provisionally approved. Indian River County, initially
joined by Martin County and a group of concerned citizens, has again sued. They contend that the PAB allocation violated two provisions of the Internal Revenue Code
and that FRA did not comply with its requirements under NEPA. AAF again intervened as a defendant. The
parties all moved for summary judgment. The Court
held a hearing on these motions on November 27, 2018.
Shortly before this hearing, Martin County and the citizens group reached a settlement with the federal Defendants and AAF and, therefore, are no longer plaintiffs
in the case.
II. Analysis
A. The Bond Allocation
To facilitate Phase II of the AAF railway, the Secretary of Transportation provisionally allocated tax-exempt
authority to $1.15 billion in PABs to be issued to finance
the project. The Secretary of Transportation’s allocation

45a
is subject to review under the APA. 5 U.S.C. §§ 702, 706.
Chevron, U.S.A. v. NRDC, 467 U.S. 837 (1984), establishes a two-part inquiry to determine whether an agency
has arrived at a permissible interpretation of the law it is
charged with administering. First, if a law directly addresses the precise question at issue, Congress’s directive controls. Id. at 842-43. Second, if the statute is silent or ambiguous regarding the matter at hand, “the
question for the court is whether the agency’s interpretation is based on a permissible construction of the statute
in light of its language, structure, and purpose.” Nat’l
Treasury Emps. Union v. Fed. Labor Relations Auth.,
754 F.3d 1031, 1042 (D.C. Cir. 2014) (quoting AFL-CIO v.
Chao, 409 F.3d 377, 384 (D.C. Cir. 2005)). The court must
defer to any reasonable agency interpretation, Loving v.
IRS, 742 F.3d 1013, 1016 (D.C. Cir. 2014), which need not
be the one “deemed most reasonable by the courts[,]”
Entergy Corp. v. Riverkeeper, Inc., 556 U.S. 208, 218
(2009).
Indian River County contends that the Secretary’s allocation violated two provisions of the Internal Revenue
Code. A brief overview of the statutory scheme contextualizes these challenges and the Department and AAF’s
responses. Congress has authorized interest earned on
certain types of PABs to be exempted from federal taxation. See 26 U.S.C. §§ 103, 141. Because this exemption
allows the bondholder to keep all the interest, bond issuers can sell the bond at a lower interest rate. A PAB
must be a “qualified bond” in order for it to be taxexempt. Id. § 103. Section 141 outlines certain types of
PABs that can constitute “qualified bond[s],” including
“exempt facility bond[s].” Id. § 141(e)(1)(A). Under
§ 142(a), a bond is an “exempt facility bond” if at least
95% of proceeds from its issue are used to finance one of

46a
fifteen enumerated categories of projects. Id. § 142(a).
One such category is “qualified highway or surface
freight transfer facilities.” Id. § 142(a)(15). Section
142(m) defines “qualified highway or surface freight
transfer facilities,” id. § 142(m)(1), and authorizes the
Secretary of Transportation, “in such manner as [she]
determines appropriate,” id. § 142(m)(2)(C), to allocate
up to $15 billion of PAB authority to eligible projects, id.
§ 142(m)(2)(A). Put simply, Congress has enacted a
mechanism through which the Secretary can allocate tax
exemptions to bonds used to finance construction of, or
improvements to, certain types of facilities. These exemptions lower the cost of selling the bonds, better enabling state and local governments to finance the projects.
The Secretary’s allocation is necessary, but not sufficient, for a bond to be tax-exempt because it finances a
“qualified highway or surface freight transfer facilit[y].”
Id. § 142(m)(2)(A). The Internal Revenue Code also establishes other requirements for PABs to be considered
“qualified” and thus tax-exempt. See id. § 141(e)(3).
These include a requirement that bonds used to finance a
facility must be approved by both “the governmental unit
. . . which issued such bond,” id. § 147(f )(2)(A)(i), and
“each governmental unit having jurisdiction over the area” in which any bond-financed facility is located, id.
§ 147(f )(2)(A)(ii).
In this case, Indian River County alleges first that the
Secretary violated the statute because the AAF passenger railway is ineligible for a PAB allocation under
§ 142(m). The County also contends that, in any event,
because it has not approved the bond issue as § 147(f ) requires, the PABs cannot be tax exempt. The Court turns
to each of these statutory provisions.

47a
1. Section 142(m)
Indian River County alleges that the Secretary’s allocation of PAB authority to the AAF railway violated 26
U.S.C. § 142(m). It contends that because the project is
not an eligible “qualified highway or surface freight
transfer facilit[y],” the Secretary exceeded her statutory
powers in allocating PAB authority to the project. In the
last round of litigation, Martin County raised a similar
argument, which the Court rejected as going beyond the
“zone of interests” protected by § 142. See Indian River
Cty. II, 201 F. Supp. 3d at 20-21. Both the federal Defendants and Intervenor-Defendant ask the Court to
reach the same result this time around. Alternatively,
they argue that the allocation complied with § 142. For
the following reasons, the Court concludes that Indian
River County has shown that its asserted interests arguably fall within the zone of interests Congress sought to
protect in § 142, but that its claim fails on the merits.
a. Zone of Interests
Before the Court reaches the substance of Indian River County’s § 142 claim, it “must . . . inquire whether the
plaintiff [ ] fall[s] within the class of persons whom Congress has authorized to sue under the Administrative
Procedure Act.” Mendoza v. Perez, 754 F.3d 1002, 1016
(D.C. Cir. 2014). To do so, it must determine whether Indian River County’s “grievance . . . arguably fall[s] within
the zone of interests protected or regulated by the statutory provision . . . invoked in the suit,” in this case § 142.
Id. (quoting Bennett v. Spear, 520 U.S. 154, 162 (1997)).
This inquiry “is not meant to be especially demanding”
and “forecloses suit only when a plaintiff ’s ‘interests are
so marginally related to or inconsistent with the purposes
implicit in the statute that it cannot reasonably be assumed that Congress intended to permit the suit.’ ”

48a
Match-E-Be-Nash-She-Wish Band of Pottawatomi Indians v. Patchak, 567 U.S. 209, 225 (2012) (quoting
Clarke v. Sec. Industry Ass’n, 479 U.S. 388, 399 (1987)).
When Martin County advanced its § 142 claim in the
last round of litigation, the Court concluded that it had
not cleared this hurdle. In that instance, like Indian River County does here, Martin County asserted interests in
public safety, environmental protection, and historic
preservation. Indian River Cty. II, 201 F. Supp. 3d at
21. It relied on SAFETEA, Pub. L. 109-59, 119 Stat.
1144 (2005)—the legislation through which Congress
amended § 142 to add PAB authorization for “qualified
highway or surface freight transfer facilities”—to contend that Congress sought to protect these interests
when it amended § 142. See Indian River Cty. II, 201 F.
Supp. 3d at 20-21. But as the Court explained at the
time, SAFETEA is a “massive statute with many objectives” and its relevant amendments to § 142 were “but a
tiny component of the overall legislation.” Id. at 21. As
such, it would have been—and remains—too dilutive of
the zone of interests test to allow a plaintiff to challenge
an allocation under § 142(m) based on an interest advanced anywhere in SAFETEA. Id. at 20 (citing Tax
Analysts & Advocates v. Blumenthal, 566 F.2d 130, 141
(D.C. Cir. 1977)). Instead, “the relevant unit of analysis”
for conducting the inquiry is § 142 itself. Id. And because “Martin County present[ed] no real argument that
its interests [were] more than marginally related [to]
those protected or regulated by Section 142 itself,” but
rather “place[d] all its eggs in the SAFETEA basket instead,” id. at 21, the Court dismissed the claim.
In this litigation, Indian River County has advanced
stronger arguments, focusing appropriately on the interests at stake in § 142 itself. Indian River County con-

49a
tends that these interests are illuminated by § 147(f ),
which requires State or local government approval for
certain PABs to qualify for tax exemption. “In applying
the zone-of-interests test, [courts] do not look at the specific provision said to have been violated in complete isolation[.]” Fed’n for Am. Immigration Reform, Inc.
(“FAIR”) v. Reno, 93 F.3d 897, 903 (D.C. Cir. 1996). At
the same time, courts must police the extent to which
they look beyond the provision invoked to ensure that
casting a wider net does not “deprive the zone-ofinterests test of virtually all meaning.” Air Courier Conference of Am. v. Am. Postal Workers Union, 498 U.S.
517, 530 (1991). Accordingly, a court must limit its analysis to the provision invoked for suit, as clarified by any
provisions to which it bears an “integral relationship.”
See, e.g., FAIR, 93 F.3d at 904. In this case, then, the
Court must first determine whether § 147(f ) bears an integral relationship with § 142, the provision upon which
Indian River County sues.
The Court concludes that the two provisions do bear
an integral relationship. They form adjacent requirements for PABs used to finance certain categories of facilities to qualify for tax-exempt status: § 142 enumerates
the types of facilities, and § 147(f ) ensures public approval and democratic accountability for their construction. 2
2

The fact that each provision specifically deals with “facilities” is important. Indian River County relies in part on the fact that § 142 and
§ 147 share a common subpart of the Internal Revenue Code, which
governs PABs eligibility. Courts have often found provisions contained in a common subsection to be integrally related. See, e.g.,
Int’l Union of Bricklayers & Allied Craftsmen v. Meese, 761 F.2d
798, 804-05 (D.C. Cir. 1985); Save Jobs USA v. DHS, 210 F. Supp. 3d
1, 11-12 (D.D.C. 2016). But a common subpart is less instructive
where, as here, the PABs subpart has multifarious purposes and covers several different types of bonds. But § 142 and § 147 each gov-

50a
Absent § 147(f ) approval, PABs used to finance a § 142
facility cannot be tax-exempt; and PABs approved pursuant to § 147(f ) are not tax-exempt unless they are used
to finance a § 142 facility. Cf. Wash. All. of Tech. Workers
v. DHS, 156 F. Supp. 3d 123, 135 (D.D.C 2015) (holding
that provisions share an integral relationship in part because they perform an “interlocking task”).
Most importantly, each requirement evinces a common purpose: ensuring that when the public fisc forgoes
revenue through tax-exempt bonds, those bonds are used
to benefit the public. As the Court explained in Indian
River County II: “Congress enacted 26 U.S.C. § 142 in
general, and Sections 142(a)(1) and 142(m) in particular,
to create a tax benefit to support the development and
construction of certain kinds of projects with significant
public benefits and a demonstrated need for financial assistance.” 201 F. Supp. 3d at 21. When Congress added
§ 142(m) to the Internal Revenue Code in 2005, it did so
against the backdrop of § 147(f ), which it had first added
to the Code in 1982 in a clear effort to ensure public benefit from tax-exempt bonds. As the Senate Finance
Committee Report explained at the time:
The committee believes that new restrictions are
needed on [bonds] to help eliminate inappropriate
uses and to help restore the benefit of tax-exempt
erns the use of bonds to finance facilities in particular, evincing a
closer relationship than § 142 shares with, for example, the rules
governing mortgage bonds that are also contained in that subpart.
The Court’s conclusion is not that the two bear an integral relationship simply because they share a common subpart, but because they
both deal with a common activity regulated by that subpart. Thus,
contrary to Defendants’ contentions, the Court’s conclusion that the
two provisions bear an integral relationship does not license any
plaintiff whose interests are protected by any provision within the
subpart to challenge a § 142(m) allocation.

51a
financing for traditional governmental purposes.
However, the committee believes that, in general,
state and local governments are best suited to determine the appropriate uses of [bonds]. The
committee believes that providing tax exemptions
for the interest on certain [bonds] may serve legitimate purposes in some instances provided
that the elected representatives of the state or local governmental unit determine after public input that there will be substantial public benefit
from issuance of the obligations[.]
S. Rep. No. 97-494(I), at 168 (1982).
This suggests a common purpose: § 142 reflects congressional judgment about the types of projects that
benefit the public enough to warrant tax-exempt financing, and § 147(f ) creates a mechanism of democratic accountability by which the public can confirm that a particular project does indeed confer public benefit. Cf.
Nat’l Petrochemical & Refiners Ass’n v. EPA, 287 F.3d
1130, 1148 (D.C. Cir. 2002) (holding that provisions
shared an integral relationship because one helped “accomplish[ ] one of the express goals” of the other).
The same legislative history and interlocking purpose
compel the Court to reconsider its holding in Indian River County II that local governments fall outside § 142’s
zone of interests. Indian River County has properly focused its attention not on SAFETEA as a whole, but on
§ 142 itself and its purpose of “support[ing] the development and construction of certain kinds of projects with
significant public benefits[.]” Indian River Cty. II, 201
F. Supp. 3d at 21. By demonstrating that § 142 and
§ 147(f ) bear an integral relationship, the County has illuminated § 142 in a way that suggests Congress’s intent
was indeed to allow State and local governments to en-

52a
sure public benefit would accrue from projects financed
by tax-exempt bonds. And because it appears from the
legislative history that Congress gave some deference to
State and local governments’ assessment of public benefit, Indian River County’s asserted interests at least arguably fall within the zone of interests protected by § 142.
Accordingly, the Court concludes that Indian River
County has plausibly stated a claim under that provision.
b. The merits of the County’s Section 142(m)
claim
Moving to the merits of Indian River County’s § 142
claim, the County contends that the Secretary’s allocation is inconsistent with the statute because Phase II is
not a “qualified highway or surface freight transfer facilit[y],” 26 U.S.C. § 142(a)(15), and thus is ineligible for
an allocation of PAB authority. The Court concludes that
the Secretary’s allocation conformed to the statutory requirements and was a reasonable exercise of her discretion. It will therefore grant summary judgment on this
issue to the Department and AAF.
Section 142 defines “qualified highway or surface
freight transfer facilities” to include “any surface transportation project which receives Federal assistance under title 23, United States Code[.]” Id. § 142(m)(1)(A).
The Secretary allocated PAB authority after concluding
that the project fell within this definition. Indian River
County challenges that allocation, contending that
§ 142(m)(1)(A) does not encompass the project and it was
thus ineligible for an allocation. Specifically, the County
contends that, when read in proper context, a “surface
transportation project” means only a highway project,
which necessarily precludes an allocation to any rail project. It also maintains that if the term “any surface
transportation project” did encompass rail projects, the

53a
AAF project has not received Title 23 federal assistance.
The Court addresses each point in turn.
i. Whether the AAF project is a “surface
transportation project” within the
meaning of § 142(m)(1)(A)
The plain meaning of § 142(m)(1)(A) is unambiguous.
It defines “qualified highway or surface freight transfer
facilities” to include “any surface transportation project[.]” 26 U.S.C. § 142(m)(1)(A). Because Congress did
not specify what “surface transportation” means, the ordinary meaning of the phrase controls. See, e.g., Johnson
v. United States, 559 U.S. 133, 138 (2010). The dictionary
definition of “surface transport” is “the movement of
people or goods by road, train, or ship, rather than by
plane.” Cambridge Business English Dictionary (2011).
This plainly includes rail projects. Defining “surface
transportation” to include rail comports with its use
elsewhere in federal law. For example, in SAFTEA, the
legislation through which Congress enacted § 142(m), a
provision in another portion of the bill defined “surface
transportation system” to include “freight and intercity
passenger bus and rail infrastructure and facilities.”
SAFETEA § 1909(b)(14), Pub. L. 109-59, 119 Stat. 1476
(2005). The Surface Transportation Board—a congressionally created agency—is particularly notable: its
charge includes jurisdiction over rail issues. See generally, ICC Termination Act of 1995, Pub. L. 104-88, 109 Stat.
803 (1995); Surface Transportation Board Reauthorization Act of 2014, Pub. L. 114-110, 129 Stat. 2228 (2014).
There is no need to belabor the point with more examples: the dictionary definition of “surface transportation,” the phrase’s meaning in other areas of law, and its
ordinary usage all indicate that § 142(m)(1)(A) includes
rail projects.

54a
Congress’s use of “any” further indicates as much:
“Read naturally, the word ‘any’ has an expansive meaning, that is, ‘one or some indiscriminately of whatever
kind.’ ” United States v. Gonzales, 520 U.S. 1, 5 (1997)
(quoting Webster’s Third New International Dictionary
97 (1976)). The Supreme Court has explained that when
interpreting a statutory provision, “Congress’ use of ‘any’
to modify ‘other law enforcement officer’ is most naturally read to mean law enforcement officers of whatever
kind.” Ali v. Fed. Bureau of Prisons, 552 U.S. 214, 220
(2008). The same principle applies here: Congress’s use
of “any” to modify “surface transportation project” is
most naturally read to mean surface transportation projects of whatever kind—including rail projects.
Indian River County nonetheless insists that the plain
text of § 142(m)(1)(A) cannot be read in isolation and that
its context indicates that it refers only to highway projects. Relying on the principle of noscitur a sociis—a
word is known by the company it keeps—the County
highlights several contextual clues to contend that when
Congress said “any surface transportation project,” it
was actually referring only to highways.
First, the County notes that § 142(m)(1)(A) must be
read in light of the word “highway” in the phrase that it
is defining: “qualified highway or surface freight transfer
facilities.” 26 U.S.C. § 142(m)(1) (emphasis added). Because another portion of § 142(m)(1) deals with surface
freight transfer facilities, see 26 U.S.C. § 142(m)(1)(C),
Plaintiff contends, § 142(m)(1)(A) must deal with the
“highway . . . facilities.” But that argument is unavailing
in the face of Congress’s chosen definition. In interpreting a statute, courts defer to Congress’s definition of a
statutory provision, even if that definition is at odds with
the ordinary meaning. See, e.g., Digital Realty Trust,

55a
Inc. v. Somers, 138 S. Ct. 767, 776-777 (2018). Thus, even
accepting Plaintiff ’s premise, it was Congress’s prerogative to define “highway . . . facilities” as encompassing
more than highways. And, as discussed, that is plainly
what it did when it defined the term to include “any surface transportation project.”
Second, Indian River County notes that when Congress added “qualified highway or surface freight transfer facilities” to § 142, the statute already listed fourteen
other types of facilities eligible for PABs financing. See
26 U.S.C. § 142(a). Plaintiff insists that the fact that this
list already included railway facilities—in the form of
“high-speed intercity rail facilities,” id. § 142(a)(11), and
“mass commuting facilities,” id. § 142(a)(3)—Congress’s
inclusion of “qualified highway . . . facilities” must be understood to preclude passenger rail projects. As an initial matter, the original list did not encompass all rail
projects. “[M]ass commuting facilities” do not encompass longer passenger rail services that connect distant
cities to one another. Likewise, “high-speed intercity rail
facilities” include only passenger trains capable of 150
mile-per-hour maximum speeds, id. § 142(i)(1), which excludes slower trains (including those AAF is using). In
other words, the list to which Congress added “qualified
highway or surface freight transfer facilities” encompassed some types of passenger rail projects, but not all.
It would make perfect sense and would not be duplicative
for Congress to add a provision covering other types of
rail projects. Nor would it supplant those provisions.
While the types of railways encompassed by “mass commuting facilities” and “high-speed intercity rail facilities”
fall into the ambit of “any surface transportation project,” they do not necessarily also receive Title 23 funds
as § 142(m)(1)(A) requires.

56a
Third, Indian River County points to the fact that
§ 142(m)(1)(A)’s limiting provision references Title 23—
i.e., that a surface transportation project constitutes a
“qualified highway or surface freight transfer facilit[y]”
only if it “receives Federal assistance under title 23,
United States Code[.]” Id. § 142(m)(1)(A). Title 23 is a
portion of the U.S. Code entitled “Highways.” This detail, Plaintiff insists, further demonstrates that “any surface transportation project” must refer only to highways—especially since later in the provision, Congress
included in its definition of “qualified highway or surface
freight transfer facilities” certain types of facilities that
receive funding under either Title 23 or Title 49, which
addresses railroads. See id. § 142(m)(1)(C). According to
Plaintiff, the exclusion of a reference to Title 49 in
§ 142(m)(1)(A), when it was included in § 142(m)(1)(C),
means that § 142(m)(1)(A)’s reference to Title 23 indicates that it extends only to highway projects. But while
Title 23 does deal generally with highways, it also contains provisions authorizing funds for non-highway
transport, including passenger rail. See, e.g., 23 U.S.C.
§ 601(a)(12). Consequently, the reference to Title 23 is
not as strong a contextual clue as Plaintiff suggests and
is insufficient to supplant Congress’s capacious definition,
notwithstanding the fact that the Title 23 is called
“Highways.” Cf. United States v. Spencer, 720 F.3d 363,
367 (D.C. Cir. 2013) (embracing “the wise rule that the title of a statute and the heading of a section cannot limit
the plain meaning of the text” (citation omitted)).
Indian River County also invokes the canon expressio
unius est exclusio alterius—that “expressing one item of
an associated group or series excludes another left unmentioned,” Chevron U.S.A., Inc. v. Echazabal, 536 U.S.
73, 80 (2002) (citation and internal alteration omitted).

57a
The County suggests that because other portions of
§ 142(m) reference non-highway surface transport,
§ 142(m)(1)(A) cannot be interpreted to include such
transport. Section 142(m) includes both “any project for
an international bridge or tunnel for which an international entity authorized under Federal or State law is responsible,” 26 U.S.C. § 142(m)(1)(B), and “any facility for
the transfer of freight from truck to rail or rail to truck,”
id. § 142(m)(1)(C), among “qualified highway and surface
freight transfer facilities,” provided they receive appropriate funding. But their inclusion does not imply an exclusion of non-highway projects from “any surface transportation project[.]” The D.C. Circuit has repeatedly indicated that “[t]he expressio unius canon is a ‘feeble
helper in an administrative setting, where Congress is
presumed to have left to reasonable agency discretion
questions that it has not directly resolved.’ ” Adirondack
Med. Ctr. v. Sebelius, 740 F.3d 692, 697 (D.C. Cir. 2014)
(quoting Cheney R.R. Co. v. I.C.C., 902 F.2d 66, 68-69
(D.C. Cir. 1990)). In particular, “when countervailed by a
broad grant of authority contained within the same statutory scheme, the canon is a poor indicator of Congress’
intent.” Id. (citing Creekstone Farms Premium Beef,
L.L.C. v. Dep’t of Agric., 539 F.3d 492, 500 (D.C. Cir.
2008)). Here, Congress granted the Department wide
discretion, allowing it to allocate PAB authority among
facilities “in such manner as the Secretary determines
appropriate.” 26 U.S.C. § 142(m)(2)(C). Plaintiff ’s invocation of expressio unius est exclusio alterius is thus
misplaced and does little to undermine the Secretary’s
interpretation, particularly in light of § 142(m)(1)(A)’s
plain, capacious language.
Put simply, if Congress had intended for the addition
of “qualified highway or surface freight transfer facili-

58a
ties” to cover only highway projects, it would have made
that clear. For example, it could have defined “qualified
highway . . . facilities” to include only highway surface
transportation projects, instead of “surface transportation project[s].” It did not do so. Instead, it used a definition that referred to “any surface transportation project,” evincing broad inclusion.
As such, the Court has little trouble concluding that
§ 142(m) supports the Secretary’s allocation of PAB authority to a passenger rail project, assuming it receives
Title 23 funds. 3
ii. Whether the project received Title 23
funding
Indian River County also contends that Phase II was
ineligible for a PAB allocation because the project has
not “receive[d] Federal assistance under title 23, United
States Code,” as required by § 142(m)(1)(A).
Here, the Secretary approved the allocation based on
an application submitted by AAF. The application contains the following information concerning Title 23 funding:
The planning process for All Aboard Florida
started in December 2011. Since then, approximately $9 million from Section 130 of U.S. Code
Title 23 has been invested in the entire corridor
to improve railway-highway grade crossings and
3

The plain text of the statute is enough to support the Secretary’s
action, but it bears noting that this is not the first instance in which
the Department allocated PAB authority to a passenger railway.
The Department has previously allocated such authority to Maryland’s Purple Line light rail project and Denver’s Eagle Commuter
Rail project. See Private Activity Bonds, US Dep’t of Transp. Build
America Bureau, https://www.transportation.gov/buildamerica/pro
grams-services/pab (last visited Dec. 24, 2018).

59a
prepare the corridor for growth in rail traffic.
Future investments from the Section 130 program are planned for future calendar years. The
Florida Department of Transportation administers the Section 130 program on behalf of the
State of Florida.
AR 74235; see also AR 73549-62.
Indian River County objects that this Title 23 funding
went to FECR, the freight railway line on whose tracks
AAF’s passenger trains will run. In other words, the
County contends that FECR, not AAF, received the Title
23 funding and AAF merely benefitted from it. As an initial matter, § 142(m)(1)(A) requires that PABs be allocated to a “project which receives Federal assistance under
title 23, United States Code[.]” 26 U.S.C. § 142(m)(1)(A)
(emphasis added). Nothing in this provision requires
that the project proponent—here, AAF—receive Title 23
funds. Nor does anything require the bond-financed project to be the exclusive beneficiary of those funds. The
Department has long interpreted the statute to allow for
PAB allocation to projects based on direct benefits from
Title 23 spending. It highlights examples in which it has
allocated PAB authority to a light rail project based on
Title 23 funding to upgrade an adjoining trail, and to
freight transfer facilities based on Title 23 funding to upgrade nearby highways and bridges. See Fed. Defs.’
MSJ at 24 (citing Decl. of Paul Baumer ¶ 7, Martin Cty.
v. Dep’t of Transp., No. 15-cv-632-CRC (D.D.C. May 15,
2015), ECF No. 19-2). Thus, the Department’s longstanding interpretation of § 142(m)(1)(A) is consistent
with the Secretary’s allocation of PAB authority to AAF’s
project. And nothing in the statutory text precludes that
interpretation, notwithstanding the facts that Title 23

60a
funding went to FECR rather than AAF and that FECR,
in addition to AAF, benefited from the funding.
But at the same time, as the Department has tacitly
acknowledged, see Hr’g Tr. at 64:9-23, the statutory requirement that a project receive Title 23 funding cannot
be construed so broadly as to allow the Department to
bootstrap a project into PAB eligibility based solely on an
incidental and unintentional benefit from the funds. In
other words, the record must support the conclusion that
the funds were disbursed to benefit the project.
The record here supports the Secretary’s conclusion
that the project received Title 23 funding. Florida’s Department of Transportation disbursed approximately $9
million to account for increased rail traffic on the FECR
railway after AAF commenced planning its project. AR
74235, 73549-62. To be sure, there were planned increases in FECR freight traffic as well, but the record indicates that a disproportionate amount of the Title 23 funding was disbursed only after the AAF project began.
Over the ten-year period from 2005 through 2014, the
railway received approximately $21 million dollars in Title 23 funding, approximately 43% of which came in the
three years following the commencement of AAF’s planning. AR 73549-62. Given that the AAF project received
substantial attention in Florida, the Court is skeptical
that the State’s Department of Transportation disbursed
(and increased) this Title 23 funding without the
knowledge—if not purpose—of benefitting the project.
In short, the record indicates that this is not an instance
in which the AAF project was such an ancillary or unintended beneficiary of the funds as to prevent the Secretary from concluding that it had “receive[d] Federal assistance under title 23[.]” 26 U.S.C. § 142(m)(1)(A). Between these facts and the deferential nature of its review,

61a
the Court cannot accept Indian River County’s contentions.
Indian River County also alleges that the Department
inappropriately interpreted § 142(m)(1)(A) to allow PAB
authority to finance the entire railway corridor based on
the expenditure of Title 23 funds for discrete highwayrail crossings along that corridor. The Secretary’s conclusion—that the highway-rail crossings sufficed to render the whole corridor eligible for PAB allocation—is
consistent with longstanding Department interpretation
of what constitutes a “project” for purposes of
§ 142(m)(1)(A). Immediately following SAFETEA’s passage, the Federal Highway Administration (“FHA”)
wrote to the IRS to indicate its view that “the most reasonable reading . . . permits the proceeds of [PABs] authorized by this provision to be used on the entire transportation facility that is being financed and constructed
even though only a portion of that facility receives Federal assistance under title 23.” AR 73546. FHA explained that a narrower reading of “project” would cause
States, which disburse Title 23 funds, to sprinkle the
funds along whole facilities in order to make them eligible for PAB allocation, rather than continuing the practice of using them at discrete portions of facilities. AR
73546-47. Concluding that Congress did not intend
§ 142(m)(1)(A) to change disbursement practices, FHA
interpreted the provision to reflect a broader definition of
“project” than just the specific portion of a facility financed by Title 23 funding. FHA’s analysis reflects a
reasonable assessment of congressional intent and the
statutory text, and the Secretary’s interpretation of
§ 142(m)(1)(A) in this case conforms to it.
The Court therefore concludes that Phase II of the
AAF railway is a project that received Title 23 funding.

62a
Because it is also a surface transportation project, the
Court will grant summary judgment to the federal Defendants and Intervenor-Defendant on this claim.
2. Section 147( f )
Indian River County also challenges the use of PABs
as a violation of 26 U.S.C. § 147(f ), which establishes public approval requirements before bonds can be “qualified”
to receive tax-exempt status. The County insists that unless and until it approves the PABs, they do not constitute qualified bonds. The Department of Transportation
asks the Court to dismiss this claim as improperly presented. AAF, for its part, contends that Indian River
County’s claim fails on the merits because the State of
Florida approved issuance of the bonds in accordance
with § 147(f )’s requirements, which obviated the need for
approval by all counties through which the railway runs.
The Court will address each argument in turn, reaching
the merits of the Plaintiff ’s claim and granting summary
judgment to the federal Defendants and IntervenorDefendant.
a. Failure to state a claim
The Department asks the Court to dismiss Indian
River County’s § 147(f ) claim because the Secretary “is
not required to investigate whether Section 147’s requirements have been met before [she] makes a PAB allocation.” Fed. Defs.’ MSJ at 27. It explains the Secretary’s responsibilities under the statutory scheme begin
and end with § 142: she must determine only whether a
project is a “qualified highway or surface freight transfer
facility” and, if so, whether to allocate to that project a
portion of the $15 billion in tax-exempt PABs authorized
by Congress. Section 147, the Department contends,
presents a wholly distinct requirement for PABs to qualify for tax-exempt status into which the Secretary need

63a
not inquire before allocating PABs. Consequently, according to the Department, even if Indian River County’s
allegations regarding § 147(f ) were true, they would have
no bearing on the legality of the allocation but would concern only an assessment of the future tax liability of
bondholders.
While it does not appear that the statutory scheme
imposes any obligation on the Secretary to police § 147(f )
compliance, the record indicates that the Secretary did
consider such compliance in this particular instance.
AAF’s application for a PAB allocation highlighted its
view that § 147(f )’s requirements had been met by Florida’s approval. AR 74221 (“AAF has already successfully
completed the necessary hearings and approvals required under” § 147(f ).). As part of the application, AAF
submitted two documents indicating as much. First, it
provided a resolution by the FDFC, the Florida governmental entity responsible for issuing the bonds, approving their planned issue. AR 74240-53. The resolution included FDFC’s finding that § 147(f ) requirements were
satisfied by a properly noticed public hearing held in Tallahassee and subsequent approval by a Florida official
delegated powers by the State’s Governor. AR 74242-44.
Second, AAF submitted a proposed bond counsel tax and
validity opinion by the law firm Greenberg Traurig,
based on its review of the record and applicable laws. AR
74254-57. That opinion determined that “interest on the
Bonds . . . is excludable from gross income for purposes
of federal income taxation under existing laws as enacted
and construed[.]” AR 74256. The Department invited
submission of both documents. While there are no formal
requirements for PAB allocation applications, the Department has indicated that “to facilitate [its] consideration of [an] application,” applicants “may wish” to include,

64a
among other information, “a copy of a resolution . . . authorizing the issuance of a specific issue of obligations,”
and a “Form of Bond Counsel Opinion or date by which a
draft letter will be provided.” 71 Fed. Reg. 642, 643 (Jan.
5, 2006). Put simply, applicants wishing to receive serious consideration for an allocation would be wise to provide documentation that would analyze and support the
tax-exempt nature of the bonds, should allocation be provided.
Importantly, the Department’s provisional PAB allocation in this case conditioned final allocation on the
bond counsel’s opinion. It explained that final allocation
was based on several requirements, the first of which was
“a final bond counsel tax and validity opinion . . . issued at
the time of the closing of the bond issue in substantially
the form provided with the application.” AR 74324. That
condition indicates that the Department sought assurances that the allocation it made would involve bonds
otherwise compliant with tax-exemption requirements.
It also indicates that the Department was satisfied with
bond counsel’s analysis, which assumes § 147(f ) compliance by virtue of its conclusion that the bonds are tax exempt.
The Court’s analysis here is informed by the nature of
the allocation. Even accepting the Department’s contention that it is not responsible for policing compliance with
§ 147(f ), the fact remains that it is responsible for allocating highly-sought-after tax-benefits from a finite pool. In
this case, the Department has used $1.15 billion of the
$15 billion in that pool to support Phase II of the project.
The Court is skeptical that the Department would formally allocate $1.15 billion in bond authority absent some
confidence that the bonds would indeed be tax-exempt.
Otherwise, the Department would be wasting nearly ten

65a
percent of the finite resource Congress empowered it to
administer. The bonds here will be issued and offered for
sale imminently, and the Department has given no indication that they are legally infirm. It has not questioned
the bond counsel opinion that the bonds will be properly
tax-exempt. It has not suggested that the bonds fail to
comply with any “applicable Federal law,” a further condition of the final allocation. See AR 74325. In short, it
appears that the Department has implicitly concluded
that the State-level public approval satisfied § 147(f ) requirements. Moreover, in this litigation, the Department
has embraced AAF’s view that the State-level public approval satisfied those requirements. See Fed. Defs.’ Reply at 10 (“Thus, here, the State of Florida’s approval is
sufficient to satisfy Section 147(f ).”).
It bears emphasizing that the Court’s holding on this
issue is fact bound. The Court’s conclusion is not that the
statutory scheme requires the Department of Transportation to police compliance with § 147(f ) or any other requirement for tax exemption. Nor can the Court conclude that the Department makes assessments of § 147(f )
compliance for every allocation. Rather, it concludes only
that, in this particular case, the Department has interpreted § 147(f ) as satisfied—an assessment rooted in
AAF’s application and supporting materials, the Department’s provisional allocation letter and the conditions
it enumerated, the fact that the bonds will be issued imminently and the Department has not raised any § 147(f )
concerns, and the Department’s position in this litigation
that AAF’s arguments on the merits are correct.
Under these circumstances, then, the Court finds it
appropriate to reach the merits of the County’s § 147(f )
claim.

66a
b. Section 147(f ) merits
While Indian River County has stated a valid claim
under § 147(f ), the claim is not meritorious, and the Court
will grant summary judgment to the federal Defendants
and AAF.
For PABs to be “qualified” and thus tax-exempt,
§ 147(f ) requires public approval by:
(i) the governmental unit—
(I) which issued such bond, or
(II) on behalf of which such bond was issued, and
(ii) each governmental unit having jurisdiction
over the area in which any facility, with respect to
which financing is to be provided from the net
proceeds of such issue, is located (except that if
more than 1 governmental unit within a State has
jurisdiction over the entire area within such State
in which such facility is located, only 1 such unit
need approve such issue).
26 U.S.C. § 147(f )(2)(A). Subsections (i) and (ii) are commonly known as “issuer approval” and “host approval,”
respectively. In this case, FDFC, a State-level agency,
issued the bonds after concluding that § 147(f )’s requirements had been met. Specifically, it cited a noticed public
hearing held in Tallahassee, followed by approval by a
Florida State official who was “the designee of the Governor of the State of Florida, the applicable elected representative to approve the [bond] issuance.” AR 7424344; see also, 26 U.S.C. § 147(f )(2)(B) (requiring “a public
hearing following reasonable public notice”); AAF’s MSJ,
Ex. 1 (memorandum from Florida Governor authorizing
approval on his behalf).

67a
Indian River County does not dispute that the issuer
approval complied with § 147(f )(i). Nor does it dispute
that because the State issued the bonds, its issuer approval was tantamount to host approval by the State.
See 26 C.F.R. § 5f.103-2(c)(3). The County’s claim, rather, is that the State’s approval alone was insufficient to
satisfy § 147(f )(2)(A)(ii) without approval at the county
level as well.
Indian River County contends that the plain text of
§ 147(f )(2)(A)(ii) unambiguously requires the County to
approve the bond issue before the bonds achieve qualified
status. It maintains that because it is a “governmental
unit having jurisdiction over the area in which” the railway “is located,” its approval is necessary unless the parenthetical exception applies. And the exception does not
apply, the County argues, because Phase II runs through
five counties, so this is not an instance in which “more
than 1 governmental unit . . . has jurisdiction over the entire area . . . in which [the] facility is located.” 26 U.S.C.
§ 147(f )(2)(A)(ii).
But even without the parenthetical exception,
§ 147(f )(2)(A)(ii) is ambiguous in its requirement that
“each governmental unit having jurisdiction” over the
relevant area approve the bond issue. Congress did not
define the term “governmental unit” beyond indicating
that it excludes the federal government. See 26 U.S.C.
§ 150(a)(2). So, the term “governmental unit” could conceivably encompass everything from the State to its
counties to school boards and dogcatchers.
Hoping to sidestep ambiguity in the term “governmental unit,” Plaintiff urges the Court to apply a limiting
principle implicit in § 147(f ), noting that approval requirements are satisfied by approval “by the applicable
elected representative” of a government unit, which in-

68a
cludes “an elected legislative body of such unit” or “the
chief elected executive officer.” 26 U.S.C. § 147(f )(2)(E).
This provision, according to Plaintiff, clarifies that “governmental unit” in this context unambiguously means an
entity with an elected legislature or chief executive. See
Hr’g Tr. at 47:14-16. But those provisions go to the
mechanisms by which a governmental unit may approve,
not to the definition of “governmental unit” itself. See 26
U.S.C. § 147(f )(2)(B). Section 147(f ) also anticipates situations in which a governmental unit may not have an
“applicable elected representative,” id. § 147(f )(2)(E)(ii),
which betrays the contention that Congress defined the
term “governmental unit” to include only governmental
entities with elected legislative bodies or chief executives.
Further, even if the Court were to accept Plaintiff ’s contention, it would not render the statutory text unambiguous: local school boards, sheriffs, and other entities are
often elected to exercise legislative or executive authority, and each would constitute a “governmental unit” absent further clarification. See 26 C.F.R. § 5f.103-2(e)
(clarifying that “[i]f multiple elected legislative bodies of
a governmental unit have independent legislative authority, . . . the body with the more specific authority relating
to the issue is the only legislative body” whose approval
suffices); id. § 5f.103-2(h)(7) (discussing example implicating elected school board).
Even setting aside these types of entities, Indian River County’s position would mean that every single city
and town through which Phase II runs would have to approve the bonds’ issuance in order for them to be tax exempt, even if all of the counties encompassing those jurisdictions approved the issue. Congress passed § 147(f )
to promote democratic accountability and safeguard
State and local governments’ input on projects as a

69a
means of ensuring tax exemptions benefit the public. Affordable Hous. Dev. Corp. v. City of Fresno, 433 F.3d
1182, 1193 (9th Cir. 2006). But it is hard to imagine that
its chosen mechanism would yield a result in which a single town could pocket veto a significant public infrastructure project notwithstanding the assent of the State and
county governments.
The absurdity of Plaintiff ’s view is further revealed by
its interpretation of § 147(f )(2)(A)(ii)’s parenthetical exception “that if more than 1 governmental unit within a
State has jurisdiction over the entire area within such
State in which such facility is located, only 1 such unit
need approve such issue.” Plaintiff reads this to mean
that State approval alone suffices only in such a situation.
But that would mean a State could approve a facility over
local government objections only if the local government
had jurisdiction over the entire facility. Under Plaintiff ’s
view, if, for example, the facility were entirely within Indian River County, Florida’s approval would suffice, even
if Indian River County opposed it, because both Florida
and the County would share jurisdiction over the entire
area. But, because Phase II spans four other counties
within the State, Florida’s approval is insufficient. It
would be a bizarre outcome, to say the least, if a State
could approve financing of a facility over a political subdivision’s objection if the facility were located entirely
within that subdivision but could not do so when the facility traverses multiple subdivisions. Why would Congress
empower a county to override its State’s desire to finance
a facility in every instance except those in which it is
uniquely affected? This only compounds the absurdity of
Plaintiff ’s reading of the non-parenthetical portion of
§ 147(f ) to require assent from every single local government through which Phase II runs. The Court cannot

70a
accept this reading. Cf. Griffin v. Oceanic Contractors,
Inc., 458 U.S. 564, 575 (1982) (explaining that statutory
interpretations that “would produce absurd results are to
be avoided if alternative interpretations consistent with
the legislative purpose are available”).
In short, there is substantial ambiguity in the requirement of approval by “each governmental unit” with
jurisdiction over the facility. In the face of such ambiguity, the Court considers whether the Department’s implicit interpretation—that the State’s approval alone satisfied § 147(f )(2)(A)(ii)—“is based on a permissible construction of the statute in light of its language, structure,
and purpose.” Nat’l Treasury Emps. Union, 754 F.3d at
1042 (quoting AFL-CIO, 409 F.3d at 384). There are several indications that it was a permissible construction of
the statute.
First, the legislative history indicates that, notwithstanding ambiguous statutory language, Congress intended State approval to suffice in situations like this.
The Conference Committee reports included language
“intend[ed] to clarify the application of the rule requiring
a public hearing and approval by an elected official or
legislative body in order to issue [PABs].” The reports
explained:
Where the facilities are located entirely within
the geographic jurisdiction of the issuing governmental unit, only one public hearing and approval are required even though the facilities
may be located in several different subdivisions of
the issuing governmental unit.
...
For example, where a governor of a state is to
approve the issuance of bonds for facilities locat-

71a
ed in that state (even though located in several
counties), only the state is required to have a
public hearing on the bond issue.
H.R. Rep. No. 97-760, at 517 (1982) (Conf. Rep.); S. Rep.
No. 97-530, at 517 (1982) (Conf. Rep.).
The example is precisely on point. Here, Florida’s
Governor, through his representative, approved the issuance of bonds for the facilities. Per the Conference
Committee reports, that approval suffices and the fact
that the facilities run through several political subdivisions of the State does not undermine its sufficiency.
Second, the Department’s implicit acceptance of the
sufficiency of the State’s approval is consistent with IRS
regulations implementing § 147(f ). Those regulations define “governmental unit” to mean “a State, territory, a
possession of the United States, the District of Columbia,
or any political subdivision thereof.” 26 C.F.R. § 5f.1032(g)(1). Plugging the relevant part of that definition into
§ 147(f ) yields a requirement of approval by “each State
or political subdivision thereof having jurisdiction” over
the relevant area. This phrase by itself doesn’t answer
the key question one way or the other, because it is not
immediately clear what work the word “or” does in this
context. It could signify that every unit with jurisdiction—whether a State or its political subdivision—must
approve the issue; it could also signify that each State
with jurisdiction, or each political subdivision with jurisdiction, must approve the issue.
Fortunately, the same IRS regulations provide examples that answer any lingering questions and confirm
that it is the latter. Example 5 is particularly instructive:
County M proposes to issue an industrial development bond to finance a project located partly

72a
within the geographic jurisdiction of County M
and partly within the geographic jurisdiction of
County N. Both counties are located in State X.
The part of the project in County N is also located partly within the geographic jurisdiction of
City O and partly within the geographic jurisdiction of City P. Under the provisions [implementing issuer approval], County M must give issuer
approval. Additionally, under the provisions [implementing host approval], either State X, County N, or both Cities O and P, must give host approval.
Id. § 5f.103-2(h)(5).
This example removes any doubt that a higher-level
government unit’s approval suffices to satisfy
§ 147(f )(2)(A)(ii), whether or not its political subdivisions
approve. That is why County N’s approval obviates the
need for Cities O and P to give their own approval, and
why State X’s approval obviates the need for County N’s
approval.
Given clear legislative intent and the long-standing
regulations interpreting the statute, the Court concludes
that it is reasonable to interpret § 147(f )(2)(A)(ii) as satisfied by State-level approval in this instance. This is also
consistent with Congress’s purpose, which was to build in
some level of democratic accountability to ensure that
tax-exempt bonds finance only those projects that actually benefit the public. That goal is achieved if every area
in which a facility is located falls within the constituency
of an approver.
This reading of the statute is not inconsistent with
§ 147(f )(2)(A)(ii)’s parenthetical exception, on which
Plaintiff heavily relies as the sole exception where State
approval suffices. The regulatory examples help clarify

73a
that this exception is designed to permit approval by a
lower-level government without the need for higher-level
approval. In one of the examples, “State X proposes to
issue an industrial development bond to finance a facility
located partly within the geographic jurisdiction of State
X and partly within the geographic jurisdiction of State
Y,” with the “portion of the facility located in State Y . . .
entirely within the geographic jurisdiction of City Z.” 26
C.F.R. § 5f.103-2(h)(7). In this instance, “either State Y
or City Z must give host approval as that part of the facility to be located outside State X will be entirely within
the geographic jurisdiction of each unit.” Id. In other
words, the lower-level government need not wait for
higher-level authority to approve such a project but does
not possess veto power if the two share jurisdiction. This
is consistent with the view that the statute means each
State with jurisdiction, or its political subdivision with jurisdiction, must approve the issue.
To avoid doubt and facilitate this understanding, the
IRS’s regulations further provide that “if property to be
financed . . . is located within two or more governmental
units but not entirely within either of such units, each
portion of the property which is located entirely within
the smallest respective governmental units may be treated as a separate facility.” Id. § 5f.103-2(c)(3). This clarifies why, in Example 5, once County M gave issuer approval (which doubled as host approval), County N’s approval sufficed absent State X’s approval, even though it
did not have jurisdiction over the entire area. Each portion could be treated as a discrete facility so the portion
in County N was entirely within the jurisdiction of both
State X and County N, allowing County N alone to give
host approval. Likewise, it clarifies why Cities O and P
could both give host approval without waiting for either

74a
County N or State X. Either the State, or its political
subdivision with jurisdiction, must approve the bond issue.
In sum, reading § 147(f )(2)(A)(ii)’s parenthetical exception to empower a local government to approve a facility without waiting for the State is consistent with the
congressional purpose of financing facilities that benefit
the public while ensuring democratic accountability.
Once a local government with jurisdiction over the entire
facility concludes that it is worthwhile, it would make little sense to force it to wait for the State to act. The exception is a mechanism for facilitating local government
assent to a project in the face of State intransigence.
Plaintiff ’s interpretation, on the other hand, would turn a
shield into a sword and allow a local government to veto a
State’s approval.
Plaintiff ’s understanding of § 147(f ) would yield absurd results and runs head first into the Conference reports in which Congress announced its intention that
“where a governor of a state is to approve the issuance of
bonds for facilities located in that state (even though located in several counties), only the state is required to
have a public hearing on the bond issue.” H.R. Rep. No.
97-760, at 517 (1982) (Conf. Rep.); S. Rep. No. 97-530, at
517 (1982) (Conf. Rep.).
The Secretary’s implicit conclusion that these PABs
comply with § 147(f )’s public approval requirement is
consistent with longstanding IRS regulations. Those
regulations, in turn, effectuate Congress’s clearly expressed intent and are a reasonable interpretation of the
statute. The Court will therefore grant summary judgment to the federal Defendants and IntervenorDefendant on this issue.

75a
B. NEPA Compliance
Indian River County also alleges that the environmental review for Phase II conducted by FRA did not comply
with the National Environmental Policy Act (“NEPA”),
42 U.S.C. § 4321 et seq.
NEPA requires federal agencies to take a “hard look”
at the environmental consequences of significant actions
they propose to undertake. Theodore Roosevelt Conservation P’ship v. Salazar (“Theodore Roosevelt Conservation P’Ship II”), 661 F.3d 66, 75 (D.C. Cir. 2011) (quoting
Nevada v. Dep’t of Energy, 457 F.3d 78, 92-93 (D.C. Cir.
2006)). NEPA has two goals: it “places upon an agency
the obligation to consider every significant aspect of the
environmental impact of a proposed action[,]” and “it ensures that the agency will inform the public that it has
indeed considered environmental concerns in its decisionmaking process.” Balt. Gas & Elec. Co. v. NRDC,
462 U.S. 87, 97 (1983) (citations and quotation marks
omitted). NEPA is “ ‘essentially procedural,’ designed to
ensure ‘fully informed and well-considered decision[s]’ by
federal agencies” rather than “particular results.” Del.
Riverkeeper Network v. FERC, 753 F.3d 1304, 1309-1310
(D.C. Cir. 2014) (first quoting Vt. Yankee Nuclear Power
Corp. v. NRDC, 435 U.S. 519, 558 (1978); then quoting
Dep’t of Transp. v. Pub. Citizen, 541 U.S. 752, 756-757
(1989)).
NEPA’s core is the requirement that an agency prepare an Environmental Impact Statement (“EIS”) for
any proposed major federal action “significantly affecting
the quality of the human environment[.]” 4 42 U.S.C.
4

As explained above, the Court previously held that the Secretary’s
first PAB allocation constituted a major federal action. See Indian
River Cty. II, 201 F. Supp. 3d at 21. The parties do not question
whether the Secretary’s latest allocation also qualifies as such.

76a
§ 4332(C). An EIS must detail the foreseeable environmental impact of the proposed action, unavoidable adverse impacts, alternatives to the proposed action, and
any irreversible commitments of resources. Id. Understandably, preparing an EIS is a significant undertaking:
the agency must not only publish its analysis for public
review and comment but must also consult with other
agencies that offer specific expertise. Id.; 40 C.F.R.
§§ 1502.9, 1506.6. Finally, an EIS must be completed before the agency irretrievably commits federal resources
to the project so that the NEPA review serves its purpose of ensuring that the environmental consequences
are considered during the early stages of planning. See
Andrus v. Sierra Club, 442 U.S. 347, 351 (1979).
Because NEPA does not provide an independent
cause of action, plaintiffs bring their NEPA claims under
the general review provision of the APA. 5 U.S.C. §§ 702,
706. Under the APA, a court may only set aside agency
actions that are “arbitrary, capricious, an abuse of discretion, or otherwise not in accordance with law.” Id.
§ 706(2)(A). This means that the agency’s NEPA decision
must “comply with ‘principles of reasoned decisionmaking, NEPA’s policy of public scrutiny, and [the Council on
Environmental Quality’s] regulations.’ ” Del. Riverkeeper
Network, 753 F.3d at 1313 (quoting Found. on Econ.
Trends v. Heckler, 756 F.2d 143, 154 (D.C. Cir. 1985)).
More specifically, “the agency must examine the relevant
data and articulate a satisfactory explanation for its action including a rational connection between the facts
found and the choice made.” Id. (quoting Motor Vehicle
Mfrs. Ass’n of the U.S. v. State Farm Mut. Auto. Ins.,
463 U.S. 29, 43 (1983)). Like in other APA challenges, a
decision is not proper under NEPA “if the agency has relied on factors which Congress has not intended it to con-

77a
sider, entirely failed to consider an important aspect of
the problem, offered an explanation for its decision that
runs counter to the evidence before the agency, or is so
implausible that it could not be ascribed to a difference in
view or the product of agency expertise.” Id. (quoting
State Farm, 463 U.S. at 43). In short, the agency’s
NEPA review must be the “product of ‘reasoned decisionmaking.’ ” Id. (quoting State Farm, 463 U.S. at 43).
Indian River County challenges five separate aspects
of FRA’s NEPA review. It contends that FRA failed to
adequately analyze: (1) the public-safety consequences of
more and faster trains traveling along the rail line;
(2) the impact of boats having to queue at closed railroad
bridges waiting for trains to pass; (3) the available route
and bridge alternatives; (4) the anticipated noise generated by the trains; and (5) the projected increase in
freight train speeds due to planned track enhancements.
A common theme of the County’s complaints is that FRA
did not analyze certain issues in a manner or with a level
of detail that it would have preferred, and failed to comply with NEPA’s “look before leaping” directive by deferring necessary studies until after the NEPA process.
With those broad critiques in mind, the Court will address the five alleged deficiencies in turn.
1. Public-safety effects of the project
Under NEPA, an agency must take a “hard look” at
any impact the proposed action may have on “public
health or safety.” Standing Rock Sioux Tribe v. U.S.
Army Corps of Engineers, 255 F. Supp. 3d 101, 123
(D.D.C. 2017) (first quoting Robertson v. Methow Valley
Citizens Council, 490 U.S. 332, 350 (1989); then quoting
40 C.F.R. § 1508.27(b)(2)). And, where safety information
is incomplete or not available, the agency must disclose
that such information “is lacking.” 40 C.F.R. § 1502.22.

78a
Indian River County contends that FRA failed to adequately consider several risks to public safety by deferring necessary safety studies until after the NEPA process was complete. Specifically, the County highlights
what it perceives are inadequacies with respect to pedestrian safety, train collisions, and delays experienced by
emergency responders waiting at crossings for trains to
pass. Pls.’ MSJ at 11. FRA and AAF counter that the
agency thoroughly examined the project’s public-safety
impacts using the information available, considered and
responded to numerous public comments regarding safety, and incorporated mandatory mitigation requirements
in the FEIS. Based on its review, FRA concluded that
the project would have an overall positive effect on public
health and safety because the project includes planned
track improvements and safety enhancements and would
result in more people using trains rather than cars, leading to safer roads with fewer accidents and less pollution.
AR 73589.
The Court starts with Plaintiff ’s underlying concern
that the agency abdicated its responsibility to conduct an
independent public safety evaluation by deferring any
“hard look” until after the NEPA process is complete and
“shuffl[ing]” responsibility to respond to public-safety
concerns “off to AAF.” Pls.’ MSJ at 11. In support of
that contention, the County relies on a response from
AAF that was ultimately incorporated into the FEIS:
“Consistent with FRA safety requirements, which are
not part of the NEPA process, AAF will develop a Hazard Analysis and System Safety Program Plan prior to
the start of the operations.” AR 38707, 73658. Plaintiff
protests that NEPA is a “look before you leap” statute,
requiring the agency to conduct a thorough investigation
of the significant safety and environmental impacts be-

79a
fore taking a major federal action. Hr’g Tr. at 13:17-14:3.
In the County’s view, had FRA “looked”—that is, conducted a safety analysis as part of the NEPA process—it
would have disclosed and more specifically addressed the
three specific safety issues identified above.
The trouble for the County is that FRA does not contend that the Hazard Analysis and System Safety Program Plan (“SSP Plan”), prepared pursuant to FRA regulations, 5 replaces NEPA. Rather, these are two separate requirements. Under NEPA, FRA must take a hard
look at the safety impacts of the project, and that is what
FRA did. The agency considered and disclosed a wide
number of safety impacts of the project based on the information available at the time and then reasonably concluded that the increased safety risks from more and
faster trains could be mitigated. These mitigation
measures include grade-crossing improvements; installation of Positive Train Control (“PTC”)—a system of dynamically monitoring and controlling train movements—
across both passenger and freight trains; construction of
fencing in locations along the line where pedestrians are
more likely to cross the tracks illegally; and coordination
with local officials regarding emergency vehicles. AR
74056-58. So while the County is correct that the future
SSP Plans “do not obviate the need for the hard look and
public airing that NEPA demands,” Pls.’ Reply at 8, FRA
independently met its NEPA obligations in this regard.
The Court now moves to Indian River County’s more
specific safety concerns.
a. Pedestrian safety
Indian River County first contends that FRA and
AAF overlooked serious risks to pedestrian safety at
5

See 49 C.F.R. § 270.103.

80a
both “formal” and “informal” crossings. Before discussing these arguments, it is helpful to define some of these
train terms. Pedestrians cross train tracks at either
“formal” or “informal” crossings. Formal crossings are
those that pedestrians are supposed to use. We all recognize them: pathways or roads, signage, and signals indicating when a train is coming and when it is safe to
cross. Informal crossings are the opposite, ones that pedestrians are not supposed to use but sometimes do. Informal crossings will be somewhere on the “mainline” of
the railroad—that is, anywhere along the tracks other
than at the formal, at-grade crossings—where a pedestrian can scamper across. Finally, pedestrians can cross
tracks legally or illegally. A pedestrian crosses legally by
waiting, at a formal crossing, for the “all clear” and complying with the signals. One crosses the tracks illegally
by either jaywalking at a formal crossing or “trespassing” across the tracks at an informal crossing.
i. Formal crossings
With respect to formal crossings, Indian River County
originally contended that AAF’s planned grade-crossing
improvements were only voluntary and that any mitigation requirements were contingent on localities agreeing
to pay for ongoing maintenance. Pls.’ MSJ at 16. Both
FRA and AAF have clarified, however, that despite some
ambiguity in the FEIS, the grade-crossing improvements
are mandatory mitigation measures. See Fed. Defs.’
MSJ at 31-32; AAF MSJ at 12. 6 Accordingly, AAF will
6

For example, although the FEIS states that AAF will implement
the crossing improvements “in conjunction with county and municipal execution of amendments to existing crossing license agreements,” AR 73589, FRA has assured Indian River County that this
does “not precondition the grade crossing enhancements” on any
such amendments, Fed. Defs.’ MSJ at 32.

81a
be required to “implement and fund initial grade crossing
safety enhancements identified in the Diagnostic Team
Report.” AR 74137; see also AR 74054 (FEIS concluding
that the project “would result in enhancing public safety
with improvements to grade crossing signal equipment
for vehicular and pedestrian traffic”). And it is AAF that
will pay the cost of making these initial grade-crossing
safety improvements. AR 73718. Based on these representations, the County’s “concern that the grade-crossing
improvements will not be implemented at all has been
put to rest.” Pls.’ Reply at 11. 7
And these improvements are extensive. The required
safety features are the result of a diagnostic safety review, a thorough study of 349 total grade crossings conducted by FRA’s Office of Railroad Safety–Highway Rail
Crossing and Trespasser Program Division, in which Indian River County participated. AR 73718-19. The diagnostic team made a series of crossing-related recommendations, all of which were adopted. See AR 74137. These
measures include implementing sidewalk gates in particular locations, formal pedestrian crossings wherever
sidewalks exist on either side of the tracks, PTC along
the entire project, and four quadrant gates (which consist
of automatic flashing light signals and gates) at grade
crossings. AR 73718-24; see also AR 49371-85. Thus,
contrary to the County’s concerns, the FEIS requires
AAF to implement a variety of safety measures and im7

Who will bear the cost of maintaining these grade crossings remains an open question subject to some combination of state law and
future negotiations. The Court need not resolve this question, however, because it is beyond the scope of whether FRA reasonably concluded that the required mitigation measures were sufficient to address the safety concerns of reintroducing passenger trains to the
FECR corridor.

82a
provements at formal crossings to ensure pedestrian
safety.
ii. Informal crossings
With respect to informal crossings, the County insists
that even if FRA reviewed the safety risks at formal atgrade crossings, it completely overlooked the risk to
trespassing pedestrians on the mainline. Pls.’ MSJ at 13;
Pls.’ Reply at 3. Plaintiff says that these pedestrians risk
being blind-sided by high-speed passenger trains, which
can be hard to see and harder still to hear until too late.
Pls.’ MSJ at 13. It argues that “there is no ‘existing
analysis’ in the FEIS, or elsewhere in the record, of the
safety impacts of the Project on pedestrians on the
FECR corridor outside of formal grade crossings.” Pls.’
Reply at 7.
The record demonstrates otherwise. The FEIS expressly considers the possibility of trespassers—
including pedestrians who cross on the mainline at “informal” crossings or against signals at formal gradecrossings—and proposes mitigation measures to address
the problem. 8 The suggested approach is two-fold: encouraging pedestrians to use formal crossings and erecting fencing to prevent them from using informal ones.
First, encouraging pedestrians to use formal crossings. As explained above, the FEIS and ROD require
AAF to implement a series of improvements to grade
8

FRA argues that the Court should not address the County’s concerns about pedestrian safety along the mainline because pedestrians who trespass at informal crossings “engage in an unlawful activity.” Fed. Defs.’ Reply at 12. However, the problem of informal
crossings, legal or not, is “reasonably foreseeable” and therefore
must be considered. See Comm. of 100 on Federal City v. Foxx, 87
F. Supp. 3d 191, 214 (D.D.C. 2015). In any event, the FEIS addresses it. The Court will too.

83a
crossings, including pedestrian gates, paths to connect
sidewalks on either side of the tracks, and flashing lights.
The FEIS is clear that one reason to require these improvements is to encourage pedestrians to use formal
crossings: “The infrastructure and safety improvements
that are incorporated in the Project will reduce illegal
and unsafe trespass on the rail line, and improve safety
for area residents by adding sidewalks at grade crossings.” AR 73657. This statement in the FEIS is consistent with the recommendations of FRA’s on-site engineering field report, which expressed concerns in 2014
that AAF was not seriously committed to implementing
necessary security measures. See AR 48371. That field
report was shared with the diagnostic team which, as described above, produced a report that set forth the mitigation measures that AAF will be required to implement.
The field report explained:
Trespassing is an epidemic along this corridor.
Rather than encourage it, it is recommended per
my field notes at those particular locations—
[“certain locations along the corridor in which
sidewalks are present on both sides of the railroad right-of-way, but do not follow through”]—
to equip sidewalk approaches with a visual and
gated barrier. This is to provide safe passage of
pedestrians through a very active rail line and
prevents them from walking into an open railway
corridor; or directing them onto the street—
irrespective if there is an agreement or not.
AR 49373. In light of this discussion, it cannot be said
that FRA did not analyze the underlying problem of pedestrian crossings and come up with at least one response: create formal crossings where pedestrians are

84a
most likely to cross (i.e., where there are sidewalks on either side of the tracks).
FRA also adopted another response: fencing to keep
pedestrians from running across the tracks at informal
crossings. The FEIS explains that the FECR Corridor
already has fencing in “specific areas” where trespassing
has been a problem. AR 73858. Among other safety features—like warning signs, flashing signals, a publicawareness program coordinated with Florida Operation
Lifesaver, and PTC—the project will either improve existing fencing or add fencing where it is lacking:
For the E-W Corridor standard FDOT highway
fencing, or its equivalent, will be added throughout the length of the corridor where the track is
at-grade that will restrict and seal the railroad
right-of-way from public access. . . . Fencing on
the N-S Corridor would be upgraded based on
existing public access locations and the potential
for conflicts with the increased train frequency.
AAF will conduct [Right of Way] Field Surveys
to observe, document, and provide recommendations to minimize trespassing by employing fencing, warning signage, public outreach/information, and other appropriate measures as required.
AR 74059. The FEIS does not specify the “specific designs” for the fencing, explaining that fencing will be
added “where an FRA hazard analysis review determines
that fencing is required for safety; this will be in populated areas where restricting access to the rail corridor is
necessary for safety.” AR 73717; see also AR 74059
(“Fencing on the N-S Corridor would be upgraded based
on existing public access locations and the potential for
conflicts with increased train frequency. Specific designs
for fencing will be developed as the project advances.”).

85a
Conceding, perhaps, that the FEIS considers trespassing, the County nonetheless contends that FRA
failed to take a hard look at the problem in two ways.
Neither contention is persuasive.
First, the County suggests that the FEIS understates
the risks pedestrians face by relying on “stale and limited
data on the history of accidents involving FECR trains.”
Pls.’ Reply at 3. The FEIS indicates that between 2007
and 2011—when only freight trains were running on the
N-S Corridor—there were ten total fatalities “not at
grade crossings” between Cocoa and Miami. AR 73856
(Table 4.4.4-2). These deaths could have involved “a
range of accident types, including derailments, accidents
between trains, trains and humans, or between trains and
objects on the tracks.” Id. The County retorts that “the
reality” of trespasser fatalities “is starkly different” than
that presented in Table 4.4.4-2. Pls.’ Reply at 3. Relying
on data pulled from the same database used to create
Table 4.4.4-2, the County argues that during that same
period in that same stretch of corridor, there were actually 58 fatalities. Decl. of Philip E. Karmel, ECF No. 37-1
& Ex. 1 to Karmel Decl. But Plaintiff ’s data does not
sufficiently call into question FRA’s decision to rely on
the particular data the agency chose to use. See Sierra
Club v. FERC, 867 F.3d 1357, 1368 (D.C. Cir. 2017)
(“[T]he agency’s choice among reasonable analytical
methodologies is entitled to deference.” (citation omitted)). Plaintiff offers its data to shore up its concerns
about pedestrian safety specifically on the mainline, but
the data does not appear to distinguish between fatalities
on the mainline and at grade-crossings. Table 4.4.4-2, by
contrast, does, isolating the relevant data by presenting
only mainline trespasser fatalities. Thus, Plaintiff ’s data
is both over-inclusive and less relevant to answering the

86a
question the County poses regarding trespasser fatalities
along the mainline. Accordingly, the County’s data does
not directly undermine that used in the FEIS.9
And second, the County contends that by not identifying specific locations or designs for fencing until “sometime after project approval,” FRA again “kicks the can
down the road” on safety issues. Pls.’ MSJ at 13 (citing
AR 74059). According to the County, “artful language
about future ‘recommendations’ being included in a postapproval study by AAF does not pass muster . . . under
NEPA.” Pls.’ MSJ at 14.
NEPA, however, does not require the level of detail
the County seeks. As the Supreme Court has cautioned,
“there is a fundamental distinction [ ] between a requirement that mitigation be discussed in sufficient detail to
ensure that environmental consequences have been fairly
evaluated . . . and a substantive requirement that a complete mitigation plan be actually formulated and adopted.” Robertson, 490 U.S. at 352. “[I]t would be inconsistent with NEPA’s reliance on procedural mechanisms—as opposed to substantive, result-based standards—to demand the presence of a fully developed plan
that will mitigate environmental harm before an agency
can act.” Id. at 353. In City of Alexandria v. Slater
(“Slater”), 198 F.3d 862 (D.C. Cir. 1999), for example, the
D.C. Circuit considered whether the Federal Highway
Administration’s approval of plans to replace the Woodrow Wilson Bridge in Washington, D.C., complied with
NEPA. The Circuit disagreed with the district court’s
conclusion that the agency’s discussion of adverse envi9

Because the Court finds Plaintiff ’s data less relevant to the question at hand, it need not resolve the parties’ dispute over whether
that data constitutes extra-record evidence that should not be considered by the Court at all.

87a
ronmental effects and related mitigation measures was
too “terse” to satisfy NEPA. Id. at 869-70. While the
“discussion might have been more thorough,” more was
not required. Id. at 870. The agency acknowledged that
constructing a new bridge would affect traffic flow on
nearby streets and could delay delivery of emergency
services; the agency also “offer[ed] a range of mitigation
strategies,” such as maintaining “some access” on roads
and notifying the public of temporary road closings. Id.
This was enough: “Perhaps [the plaintiffs] would prefer
the [agency] to set forth in the final EIS a comprehensive
plan detailing precisely which streets will be closed, and
which alternative routes will be established, but that is
not mandated by NEPA.” Id. (citing Robertson, 490 U.S.
at 353). Here, too, FRA acknowledged potential adverse
effects the project could have on pedestrian safety, offered a range of mitigation strategies, and required AAF
to implement those strategies. NEPA demands no more.
b. Train-on-train collisions
Next, the risk of train accidents. The County maintains that the “FEIS contains no analysis of whether the
Project will adversely affect public safety by increasing
the likelihood of train-on-train collisions.” Pls.’ MSJ at
17. Not so. As the County itself acknowledges, the FEIS
identifies the risk of train-on-train accidents and concludes that the installation of PTC and other measures
will mitigate that risk. Id. (quoting AR 74056). The
question, then, is whether this was a sufficiently “hard
look” at the problem.
It was. The FEIS discloses that the reintroduction of
high-speed passenger trains to the existing freight traffic
on the N-S Corridor “may increase the frequency of opportunities for conflict between trains.” AR 74056. The
FEIS also concludes that “safety improvements at cross-

88a
ings, an upgraded PTC system, enhanced security, and
improved communications among emergency responders
would be a beneficial effect, serving to minimize potential
conflicts and their consequences.” Id. It explains that
“PTC is a system designed to prevent train-to-train collisions, derailments caused by excessive speeds, unauthorized train movements in work zones, and the movements of trains through switches left in the wrong position.” AR 73731 (emphasis added). And it points out that
PTC, which is required on all new passenger lines in the
United States, see 49 U.S.C. § 20157(a)(1), “will be interoperable between the AAF and FECR trains,” AR
73731.
In addition to PTC and improvements to the FECR
tracks, the FEIS notes that AAF will implement other
measures to decrease the risk of collision, including “a
passenger train emergency preparation plan, safety and
security certification plan, and several FECR safety procedures.” AR 74056. And because there are “no anticipated changes in the frequency or quantity of hazardous
materials to be transported” on the corridor, the FEIS
concludes that these safety precautions will reduce the
risk that a freight train involved in an accident will spill
hazardous materials. AR 74060. Relatedly, the FEIS
emphasizes that under the project, “[h]azardous materials would continue to be transported consistent with applicable statutes, rules and regulations.” Id.; AR 65275.
In light of these improvements and safety measures,
the government draws an apt parallel to the undersigned’s decision in Committee of 100 on Federal City v.
Foxx, 87 F. Supp. 3d 191 (D.D.C. 2015). Fed. Defs.’ Reply at 15. In that case, the plaintiffs alleged that the relevant agency failed to evaluate the impact of rail accidents resulting from a proposed train tunnel renovation

89a
project in Washington, D.C. Committee of 100, 87 F.
Supp. 3d at 215. The Court acknowledged that there
might be a risk of derailment but concluded that because
such a “risk of an accident exists today,” the plaintiffs
had failed to show that “the newly-constructed tunnels
will foreseeably increase the risk of an accident as compared to current operations.” Id. Instead, the agency
had reasonably concluded that tunnel modernization
would actually decrease the risk of accidents. Id. So, too,
here: FRA acknowledged the risk of derailment or collision but explained its conclusion that the risk would be
mitigated through PTC and other measures. 10 That was
sufficient under NEPA.
c. Emergency vehicles
Finally, the County contends that FRA failed to take
the requisite hard look at the adverse impact the project
could have on emergency vehicle response times. In
simple terms, it is concerned that emergency responders—that is, EMTs, firefighters, and police—may be unduly delayed either because their routes will be detoured
to avoid project-related construction or because they’ll
have to wait more frequently for trains to pass formal
10

The County insists that FRA does “not take issue” with a risk assessment prepared by former-plaintiff Martin County which hypothesizes that thousands of people could be put at risk in the event of a
train-on-train accident involving hazardous materials. Pls.’ Reply at
9. The record, however, clearly demonstrates that Martin County
raised this specific risk assessment in its comments on the FEIS and
that FRA responded, citing the implementation of PTC as a means
of “significantly reducing the probability of collisions between
trains.” AR 65275. Under the rule of reason, FRA did not need to
go into more detail regarding Martin County’s study given that it
disclosed the risk of train-on-train collisions and concluded that the
risk could be mitigated by PTC and mandatory compliance with federal regulations.

90a
crossings. The County believes the FEIS should have
(1) disclosed the specific location of road closures that
could impede emergency responders during construction
and (2) addressed the impact that more frequent train
traffic and related grade-crossing closures will have on
response times. Pls.’ MSJ at 21-22.
Several parts of the record reveal that the FEIS took
the requisite hard look at both issues. The FEIS clearly
discloses the risk that project construction could interfere with emergency vehicle traffic. AR 74036. Critically, the FEIS also identifies how “to minimize disruption
and to maintain emergency access” during construction:
AAF will coordinate planned closures and detours with
local emergency responders. Id.; AR 73659, 73914-15.
While it is true that the FEIS does not specify, as the
County wishes, the particular roads that will be closed
and when, Slater is again instructive: “Perhaps [the
County] would prefer [FRA] to set forth in the final EIS
a comprehensive plan detailing precisely which streets
will be closed, and which alternative routes will be established, but that is not mandated by NEPA.” Slater, 198
F.3d at 870 (citing Robertson, 490 U.S. at 353). The
FEIS also clearly discloses the risk that more frequent
train traffic will require more grade-crossing closures
that could affect emergency response times should a vehicle have to wait at a crossing for a train to go by. AR
73659. But after disclosing the risk, the FEIS concludes
that “the delays are expected to be minimal, as the passenger trains should clear a typical crossing in less than a
minute.” Id. Thus, FRA disclosed the two potential impacts, and concluded that one would be minimal and the
other mitigated. These findings satisfy NEPA’s procedural requirements.

91a
2. Effects of vessel queuing at railroad bridges
over navigable waters
Plaintiff next turns to the project’s impact on boats
waiting or queuing to cross through the draw bridges at
the St. Lucie and Loxahatchee rivers over which the N-S
Corridor track runs. When a train passes over one of
these bridges, the bridges obviously must be in the
“down” position. And because the bridges are not particularly high, boats cannot pass underneath when trains
cross over. By adding thirty-two passenger trains daily
to the existing freight traffic, these bridges naturally will
be in the down position much more often.
The County concedes that FRA discloses that the project would lead to increased wait times at the bridges but
contends that the agency failed to take a hard look at the
impact that these longer wait times would have on public
safety and the environment. Pls.’ MSJ at 27-28. The
County describes a slew of boats waiting for the bridges
to go up, idling their engines during the wait to hold their
place in the queue against the current, all the while consuming more fuel, producing more pollution, and endangering marine life. While the Court agrees with Plaintiff
that these kinds of potential effects are not to be downplayed, it concludes that FRA performed an adequate
analysis of vessel wait times for purposes of NEPA.
The FEIS relies on the 2014 and 2015 Navigation Discipline Reports prepared by Amec. See FEIS Appendices 4.1.3-B1 & 4.1.3-B2 (AR 49486-671). Based on these
reports and extensive navigation modeling analyses, the
FEIS discloses that the project will increase vessel queuing time at the moveable bridges as a result of increased
train traffic. AR 73934. For example, the average weekday closure time at the St. Lucie River Bridge is project-

92a
ed to be 6.6 hours under the 2016 No-Action Alternative 11
and 9.8 hours under the Project Alternative. AR 73920
(Table 5.1.3-4). An additional three hours of bridge closures may seem like a lot but FRA cautions that the
more relevant figure is the average wait time per closing
rather than the total closure time per day. The average
non-zero wait time 12 for boats is projected to be 6.9
minutes under the No-Action Alternative and 8.6 minutes
under the Project Alternative. AR 73927. The FEIS also
acknowledges that “[i]n the absence of mitigation, the potentially increased queue lengths and durations could adversely affect boater safety . . . .” AR 73934. The FEIS
proceeds to explain, however, that “AAF has committed
to implementing mitigation measures . . . that will reduce
queuing and associated safety concerns by providing
mariners with a fixed schedule of bridge closures and durations.” Id. In other words, the agency studied the issue and estimated that the project will increase the wait
time of boaters who experience any delay by 1.7 minutes
on average, and proposed reducing wait times by requiring AAF to notify boaters when the bridges would be
open so that they could plan accordingly.
The County essentially demands a closer analysis of
the safety and environmental impacts of increased wait
times for boats than that described above. However, under the applicable “ ‘rule of reason’ standard, such de11

Under the No-Action Alternative, the project does not go forward
and freight operations increase by approximately five to seven percent based on current projected growth. AR 73919.
12

“Average non-zero wait time” measures the average of only boats
that must wait for some period of time. This is in contrast to “average wait time,” which measures the average of boats that must wait
as well as those that wait for zero minutes, thus lowering the average.

93a
tailed second-guessing of an agency’s choices is not the
proper role of this Court.” WildEarth Guardians v. Bureau of Land Mgmt., 8 F. Supp. 3d 17, 33 (D.D.C. 2014)
(citation omitted). After all, “it is of course always possible to explore a subject more deeply and to discuss it
more thoroughly, but the line-drawing decisions necessitated by this fact of life are vested in the agencies, not the
courts.” Id. (cleaned up) (quoting WildEarth Guardians
v. Salazar, 880 F. Supp. 2d 77, 88 (D.D.C. 2012)); see also
N. Slope Borough v. Andrus, 642 F.2d 589, 600 (D.C. Cir.
1980) (“[T]he decision of how much detail to include is
one for the agency itself, guided by a ‘rule of reason.’ ”
(citation omitted)). Applying the rule of reason, the
Court concludes that FRA reasonably drew the lines
where it did and was not obliged to go into more detail
regarding the impacts of vessel queuing.
As an initial matter, FRA advanced a reasonable basis
for its conclusion that the projected increased vessel
queuing would not be as dramatic as the initial navigational modeling analyses conducted by Amec suggested.
The agency believed the analyses conservatively estimated wait times for three reasons. First, “[t]he model uses
a conservative value of 40 seconds as the minimum gap
time between all boats approaching the crossing.” AR
49638; see also AR 49640. However, the FEIS found that
“the observed time is almost half that.” AR 49640 (emphasis added). Second, in response to comments on the
draft EIS, Amec and FRA updated their analysis in the
2015 Navigation Discipline Report to rely on data regarding summer rather than winter boat traffic. AR 49635,
73917, 74042. There is significantly more boat traffic
during the summer than winter, which means that the
anticipated vessel wait times will be lower for much of the
year. Id. And third, the model is run using two scenari-

94a
os—one in which boats can travel through the crossings
simultaneously in opposite directions and one in which
they cannot. While the U.S. Coast Guard suggests that
simultaneous boat crossing is not considered “safe or
prudent,” AR 38780, FRA found that “small and mediumsized boats have been observed traveling through the
crossings simultaneously in opposite directions—only
larger boats, such as commercial vessels, require oneway passage,” AR 49638.
The County advances three criticisms of FRA’s analysis and conclusion that wait times will not be too severe.
First, it suggests that the modeling should not have considered the “passing allowed” scenario in light of the
Coast Guard’s warning. Pls.’ Reply at 15-16. However,
as Amec emphasized in its Report, “a system with no
boats passing is not representative of observed conditions.” AR 49645; see also AR 49638. It was reasonable
for the FEIS to present the modeling results based on
data consistent with observed conditions.
Second, the County asserts that FRA unreasonably
and without explanation focused on the “80th percentile”
volume of boat arrivals, ignoring the busiest days of boat
traffic represented by the 90th percentile volume and
underestimating vessel queuing and its attendant negative effects. However, the record is clear that FRA made
a reasoned choice to use the 80th percentile. This value
refers to “the value that exceeds 80% of the wait times of
all boats, etc. For example, if the [80th percentile] wait
time of all boats was 11.7 minutes, this means that 80% of
the boats waited 11.7 minutes or less and 20% waited
longer than 11.7 minutes.” AR 49640. In other words,
the 80th percentile value represents a “typical high volume day.” AR 73917. FRA decided to focus on the 80th
percentile rather than daily averages in response to

95a
comments that the draft EIS had “underestimated impacts . . . by using average day values.” AR 38687. Those
commenters suggested using “a methodology similar to
traffic analysis,” such as using 80th percentile values, instead. Id. The 2015 updated analysis bears this out: As
an example, for the St. Lucie River crossing, the average
wait for all boats is 5.1 minutes, the average wait for delayed boats is 8.6 minutes, and the 80th percentile wait is
14.1 minutes. AR 49645. Thus, FRA made the reasonable choice to use the 80th percentile value rather than the
average value (which would underestimate wait times) or
the 90th percentile value (which would exceed a “typical
high volume day”) as a more realistic measure of boat
traffic. The Court has no basis to second guess that decision.
And third, the County faults FRA for failing to factor
in the role of “hazardous currents.” Pls.’ MSJ at 27-28.
Commenters on the draft EIS also expressed concern
that the modeling did not reflect realistic boating behavior because it “assume[s] that boats could safely hold
their positions in a queue, regardless of tides, currents,
vessel wake, and other factors.” AR 73916. But FRA
disclosed this assumption—“[t]he model does not account
for the complex interaction of tides, currents, vessel
wake, and boater behavior”—and explained that the
model “represents the most realistic situation of boat arrivals and bridge operations possible using modeling
technology.” Id. In other words, FRA said it did the
best it could with available modeling technology and conceded that it was not perfect. This was “sufficiently thorough to comply with NEPA.” See WildEarth Guardians, 8 F. Supp. 3d at 34 (concluding that agency’s “analysis complies with the ‘rule of reason’ in light of the information available to the agency” where it “candidly dis-

96a
closed that no appropriate model exists to accurately
predict” specific impact raised by plaintiffs and “instead
relied on available modeling data”); cf. Comm. of 100, 87
F. Supp. 3d at 218 (explaining that an agency need not
“employ the best, most cutting-edge methodologies”
(quoting Theodore Roosevelt Conservation P’Ship v. Salazar (“Theodore Roosevelt Conservation P’Ship I”), 616
F.3d 497, 511 (D.C. Cir. 2010)). The County does not suggest a readily-available alternative modeling technique.
FRA also reasonably concluded that most of the vessel
queuing—overstated as FRA believed it was—could be
mitigated, likewise supporting the agency’s decision not
to delve deeper into the safety impacts of queuing. The
modeling analysis “does not take into consideration any
of the mitigation strategies” that AAF will be required to
implement to reduce queue times. AR 49648. Those mitigation requirements include a publicly-available set
schedule for bridge closures, notification signs with
countdowns to help boaters plan trips accordingly, increased communication with local authorities during holidays and special events, and a “coordination plan” with
the U.S. Coast Guard. AR 74138-39. The FEIS ultimately concludes that these mitigation measures “will reduce
queuing and associated safety concerns.” Id.; see also
AR 49648 (2015 Navigation Discipline Report concluding
that “[i]f these strategies are used by the boating community, the non-zero wait times”—that is, the waiting
time for boats that actually experience some delay—“will
decrease and any potential impact to the industry can be
significantly avoided”). This makes sense: If boaters
know when the bridges will be opened or closed, they can
plan accordingly to avoid waits.
Under the rule of reason, then, the FEIS’s discussion
of vessel queuing and its related effects was adequate

97a
under NEPA. While the County may want a more detailed analysis of each environmental and safety impact,
FRA reasonably drew the line, concluding that such
analysis was not necessary given that the initial projected
wait times were conservative and that most wait times
could be mitigated.
3. Alternatives to the route and the use of moveable bridges
“At the ‘heart’ of the EIS is the agency’s evaluation of
the potential environmental impacts of all ‘reasonable alternatives’ for completing the action.” Theodore Roosevelt Conservation P’ship II, 661 F.3d at 69 (quoting Slater, 198 F.3d at 866); 40 C.F.R. § 1502.14. “The range of
reasonable alternatives must include ‘technically and
economically practical or feasible’ alternatives,” and “is
‘delimit[ed]’ by the agency’s reasonably defined goals for
the proposed action,” Theodore Roosevelt Conservation
P’Ship II, 661 F.3d at 69 (alteration in original) (first
quoting 43 C.F.R. § 46.420(b); then quoting Slater, 198
F.3d at 867). Both the agency’s definition of its goals and
its selection of alternatives are also reviewed under the
“rule of reason”: “as long as the agency ‘look[s] hard at
the factors relevant to the definition of purpose,’ we generally defer to the agency’s reasonable definition of objectives.” Id. (alteration in original) (quoting Citizens
Against Burlington, Inc. v. Busey, 938 F.2d 190, 195-196
(D.C. Cir. 1991)). And, as long as “the agency’s objectives are reasonable,” a court “will uphold the agency’s
selection of alternatives that are reasonable in light of
those objectives.” Id. (citing Citizens Against Burlington, 938 F.2d at 196; Slater, 198 F.3d at 867).
Indian River County contends that FRA shirked its
duty to meaningfully consider alternatives by unreasonably deferring to AAF in two instances. The record, how-

98a
ever, demonstrates otherwise. FRA properly considered
AAF’s goals for the project within reason and independently verified information provided by the company.
a. Alternative routes
The County first complains that FRA narrowly defined the purpose of the project to mirror AAF’s goals.
This, in turn, led FRA to select “AAF’s preferred corridor without adequately considering alternatives,” including what the County suggested in a comment to the
FEIS as a more appropriate route that would have
avoided populated areas and aging railroad bridges. Pls.’
MSJ at 29-30; AR 64683.
Because the goals of a project delineate the universe
of reasonable alternatives, the Court begins with FRA’s
stated goals for the project. See Union Neighbors United, Inc. v. Jewell, 831 F.3d 564, 575 (D.C. Cir. 2016).
FRA defined the goal of the project as follows: to “provide reliable and convenient intercity passenger rail
transportation between Orlando and Miami, Florida (the
Project Corridor), by extending (in Phase II) the previously reviewed Phase I AAF passenger rail service between West Palm Beach and Miami and by maximizing
the use of existing transportation corridors.” AR 73662;
AR 65119. In other words, the goal is to provide efficient
rail transportation between Orlando and Miami without
having to lay too many new tracks. FRA also considered
AAF’s central economic goal—that the project be “sustainable as a private commercial enterprise.” AR 73672,
73674; AR 65119. Contrary to the County’s suggestion,
considering AAF’s goals was entirely appropriate: Congress “expect[ed] agencies to consider an applicant’s
wants when the agency formulates the goals of its own
proposed action.” Citizens Against Burlington, 938 F.2d
at 199.

99a
FRA’s decision to evaluate alternatives “primarily in
light of whether they could be constructed and operated
in accordance with AAF’s financial model,” AR 73685;
AR 65120, was also appropriate: “[W]here a federal
agency is not the sponsor of a project, ‘the Federal government’s consideration of alternatives may accord substantial weight to the preferences of the applicant and/or
sponsor in the siting and design of the project.’ ” City of
Grapevine, Tex. v. Dep’t of Transp., 17 F.3d 1502, 1506
(D.C. Cir. 1994) (quoting Citizens Against Burlington,
938 F.2d at 197).
FRA considered four alternative routes, including the
preferred FECR route, for connecting Orlando and West
Palm Beach. AR 15741; AR 73680-84. As relevant here,
FRA concluded that an alternative, inland route using
tracks owned and operated by CSX Transportation was
not feasible for a variety of reasons: AAF did not have
the operating rights needed for the CSX-owned route; it
would need to purchase or lease land to create a new rail
connector between the FECR route and the CSX route
to connect Phases I and II; the route would require extensive upgrades to the track, grade crossings, and new
infrastructure; trip times using the CSX route would exceed the 3 hour and 15 minute target for the project; and
the CSX route would result in the highest potential adverse direct and indirect impacts to wetlands and protected species compared to the other routes. AR 15757,
15760, 15765; AR 73681, 73686.
In response to the FEIS, the County proposed as another alternative the so-called “K Branch” route, which
would partially run on CSX tracks. See AR 64683. FRA
responded to this suggestion in Appendix C to the ROD
by explaining that the K Branch route “would not meet
the project purpose and need for the same reasons that

100a
the CSX alternative was dismissed in the EIS”—that is,
the “route is controlled in part by CSX, and FRA concluded that it was not reasonable to assume that AAF
could secure operating rights.” AR 65266. Moreover,
“the lack of control over operations and the longer route
length would result in trip times exceeding the approximately 3-hour run time[ ] that is part of AAF’s purpose.”
Id.
This response makes clear that FRA did not, as the
County argues, “refuse[ ] to consider” the K Branch
route. See Pls.’ Reply at 21. FRA considered the alternative, concluded it was not feasible for the same reasons
as another infeasible alternative, and said as much. The
case law does not require more. See Friends of Capital
Crescent Trail v. Fed. Transit Admin., 877 F.3d 1051,
1063 (D.C. Cir. 2017) (“Agencies need not reanalyze alternatives previously rejected, particularly when an earlier analysis of numerous reasonable alternatives was incorporated into the final analysis and the agency has considered and responded to public comment favoring other
alternatives.”). As in Friends of Capital Crescent Trail,
“[r]equiring more detail on rejected alternatives would
elevate form over function.” Id. at 1064.
b. Bridge alternatives
Second, Plaintiff contends that FRA did not independently review and verify AAF’s assertions, presented
in the FEIS at Table 3.3-14, that it was not feasible to
construct alternatives to the existing bridges at the St.
Lucie and Loxahatchee Rivers that would not result in
increased vessel queuing. Pls.’ Reply at 18; AR 73728.
To advance its point, the County emphasizes that AAF
“prepared the one-page table” of bridge alternatives “and
there is nothing in the record to indicate that anyone at

101a
FRA reviewed the information before copying it verbatim into the FEIS.” Pls.’ Reply at 18.
But it is not dispositive that AAF or its consultant (rather than FRA) prepared the chart so long as FRA conducted an “independent review” of the information before
including it in the FEIS. See Comm. of 100, 87 F. Supp.
3d at 211. There is a “presumption of regularity accorded to agencies in performing their duties.” Id. (quoting
Sierra Club v. Costle, 657 F.2d 298, 334 (D.C. Cir. 1984)).
The County fails to rebut that presumption with any evidence that FRA failed to independently consider reasonable alternatives for the bridges. In fact, the record supports FRA’s assertion that it independently considered
the bridge alternatives.
FRA posed 123 questions to AAF regarding the draft
EIS. AR 38897. One of these focused on alternatives to
the two moveable bridges. FRA commented that the
“FEIS should evaluate other bridge options,” including
higher moveable bridges and fixed bridges that could
support passenger and/or freight trains. AR 38930. In
response, AAF prepared a chart that walked through
those possible alternatives for the St. Lucie River and
Loxahatchee River Bridges. Ultimately, the chart explains that the four alternatives are not feasible for a variety of reasons. AR 38931-32. And, contrary to the
County’s assertion that FRA simply copied and pasted
this chart into the FEIS with no independent analysis,
FRA replied to AAF’s responses in an email: “we’ve
done a preliminary review of the materials that AAF has
provided in response to our questions. On the whole,
these seem to answer the questions. We’re having our
technical experts do further review on the analyses . . . .”
AR 39151 (emphasis added). And finally, FRA emphasized throughout the FEIS that “[a]s required by NEPA,

102a
FRA has reviewed the alternatives analysis, required
AAF to evaluate alternatives other than the proposed action, and has verified the analyses.” AR 73674. FRA’s
“statement[s] that it performed an independent review”
of the materials provided by AAF “is afforded a presumption of validity, which [Plaintiff] ha[s] not rebutted.”
Comm. of 100, 87 F. Supp. 3d at 212. Rather, the record
evidence contradicts the County’s contention that FRA
failed to independently evaluate and verify the analysis
undertaken by AAF regarding bridge alternatives.
4. Noise impacts
The County next argues that FRA’s analysis was inadequate under NEPA because, it contends, the agency
failed to follow applicable guidance on evaluating the
noise impacts of a rail project. Pls.’ MSJ at 30. Plaintiff
identifies what it believes are two fundamental departures from agency guidance: FRA conducted a general,
rather than detailed, noise analysis and FRA calculated,
rather than measured, existing noise levels, which led the
agency to omit a key source of noise in its analysis.
The ROD says that “[n]oise and vibration have been
assessed according to guidelines specified in FRA’s
High-Speed Ground Transportation Noise and Vibration Impact Assessment guidance manual [and] the Federal Transit Administration’s (FTA) Noise and Vibration
Impact Assessment guidance manual.” AR 65131. The
FRA manual “provides guidance and procedures for the
assessment of potential noise and vibration impacts resulting from proposed high-speed ground transportation
[ ] projects.” AR 13032. 13 The FTA manual does the
13

This reference to high-speed ground transportation projects is not
to be confused with “high-speed intercity rail facilities” referenced in
26 U.S.C. § 142(i)(1), discussed supra, which applies only to passenger trains capable of 150 mile-per-hour maximum speeds. FRA’s

103a
same “for projects with conventional train speeds below
90 mph.” Id. Both manuals outline three levels of analysis that may be used to determine the noise impact of a
proposed project: an initial screening procedure, a general noise assessment, and a detailed noise analysis. AR
13068, 13071, 13094; FTA, Transit Noise and Vibration
Impact Assessment (“FTA Manual”) (May 2006), at 1-4. 14
True to their names, the general noise assessment involves applying more “simplified models to estimate train
noise,” AR 13071, while the detailed noise analysis uses
“more refined procedures . . . to predict project noise and
evaluate mitigation measures” on a “site-specific” level,
AR 13094-95. The level of detail of the analysis affects
when the analysis is typically done: the general noise assessment can be conducted during the “early stages in
the project development,” AR 13068, while the detailed
noise analysis will usually be conducted after “the preliminary engineering has been initiated, and the preparation
of an environmental document (usually an Environmental
Impact Statement) has begun,” AR 13094. Here, the
agency conducted a general noise assessment while preparing the FEIS and concluded that, with the mitigation
measures it required AAF to take, the project would actually result in less noise overall. AR 73953. It nonetheless required AAF to conduct a detailed noise analysis
once “advanced engineering” is available for the project.
AR 65133.
The County argues that this approach represents an
arbitrary departure from agency guidance. The D.C.
Circuit has sent mixed signals as to “[w]hether an agency
manual “is intended for projects with train speeds of 90-250 mph,”
AR 13032, which includes AAF’s project.
14

Available at: https://www.transit.dot.gov/sites/fta.dot.gov/files/docs
/FTA_Noise_and_Vibration_Manual.pdf.

104a
must account for a departure” from its non-binding guidance. See Friends of Blackwater v. Salazar, 691 F.3d
428, 435 (D.C. Cir. 2012) (describing the question as “not
entirely clear” and citing conflicting authority). In Sitka
Sound Seafoods, Inc. v. NLRB, 206 F.3d 1175 (D.C. Cir.
2000), for example, it explained that because the guidance
in question “does not bind the Board,” “the relevant
question is whether, quite apart from the [guidance], the
Board acted unreasonably.” Id. at 1182. In Edison Electric Institute v. EPA, 391 F.3d 1267 (D.C. Cir. 2004), by
contrast, the Circuit stated that “the real question is
whether [the agency] adequately accounted for any departures” from non-binding guidance because “any deviation from [such guidance] is not per se arbitrary and capricious.” Id. at 1269 & n.3.
But whether an agency is required to merely act reasonably or adequately account for departures from nonbinding guidance, the Court concludes that FRA’s approach in this case comports with NEPA. As FRA explains, the noise-assessment manuals are “inherently
flexible, and do not require the use of a particular level of
analysis.” Fed. Defs.’ MSJ at 43. The County does not
contest that the relevant guidance is non-binding. In addition, the agency has explained why it prepared only a
general assessment for purposes of the FEIS. According
to the ROD, “Noise and Vibration Impacts for the northsouth corridor relied on the [applicable guidance] methodologies appropriate for the level of design of the alternatives evaluated in the FEIS.” AR 65132. Critically,
“[b]ecause advanced engineering is now available for the
north-south route, AAF will conduct [a] Detailed Noise
and Vibration Assessment throughout the corridor.” Id.
Thus, the agency explained that it relied on a general
noise assessment rather than detailed one because that

105a
was the level of analysis that was feasible at the time the
FEIS was prepared. And the agency took the additional
step of requiring AAF to conduct the more detailed analysis once more information became available and the
more comprehensive analysis was feasible. While the
agency certainly could have discussed the present infeasibility of a detailed analysis in more detail, the Court
concludes that it has done enough to satisfy NEPA.
The County also argues that FRA unreasonably departed from agency guidance by calculating, rather than
measuring, noise. Agency guidance explains that where,
as here, “the proposed high-speed rail project corridor is
to be shared with an existing rail transit corridor . . .
noise measurements at representative locations along the
corridor are essential to estimate noise accurately.” AR
13080. This does not appear contingent on whether the
agency conducts a general assessment or detailed analysis. Contrary to the guidance, Amec, the consultant that
prepared the underlying technical memorandum that
forms the basis of the noise information included in the
FEIS, did not measure existing noise along the N-S Corridor. AR 61110. Instead, it calculated existing noise
based on a variety of variables and then compared its calculations to the observed noise measurements of a 2010
Environment Assessment (“EA”) for Amtrak along the
same corridor. Id. In response to a comment from VHB
and FRA regarding the need to measure existing noise,
Amec and AAF explained that “[e]xisting noise measurements for existing rail line operations (i.e., freight)
have been completed through recent, previous studies. . . . Calculated noise levels were compared to analogous measured noise levels as verification of accuracy,
with good agreement.” AR 1325. But again, whether an
agency is required to act reasonably or also adequately

106a
account for any departures from guidance, the FRA has
adequately explained why it did not separately measure
noise—Amec and FRA could validate their calculations
based on recent noise measurements along the same corridor. The County’s two counterarguments do not undermine this conclusion.
First, the County argues that by failing to measure existing noise, FRA omitted a key source of noise as a variable in its assessment of current noise levels: the use of
warning horns along the mainline. Pls.’ Reply at 23. To
establish a baseline for its noise analysis, Amec modeled
current noise by focusing only on existing freight operations, the primary source of noise along the N-S Corridor. AR 73772. As explained above, Amec calculated existing noise and then validated its calculations by comparing them to the measured noise in the 2010 Amtrak EA.
AR 61110. Table 3-3 of the Amec noise analysis presents
the difference between the calculated noise exposure and
the observed noise exposure from the 2010 EA. Id.
There is almost no difference between calculated and observed noise for crossings; there is, however, a sizable
difference between calculated and observed noise for the
mainline. Id.
What accounts for this difference on the mainline?
Amec assumed that trains would only sound their warning horns at or near crossings, not on the mainline. Id.
“However, based on documentation within the Amtrak
EA, warning horns were observed at both the mainline
and crossing monitoring locations.” Id. Amec acknowledged that “[i]f warning horns were added to the calculated noise exposure for mainline conditions, noise levels
would be the same as calculated noise exposure for crossing conditions” and thus “within 1 dBA of the observed
noise levels.” Id. Amec did not explain why it assumed

107a
trains would sound their horns at crossings but not on
the mainline.
The FEIS also does not explain why it likewise focuses
exclusively on the use of warning horns at formal crossings. According to the FEIS, along the N-S Corridor,
“noise impacts [from the project] would primarily be due
to the increased frequency of warning horns use at atgrade crossings.” AR 73950 (emphasis added). To mitigate this noise, the FEIS notes that “AAF has committed
to installing stationary wayside horns at each of the 117
grade crossings between Cocoa and West Palm Beach
where severe, unmitigated impacts would occur using locomotive-mounted horns.” AR 73942. Wayside horns—
which are pole-mounted horns that are quieter than train
horns and sound only at the crossings—have “been
shown to substantially reduce the noise footprint” at an
intersection “without compromising safety at the grade
crossing.” Id. The FEIS concludes that adding these
horns at grade crossings “will eliminate all severe noise
impacts for residential and institutional receptors along
the N-S Corridor.” AR 73950 (emphasis added). This,
says FRA, means that the Project will actually make
grade crossings quieter than existing conditions (by 7 to
8 dBA) and will lead to a slight increase (by 0.2 to 0.3
dBA) along the mainline. AR 73953.
The County argues that FRA’s conclusion overlooks
the unmitigated noise from warning horns on the mainline. It turns out this is partially true. Both the agency
and AAF confirmed at the hearing that the noise analysis
did not take into account the use of warning horns along
the mainline. Hr’g Tr. at 28:22-29:1; id. at 38:8-12. Even
so, this omission is not fatal to the agency’s satisfaction of
its NEPA obligations. Like any agency, FRA’s actions
are “entitled to a presumption of regularity” and, if the

108a
Court “can ‘reasonably discern’ the agency’s path, it
should uphold the agency’s decision.”
Weiss v.
Kempthorne, 580 F. Supp. 2d 184, 188 (D.D.C. 2008) (first
quoting Citizens to Preserve Overton Park, Inc. v. Volpe,
401 U.S. 402, 415 (1971); then quoting Pub. Citizen, Inc.
v. FAA, 988 F.2d 186, 197 (D.C. Cir. 1993)).
Although the agency certainly could have been clearer, the Court is able to reasonably discern the agency’s
rationale for not including the use of warning horns on
the mainline as a variable in its noise analysis. As explained above, the FEIS concludes that “noise impacts
[from the project] would primarily be due to the increased frequency of warning horns use at at-grade
crossings.” AR 73950. Implicit in this conclusion is that
other sources of noise, including the use of warning horns
along the mainline, were not significant contributors of
noise. Although the agency neglected to expressly articulate why, the record suggests that the agency concluded mainline warning horns were not a significant
source of noise because they would be used only rarely
and randomly. In response to one of the County’s noiserelated comments on the FEIS, FRA explained that
“[t]rain-mounted horns may still need to be sounded at
all locations along the rail corridor under emergency
conditions.” AR 65289. This implies that the agency concluded that the use of mainline warning horns was both
rare (because they would be sounded only in emergencies) and difficult to measure (because emergencies are
unpredictable). This is consistent with counsel for AAF’s
representation at the hearing that the use of warning
horns on the mainline is “a random immeasurable event”
in response to unpredictable trespassing along the line.
Hr’g Tr. at 39:17.

109a
Under the rule of reason, the Court must consider the
“practical limitations on the agency’s analysis,” including
“the information available at the time” as well as the
availability of appropriate modeling. See Wilderness
Soc’y v. Salazar, 603 F. Supp. 2d 52, 61 (D.D.C. 2009)
(citing Transmission Access Policy Study Grp. v. FERC,
225 F.3d 667, 736 (D.C. Cir. 2000); N. Slope Borough, 642
F.2d at 600); WildEarth Guardians, 8 F. Supp. 3d at 34.
Applying that principle, it makes sense for the agency to
assume in its noise analysis that trains would use their
warning horns on the mainline only in unpredictable
“emergency conditions.” Although the agency could have
been more explicit in its reasoning, the Court can nevertheless discern why FRA did not consider the use of
mainline warning horns.
Second, the County argues that Amec and FRA overlooked the effect that a new “turnout” (that is, an additional line of track that allows a slower moving train to
pull off the mainline to let a faster moving train pass)
would have on the historic Lyric Theater in Martin County. But as AAF points out, FRA expressly considered
the noise impact to historic sites like the theater and concluded “there will be no noise impacts” after the required
mitigation. See AAF’s Reply at 12; AR 74070, 74073 (Table 5.4.5-3). FRA responded similarly after receiving
comments on the FEIS regarding the theater from Martin County. See AR 65276.
5. Changes to freight operations
Finally, the County contends that FRA expressly declined to consider the potential impacts of an increase in
the speed of freight trains caused by the project’s infrastructure improvements. Pls.’ MSJ at 23-26. This argument lacks support in the record. In its comment about
general effects on community character, Indian River

110a
County also expressed concern about freight trains, explaining that “freight operations can be anticipated to intensify with the Project, and the speed of freight trains
will increase to up to 70 mph.” AR 65268. FRA responded that the number of freight trains running along the NS Corridor was higher as recently as 2006 and that “[a]ny
potential changes to the existing freight operations along
the FECR Corridor are outside the scope of this FEIS.”
Id. This response should not be taken to mean that FRA
“specifically declined to consider” freight trains in the
FEIS. See Pls.’ Reply at 12. Rather, it merely reflects
that changes to existing freight operations—that is, the
number of freight trains running—were not part of the
federal action proposed. And even if changes to existing
freight operations or speeds were not specifically
planned, they were anticipated and discussed in the
FEIS.
The FEIS explains that the “addition of passenger rail
service” to the N-S Corridor, where freight trains currently run, “would require modifying the mostly singletrack system to a mostly double track system, which
would be used by both passenger and freight operations.
This will improve freight efficiency by increasing average
operating speeds.” AR 73907; see also AR 73733 (Table
3.3-16 depicting average freight train speed in Indian
River County as 38.57 mph under the “No-Action Alternative” and 43.45 mph under the project); AR 73906 (explaining that under the No-Action Alternative, “freight
speeds would not increase”). The FEIS ultimately concludes that this increased efficiency means “the Project
would have beneficial impacts on future freight traffic
along the N-S Corridor.” AR 73907.
Perhaps conceding that the FEIS at least discloses
the potential for faster freight trains, the County faults

111a
FRA for not considering four negative impacts of project-related changes to freight operations: (1) the publicsafety effect of faster freight trains, (2) increased noise
and vibrations from faster freight trains, (3) the potential
shift of freight traffic from day to night to accommodate
the passenger-train schedule, and (4) the threat to the
structural stability of the older St. Lucie River Bridge
from faster freight trains. Pls.’ MSJ at 24. The Court
addresses these potential effects in turn.
a. Public-safety impacts of faster freight
trains
First, as explained supra Section II.B(1)(b), FRA determined that the project would have an overall beneficial
effect on safety because AAF would be required to introduce a variety of safety features, including a Positive
Train Control system interoperable between passenger
and freight trains as well as improved grade crossings.
The agency was not required to separately analyze the
public-safety ramifications of marginally faster (by 5 mph
on average) freight trains given that these safety
measures would benefit both passenger and freight
trains, which the agency acknowledged would be moving
at increased speeds.
b. Noise and vibration impacts of faster
freight trains
Second, FRA offers two responses to the County’s argument that its noise and vibration analysis overlooked
an increase in freight speed: first, quite simply, the analysis did take “into account the characteristics of future
passenger and freight rail operations, including speed,”
Fed. Defs.’ MSJ at 37; and second, in any event, faster
freight trains would not have “a significant impact on
overall noise conditions” because FRA concluded that
warning horns are the predominant cause of noise along

112a
the N-S Corridor, Fed. Defs.’ Reply at 18. FRA’s first
argument is belied by the record but its disregard for
noise from faster freight trains is harmless largely because of its second argument.
The record is clear that FRA’s noise analysis does not
consider the incremental noise increase from faster
freight trains. Rather, the analysis takes into account
freight trains only to establish the baseline level of noise
based on calculated current freight operations. See AR
61108. The FEIS as well focuses on freight trains only to
calculate the baseline, not as a potential source of additional noise based on an incremental increase in speed.
That document discloses that the Project will “result in
long-term noise and vibration adverse impacts,” including “along the N-S Corridor due to the increase (greater
than doubling) of vibration events as a result of adding
passenger train service to the existing freight operations.” AR 73942 (emphasis added).
The County raised its concern that the noise and vibration analysis does not account for faster freight trains
in their comments on the FEIS. See AR 65289. It explained, “[t]he increases in freight train average operating speeds and maximum operating speeds as a direct result of the Project can be expected to increase noise and
vibration. . . . None of these Project effects were taken
into account in the general [noise] assessment.” Id.
FRA’s response is similar to the one it advances here:
“The FEIS addresses this issue as follows: . . . ‘freight
operations are expected to continue with a planned annual growth of 3 percent. This continued growth will likely
result in marginal increases in noise levels through possible increases in train speed, frequency, and length.’ ”
Id. (alterations in original) (quoting AR 73951). But critically, the FEIS cites to the No-Action Alternative, not

113a
the impact of the project and its attendant increase in
freight train speed. FRA concluded that in the absence
of the project, predicted growth in freight operations
would lead to some changes in those operations’ noise
impact. But again, FRA’s response demonstrates that
the parties have been talking past each other on the specific issue of incremental noise increases from faster
freight trains as a result of the project since the comment
period on the FEIS.
The Court must therefore determine whether this
omission was prejudicial. Under the APA, the Court
“shall” take into account “the rule of prejudicial error.” 5
U.S.C. § 706. “[T]he inquiry into whether a NEPA plaintiff suffered prejudice is well established in the relevant
precedent.” Standing Rock Sioux Tribe, 301 F. Supp. 3d
at 74 (citing, e.g., Pub. Employees for Envtl. Responsibility v. Hopper, 827 F.3d 1077, 1087-1088 (D.C. Cir. 2016));
see also Nevada, 457 F.3d at 90.
The Court concludes that the agency’s failure to take
into account potential incremental increases in noise from
slightly faster freight trains was harmless. The reason is
two-fold. First, the FEIS anticipates that freight trains
are to go only approximately 5 mph faster because of the
Project. See AR 73733 (Table 3.3-16 reflecting a 4.88
mph increase in speed for freight trains traveling
through Indian River County and a 5.30 mph increase in
speed for freight trains traveling through Martin County). The County fails to convince the Court that this
slight increase in speed would lead to a significant increase in noise. And second, the FEIS concludes that the
main source of noise from the project would be the “increased frequency of warning horn use at at-grade crossings” rather than train-related noise. AR 73950. Indeed,
the FEIS concluded that noise on the mainline would in-

114a
crease only marginally (by 0.2 to 0.3 dBA) from the addition of 32 high-speed passenger trains per day, AR 73953,
suggesting that noise from the trains themselves pales in
comparison to that of their horns at crossings.
c. Noise impacts of nighttime freight trains
Third, in response to Indian River County’s comment
on the FEIS that adding passenger trains “is likely to
shift freight trains to nighttime hours due to scheduling
conflicts,” FRA explained that “[f]uture passenger and
freight train operations and the period of the day they
are anticipated to occur has been analyzed based on
FECR’s anticipated future passenger and freight demands.” AR 65289. The County fails to provide evidence
that, contrary to this response, the noise analysis ignored
the anticipated train schedule. Instead, Plaintiff points to
Table 5.2.2-1, a table setting forth the “Proposed Passenger Rail Operations” which assumes two passenger
trains per night and does not discuss freight trains. AR
73944. That this specific table does not reflect the timing
of freight traffic does not prove that the agency did not
do so at all. In fact, the Amec report clearly demonstrates that the noise analysis contemplated at least some
nighttime freight traffic. That report explains that
“[a]ccording to historical trends . . . , approximately half
of the freight operations occur at night (10 pm to 7 am)
and half during the day (7 am to 10 pm).” AR 61109. Table 3-1 on that same page presents the “2016 Projected
Existing Conditions Rail Operations (North-South Corridor),” which contemplates 11 freight trains per night.
Id.
d. St. Lucie River Bridge and faster freight
trains
And fourth, the County faults FRA for not including
“discussion of the vibration impacts to the structural sta-

115a
bility of the St. Lucie Bridge from the increased use and
train speeds.” Pls.’ MSJ at 24. But an agency need not
discuss an impact that is “merely conceivable” and, at its
worst, minimal: AAF determined that the bridge is
“structurally sound,” AR 73727, and in any event, freight
trains were projected to go just 5 mph faster over the
bridge.
*

*

*

Agency action is rarely perfect. But NEPA does not
demand perfection. Instead, it requires that an agency
take a “hard look” at the reasonably foreseeable impacts
of a proposed major federal action. The extensive FEIS,
appendices, comment responses, and Record of Decision
together demonstrate that FRA met that requirement
here. The Court will therefore grant Defendants’ and Intervenor-Defendant’s motions for summary judgment on
Indian River’s NEPA claim, and deny the County’s motion for summary judgment on that claim.
III. Conclusion
For the foregoing reasons, the Court will grant Defendants’ Motion for Summary Judgment, grant Intervenor-Defendant’s Motion for Summary Judgment, and
deny Plaintiff ’s Motion for Summary Judgment. A separate Order shall accompany this Memorandum Opinion.
Date: December 24, 2018

s/ Christopher R. Cooper
Christopher R. Cooper
United States District Judge

116a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
1. Title 26 of the United States Code provides in relevant part as follows:
§ 141. Private activity bond; qualified bond
(a) Private activity bond
For purposes of this title, the term “private activity
bond” means any bond issued as part of an issue—
(1) which meets—
(A) the private business use test of paragraph (1)
of subsection (b), and
(B) the private security or payment test of paragraph (2) of subsection (b), or
(2) which meets the private loan financing test of
subsection (c).
* * * * *
(e) Qualified bond
For purposes of this part, the term “qualified bond”
means any private activity bond if—
(1) In general
Such bond is—
(A) an exempt facility bond,
(B) a qualified mortgage bond,
(C) a qualified veterans’ mortgage bond,
(D) a qualified small issue bond,
(E) a qualified student loan bond,
(F) a qualified redevelopment bond, or
(G) a qualified 501(c)(3) bond.

117a
(2) Volume cap
Such bond is issued as part of an issue which meets
1
the applicable requirements of section 146, and
(3) Other requirements
Such bond meets the applicable requirements of
each subsection of section 147.
* * * * *
§ 142. Exempt facility bond
(a) General rule
For purposes of this part, the term “exempt facility
bond” means any bond issued as part of an issue 95 percent or more of the net proceeds of which are to be used
to provide—
(1) airports,
(2) docks and wharves,
(3) mass commuting facilities,
(4) facilities for the furnishing of water,
(5) sewage facilities,
(6) solid waste disposal facilities,
(7) qualified residential rental projects,
(8) facilities for the local furnishing of electric energy or gas,
(9) local district heating or cooling facilities,
(10) qualified hazardous waste facilities,
(11) high-speed intercity rail facilities,
(12) environmental enhancements of hydroelectric
generating facilities,
1

So in original. Probably should end with a period after “146”.

118a
(13) qualified public educational facilities,
(14) qualified green building and sustainable design
projects, or
(15) qualified highway or surface freight transfer
facilities.
* * * * *
(i) High-speed intercity rail facilities
(1) In general
For purposes of subsection (a)(11), the term “highspeed intercity rail facilities” means any facility (not
including rolling stock) for the fixed guideway rail
transportation of passengers and their baggage between metropolitan statistical areas (within the meaning of section 143(k)(2)(B)) using vehicles that are reasonably expected to be capable of attaining a maximum speed in excess of 150 miles per hour between
scheduled stops, but only if such facility will be made
available to members of the general public as passengers.
* * * * *
(m) Qualified highway or surface freight transfer
facilities
(1) In general
For purposes of subsection (a)(15), the term “qualified highway or surface freight transfer facilities”
means—
(A) any surface transportation project which receives Federal assistance under title 23, United
States Code (as in effect on the date of the enactment of this subsection),

119a
(B) any project for an international bridge or
tunnel for which an international entity authorized
under Federal or State law is responsible and which
receives Federal assistance under title 23, United
States Code (as so in effect), or
(C) any facility for the transfer of freight from
truck to rail or rail to truck (including any temporary storage facilities directly related to such transfers) which receives Federal assistance under either title 23 or title 49, United States Code (as so in
effect).
(2) National limitation on amount of tax-exempt
financing for facilities
(A) National limitation
The aggregate amount allocated by the Secretary of Transportation under subparagraph (C)
shall not exceed $15,000,000,000.
(B) Enforcement of national limitation
An issue shall not be treated as an issue described in subsection (a)(15) if the aggregate face
amount of bonds issued pursuant to such issue for
any qualified highway or surface freight transfer
facility (when added to the aggregate face amount
of bonds previously so issued for such facility) exceeds the amount allocated to such facility under
subparagraph (C).
(C) Allocation by Secretary of Transportation
The Secretary of Transportation shall allocate
the amount described in subparagraph (A) among
qualified highway or surface freight transfer facilities in such manner as the Secretary determines
appropriate.

120a
2. Former Title 23 of the United States Code, as in
effect in 2006, provided in relevant part as follows:
§ 101. Definitions and declaration of policy
(a) DEFINITIONS.—In this title, the following definitions apply:
* * * * *
(21) PROJECT.—The term “project” means an undertaking to construct a particular portion of a highway, or if the context so implies, the particular portion
of a highway so constructed or any other undertaking
eligible for assistance under this title.
* * * * *
§ 106. Project approval and oversight
(a) IN GENERAL.—
(1) SUBMISSION OF PLANS, SPECIFICATIONS, AND
ESTIMATES.—Except as otherwise provided in this
section, each State transportation department shall
submit to the Secretary for approval such plans, specifications, and estimates for each proposed project as
the Secretary may require.
(2) PROJECT AGREEMENT.—The Secretary shall act
on the plans, specifications, and estimates as soon as
practicable after the date of their submission and shall
enter into a formal project agreement with the State
transportation department formalizing the conditions
of the project approval.
(3) CONTRACTUAL OBLIGATION.—The execution of
the project agreement shall be deemed a contractual
obligation of the Federal Government for the payment
of the Federal share of the cost of the project.
(4) GUIDANCE.—In taking action under this subsection, the Secretary shall be guided by section 109.

121a
(b) PROJECT AGREEMENT.—
(1) PROVISION OF STATE FUNDS.—The project
agreement shall make provision for State funds required to pay the State’s non-Federal share of the cost
of construction of the project and to pay for maintenance of the project after completion of construction.
(2) REPRESENTATIONS OF STATE.—If a part of the
project is to be constructed at the expense of, or in cooperation with, political subdivisions of the State, the
Secretary may rely on representations made by the
State transportation department with respect to the
arrangements or agreements made by the State
transportation department and appropriate local officials for ensuring that the non-Federal contribution
will be provided under paragraph (1).
* * * * *
§ 130. Railway-highway crossings
(a) Subject to section 120 and subsection (b) of this
section, the entire cost of construction of projects for the
elimination of hazards of railway-highway crossings, including the separation or protection of grades at crossings, the reconstruction of existing railroad grade crossing structures, and the relocation of highways to eliminate grade crossings, may be paid from sums apportioned in accordance with section 104 of this title. In any
case when the elimination of the hazards of a railwayhighway crossing can be effected by the relocation of a
portion of a railway at a cost estimated by the Secretary
to be less than the cost of such elimination by one of the
methods mentioned in the first sentence of this section,
then the entire cost of such relocation project, subject to
section 120 and subsection (b) of this section, may be paid

122a
from sums apportioned in accordance with section 104 of
this title.
(b) The Secretary may classify the various types of
projects involved in the elimination of hazards of railwayhighway crossings, and may set for each such classification a percentage of the costs of construction which shall
be deemed to represent the net benefit to the railroad or
railroads for the purpose of determining the railroad’s
share of the cost of construction. The percentage so determined shall in no case exceed 10 per centum. The
Secretary shall determine the appropriate classification
of each project.
(c) Any railroad involved in a project for the elimination of hazards of railway-highway crossings paid for in
whole or in part from sums made available for expenditure under this title, or prior Acts, shall be liable to the
United States for the net benefit to the railroad determined under the classification of such project made pursuant to subsection (b) of this section. Such liability to
the United States may be discharged by direct payment
to the State transportation department of the State in
which the project is located, in which case such payment
shall be credited to the cost of the project. Such payment
may consist in whole or in part of materials and labor
furnished by the railroad in connection with the construction of such project. If any such railroad fails to discharge such liability within a six-month period after completion of the project, it shall be liable to the United
States for its share of the cost, and the Secretary shall
request the Attorney General to institute proceedings
against such railroad for the recovery of the amount for
which it is liable under this subsection. The Attorney
General is authorized to bring such proceedings on behalf
of the United States, in the appropriate district court of

123a
the United States, and the United States shall be entitled
in such proceedings to recover such sums as it is considered and adjudged by the court that such railroad is liable for in the premises. Any amounts recovered by the
United States under this subsection shall be credited to
miscellaneous receipts.
(d) SURVEY AND SCHEDULE OF PROJECTS.—Each
State shall conduct and systematically maintain a survey
of all highways to identify those railroad crossings which
may require separation, relocation, or protective devices,
and establish and implement a schedule of projects for
this purpose. At a minimum, such a schedule shall provide signs for all railway-highway crossings.
(e) FUNDS FOR PROTECTIVE DEVICES.—
(1) IN GENERAL.—Before making an apportionment under section 104(b)(5) for a fiscal year, the Secretary shall set aside, from amounts made available to
carry out the highway safety improvement program
under section 148 for such fiscal year, at least
$220,000,000 for the elimination of hazards and the installation of protective devices at railway-highway
crossings. At least ½ of the funds authorized for and
expended under this section shall be available for the
installation of protective devices at railway-highway
crossings. Sums authorized to be appropriated to carry out this section shall be available for obligation in
the same manner as funds apportioned under section
104(b)(1) of this title.
(2) SPECIAL RULE.—If a State demonstrates to the
satisfaction of the Secretary that the State has met all
its needs for installation of protective devices at railway-highway crossings, the State may use funds made
available by this section for other purposes under this
subsection.

124a
(f ) APPORTIONMENT.—
(1) FORMULA.—Fifty percent of the funds set aside
to carry out this section pursuant to subsection (e)(1)
shall be apportioned to the States in accordance with
the formula set forth in section 104(b)(3)(A), and 50
percent of such funds shall be apportioned to the
States in the ratio that total public railway-highway
crossings in each State bears to the total of such crossings in all States.
(2) MINIMUM APPORTIONMENT.—Notwithstanding
paragraph (1), each State shall receive a minimum of
one-half of 1 percent of the funds apportioned under
paragraph (1).
(3) FEDERAL SHARE.—The Federal share payable
on account of any project financed with funds set aside
to carry out this section shall be 90 percent of the cost
thereof.
* * * * *
§ 145. Federal-State relationship
(a) PROTECTION OF STATE SOVEREIGNTY.—The authorization of the appropriation of Federal funds or their
availability for expenditure under this chapter shall in no
way infringe on the sovereign rights of the States to determine which projects shall be federally financed. The
provisions of this chapter provide for a federally assisted
State program.
(b) PURPOSE OF PROJECTS.—The projects described in
section 1702 of the SAFETEA-LU, section 1602 of the
Transportation Equity Act for the 21st Century, sections
1103 through 1108 of the Intermodal Surface Transportation Efficiency Act of 1991 (105 Stat. 2027 et seq.), and
section 149(a) of the Surface Transportation and Uniform
Relocation Assistance Act of 1987 (101 Stat. 181 et seq.)

125a
are intended to establish eligibility for Federal-aid highway funds made available for such projects by section
1101(a)(16) of the SAFETEA-LU, section 1101(a)(13) of
the Transportation Equity Act for the 21st Century, section 117 of this title, sections 1103 through 1108 of the Intermodal Surface Transportation Efficiency Act of 1991,
and subsections (b), (c), and (d) of section 149 of the Surface Transportation and Uniform Relocation Assistance
Act of 1987, respectively, and are not intended to define
the scope or limits of Federal action in a manner inconsistent with subsection (a).
* * * * *
§ 148. Highway safety improvement program
(a) DEFINITIONS.—In this section, the following definitions apply:
* * * * *
(3) HIGHWAY SAFETY IMPROVEMENT PROJECT.—
(A) IN GENERAL.—The term “highway safety
improvement project” means a project described in
the State strategic highway safety plan that—
(i) corrects or improves a hazardous road location or feature; or
(ii) addresses a highway safety problem.
(B) INCLUSIONS.—The term “highway safety
improvement project” includes a project for one or
more of the following:
* * * * *
(vi) Construction of any project for the elimination of hazards at a railway-highway crossing
that is eligible for funding under section 130, including the separation or protection of grades at
railway-highway crossings.

126a
* * * * *
(b) PROGRAM.—
(1) IN GENERAL.—The Secretary shall carry out a
highway safety improvement program.
(2) PURPOSE.—The purpose of the highway safety
improvement program shall be to achieve a significant
reduction in traffic fatalities and serious injuries on
public roads.
(c) ELIGIBILITY.—
(1) IN GENERAL.—To obligate funds apportioned
under section 104(b)(5) to carry out this section, a
State shall have in effect a State highway safety improvement program under which the State—
(A) develops and implements a State strategic
highway safety plan that identifies and analyzes
highway safety problems and opportunities as provided in paragraph (2);
(B) produces a program of projects or strategies
to reduce identified safety problems;
* * * * *
(d) ELIGIBLE PROJECTS.—
(1) IN GENERAL.—A State may obligate funds apportioned to the State under section 104(b)(5) to carry
out—
(A) any highway safety improvement project on
any public road or publicly owned bicycle or pedestrian pathway or trail; or
(B) as provided in subsection (e), other safety
projects.
(2) USE OF OTHER FUNDING FOR SAFETY.—

127a
(A) EFFECT OF SECTION.—Nothing in this section prohibits the use of funds made available under
other provisions of this title for highway safety improvement projects.
(B) USE OF OTHER FUNDS.—States are encouraged to address the full scope of their safety needs
and opportunities by using funds made available
under other provisions of this title (except a provision that specifically prohibits that use).
* * * * *
§ 601. Generally applicable provisions
(a) DEFINITIONS.—In this chapter, the following definitions apply:
* * * * *
(8) PROJECT.—The term “project” means—
* * * * *
(C) a project for intercity passenger bus or rail
facilities and vehicles, including facilities and vehicles owned by the National Railroad Passenger
Corporation and components of magnetic levitation
transportation systems[.]
* * * * *

128a
APPENDIX E
LETTER OF EDWARD V.A. KUSSY
(OCTOBER 7, 2005)
U.S. Department of
Transportation
Federal Highway
Administration
400 Seventh St., S.W.
Washington, D.C. 20590
Oct. 7, 2005
Reply to: HCC-30
Donald L. Korb, Esq.
Chief Counsel
Internal Revenue Service
1111 Constitution Avenue, NW
Room 3026
Washington, D.C. 20224-0002
By Facsimile: (202) 622-4277
Re: Section 11143 of Public Law 109-59—Tax Exempt
Financing of Highway Projects and Rail-Truck
Transfer Facilities
Dear Mr. Korb:
This letter represents the Federal Highway Administration’s (FHWA) view of this recently enacted legislation,
which amended § 142 of the Internal Revenue Code
(IRC).

129a
Section 11143 of the Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users, or
“SAFTEA-LU,” added a new highway category to
“exempt facility bonds.” Under this amendment to the
IRC, “qualified highway or surface freight transfer
facilities” means “any surface transportation project that
receives Federal assistance under title 23, United States
Code . . . any project for an international bridge or tunnel
for which an international entity authorized under
Federal or State law is responsible and which receives
Federal assistance under title 23, United States Code . . .
or any facility for the transfer of freight from truck to
rail or rail to truck . . . which receives Federal assistance
under either title 23 or title 49, United States Code . . . .”
When highway facilities are constructed under the
Federal-Aid Highway Program (FAHP), grantees typically fund some segments of the facility with Federal
assistance and other segments are funded with state or
local funds. This is the case even if the entire highway
facility is eligible for Federal assistance. Moreover, the
division between Federally assisted and grantee-only
funded work may vary as to the type of work or the
funding categories that a grantee may have available at
any given time. Both the segments or activities actually
using Federal assistance and the overall facility are
referred to as “projects” in Federal highway law,
regulations and practice. Section 145, title 23, United
States Code, makes clear that the rights of the States to
determine which projects shall be Federally financed
shall not be infringed, and decisions as to how to fund
particular highway projects (or portions thereof ) are
entirely within the discretion of our State grantees.
Thus, we believe the most reasonable reading of § 11143
permits the proceeds of private activity bonds (PAB)

130a
authorized by this provision to be used on the entire
transportation facility that is being financed and constructed even though only a portion of that facility
receives Federal assistance under title 23.
The statute references certain eligible “facilities” as
meaning “projects” that receive Federal assistance. This
mixing of the words “facilities” and “projects” makes
little sense unless one considers how the funding of transportation facilities is accomplished under the FAHP.
Under the FAHP, States and other recipients commonly
fund portions of the facility or activities associated with
the construction of the facility (such as preliminary
engineering, right-of-way acquisition, or construction of a
segment or phase of the facility), with Federal assistance
under title 23, subjecting those activities to whatever
Federal requirements attach to such funds. Portions not
funded with Federal assistance would not be subject to
Federal requirements that apply on a contract specific
basis, such as Federal competition requirements, Disadvantaged Business Enterprise goals, Davis Bacon, and
Buy American, among others.
We believe that PAB proceeds are non-Federal funds,
but under § 11143 they must be used on a facility that
receives Federal assistance on some component or segment. Thus, the Congress has limited the kinds of facilities where PAB proceeds may be used. At the same
time, Congress did not intend to fundamentally change
the way in which States implement project financing or
the use of Federal-aid highway funding on portions of a
facility and State funds or bond proceeds on other
portions. See 23 U.S.C. § 145. Thus, the use of PAB proceeds would not subject the non-Federal segments of any
facility to Federal requirements that do not presently
apply to such segments.

131a
This is clear from a close reading of the Conference Report, H.R. Conference Rep. 109-203 at 1143-1145, which
states “this provision is not intended to expand the scope
of any Federal requirement beyond its application under
present law . . .” Id. at 1145. Also, there is no reason to
assume that in amending the Internal Revenue Code,
Congress intended to use precisely the same definition of
“project” as is found in title 23, U.S.C. The amendment
found in § 11143 of SAFETEA-LU uses the word
“project” in the context of defining a “transportation
facility.” This suggests that the Congress had a broader
concept in mind. The FHWA uses the word “project” in
many different contexts, some quite narrow and others
much more expansive in meaning. In its narrowest
context a “project” under title 23 is a portion of the
highway constructed by a State. See 23 U.S.C. § 101(21).
The real consequence of insisting on the narrowest reading of the word “project,” limiting PAB proceeds only to
specific projects actually subject to a funding agreement
under 23 U.S.C. § 106, would distort the longstanding
way in which facilities are actually funded, create needless red tape, and artificially result in the extension of
Federal requirements that have nothing to do with the
bonding of transportation facilities. This is because such
a reading would induce State grantees to “sprinkle” title
23 funds to every separate project or contract of an
entire facility to make full use of PAB proceeds. By so
doing, a whole array of Federal requirements would
apply in ways that are wholly inconsistent with the way in
which the construction activities are generally administered, and extend many project specific requirements
simply because the State grantee chose to use PAB
funding rather than more established funding mechan-

132a
isms. This would result in doing exactly what the Congress indicated it did not intend to do.
In summary, our view is that PAB proceeds may be used
on any qualified facility that includes a project funded
with Federal-aid highway funds made available under
title 23. This reflects the way the Federal assistance
grants under the FAHP are administered. Also, it reflects the way in which bond proceeds may be used. A
PAB issuance for a transportation facility in many cases
will be secured by a revenue stream specifically associated with that transportation facility. In other words,
repayment of the PAB is likely to be supported by the
facility as a whole, not just the sections on which Federal
assistance funds are expended. Limiting the project
activities for which PAB proceeds may be used actually
runs counter to this obvious relationship.
If you have any questions or would like to discuss this
issue further please contact me at (202) 366-0764.
Sincerely,
s/ Edward V.A. Kussy
Edward V.A. Kussy
Acting Chief Counsel

133a
APPENDIX F
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
————
NO. 15-CV-00632-CRC
————
MARTIN COUNTY, FLORIDA, et al.,
Plaintiffs,
v.
U.S. DEPT. OF TRANSPORTATION, et al.,
Defendants.
————
DECLARATION OF PAUL BAUMER
————
May 15, 2015
————
I, PAUL BAUMER, hereby declare under penalty of
perjury that the following is true and correct:
1. I am a Transportation Policy Analyst in the Office
of the Assistant Secretary for Transportation Policy of
the United States Department of Transportation
(“DOT”). I submit this declaration in opposition to the
motion for a preliminary injunction filed by the plaintiffs
in the above-captioned action.
2. Pursuant to 26 U.S.C. § 142(m)(2)(C), Congress has
directed the Secretary of Transportation (the “Secretary”) to allocate $15 billion in private activity bonds
(“PABs”) among “qualified highway or surface freight
transfer facilities in such manner as the Secretary deems

134a
appropriate.” The Secretary was given this responsibility by Section 11143 of the Safe, Accountable,
Flexible, Efficient Transportation Equity Act: A Legacy
for Users (“SAFETEA-LU”), Pub. L. No. 109-59, 119
Stat. 1144 (2005).
3. The Secretary has delegated this responsibility to
the Under Secretary of Transportation for Policy (the
“Under Secretary”). See 49 C.F.R. § 1.25(l ). I am
currently the principal staff member assisting the Under
Secretary in carrying out this responsibility.
DOT’s Interpretation of the Eligibility Requirements
for PAB Allocations
4. DOT is authorized to allocate PABs to “qualified
highway or surface freight transfer facilities,” which
include, inter alia, “any surface transportation project
which receives Federal assistance under title 23,” 26
U.S.C. § 142(m)(1)(A), and “any facility for the transfer of
freight from truck to rail or rail to truck . . . which
receives Federal assistance under either title 23 or title
49,” id. § 142(m)(1)(C).
5. DOT has consistently interpreted this statutory
language as authorizing it to allocate PABs to an entire
project even if only a portion of the project receives
Federal assistance under Title 23 or Title 49. Thus, if
some portion of a surface transportation project receives
Title 23 funding, the entire project qualifies for a PAB
allocation under Section 142(m)(1)(A). Similarly, if some
portion of a freight transfer facility receives Title 23 or
Title 49 funding, the entire facility qualifies for a PAB
allocation under Section 142(m)(1)(C).
6. DOT’s interpretation was set forth in a letter sent
by Edward V.A. Kussy, acting chief counsel of the
Federal Highway Administration (“FHWA”) (a com-

135a
ponent of DOT), to Donald L. Korb, chief counsel of the
Internal Revenue Service, on October 7, 2005, less than
two months after the enactment of SAFETEA-LU. A
true and accurate copy of the letter is annexed hereto as
Exhibit A.
7. Consistent with this interpretation, DOT has
allocated PABs to entire projects, even if only certain
portions of those projects receive Federal assistance
under Title 23 or Title 49. For example:
a. DOT allocated $1.3 billion in PABs to the
Purple Line light rail project in the Maryland suburbs
north of the District of Columbia. DOT determined
that the entire project qualified for a PAB allocation
under 26 U.S.C. § 142(m)(1)(A), based on the Maryland
Department of Transportation’s plans to spend $1
million in Title 23 funds to upgrade the Capital
Crescent Train, a shared use trail adjacent to the
planned rail line that is being upgraded as part of the
Purple Line project.
b. DOT allocated $576 million in PABs to the
Seneca I-80 Railport, an intermodal freight transfer
facility and logistics park in Illinois. DOT determined
that the entire project qualified for a PAB allocation
under 26 U.S.C. § 142(m)(1)(C), based on the Illinois
Department of Transportation’s plans to spend $1.248
million in Title 23 funds to replace a bridge near the
facility, which would assist the project.
c. DOT allocated $1.34 billion in PABs to the
CenterPoint Intermodal Center—Joliet Project, an
intermodal logistics park in Illinois. DOT determined
that the entire project qualified for a PAB allocation
under 26 U.S.C. § 142(m)(1)(C), based on the Illinois
Department of Transportation’s plans to spend Title
23 funds to improve a bridge near the facility and to

136a
widen and reconstruct a nearby interstate freeway,
both of which assist the project.
d. DOT allocated $554.8 million in PABs to the
RidgePort Logistics Center, a 3,000 acre masterplanned distribution park in Illinois. DOT determined
that the entire project qualified for a PAB allocation
under 26 U.S.C. § 142(m)(1)(C), based on the Illinois
Department of Transportation’s plans to spend Title
23 funds to widen and reconstruct a nearby interstate
freeway, which would assist the project.
e. DOT allocated $1.1 billion in PABs to the Eagle
Project, a commuter rail project in Denver, Colorado.
Although the application identified only two of the
project’s commuter rail lines (the “Gold Line” and
“East Corridor”) as receiving Title 23 funds, DOT
determined that the entire project—which also
includes a portion of a third commuter rail line (the
“Northwest Rail Corridor”), a commuter rail
maintenance facility, and the electrical systems at
Denver Union Station—qualified for a PAB allocation
under 26 U.S.C. § 142(m)(1)(A).
8. DOT also interprets the plain language of 26
U.S.C. § 142(m)(1)(A) as authorizing it to allocate PABs
to any “surface transportation project which receives
Federal assistance under title 23,” including any rail
project receiving such assistance. It has allocated PABs
to rail projects that meet the statutory eligibility criteria,
including, as discussed above, the Purple Line light rail
project in Maryland and a commuter rail project in
Colorado.

137a
DOT’s Allocation of PABs to the All Aboard Florida
Project
9. On August 15, 2014, All Aboard Florida (“AAF”)
submitted an application asking DOT to allocate $1.75
billion in PAB authority to the Florida Development
Finance Corporation (“FDFC”), with the proceeds to be
used to fund AAF’s planned passenger rail project
connecting Miami and Orlando (the “AAF Project”).
10. AAF’s application indicated that since the planning
process for the AAF Project began in December 2011,
the Florida Department of Transportation (“FDOT”) had
spent over $9 million in Title 23 funds to improve railwayhighway grade crossings along the project corridor. The
application also indicated that FDOT planned similar
expenditures in future years. AAF subsequently provided DOT with a spreadsheet providing details on
FDOT’s expenditures of Title 23 funds along the project
corridor, including more than $9 million in expenditures
in 2012, 2013, and 2014, as referenced in the application.
A true and accurate copy of that spreadsheet is annexed
hereto as Exhibit B.
11. Based on FDOT’s expenditures in 2012, 2013, and
2014, and its planned future expenditures, DOT
determined that the AAF Project was a “surface
transportation project which receives Federal assistance
under title 23,” and that it therefore qualified for a PAB
allocation under 26 U.S.C. § 142(m)(1)(A).
12. DOT determined in its discretion that it would be
appropriate to make a PAB allocation to the AAF
Project. On December 22, 2014, DOT issued a Provisional Bond Allocation Approval Letter allocating up to
$1.75 billion in PABs for the project.

138a
I declare under penalty of perjury that the foregoing
is true and correct. Executed on May 15, 2015, in
Washington, District of Columbia.
s/ Paul Baumer
Paul Baumer

